No. 21IN THE SUPREME COURT OF THE UNITED STATES
_________________________________________________________
_________________________________________________________
JOHN ESPOSITO,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
__________________________________________________________
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI TO
THE ELEVENTH CIRCUIT COURT OF APPEALS
__________________________________________________________
__________________________________________________________
CAPITAL CASE

Marcia A. Widder (Ga. 643407)
Counsel of Record
Akiva Freidlin (Ga. 692290)
Georgia Resource Center
104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
marcy.widder @garesource.org
akiva.freidlin@garesource.org
(404) 222-9202
COUNSEL FOR PETITIONER

INDEX TO APPENDIX
APPENDIX A

United States Court of Appeals for the Eleventh Circuit, Panel
Opinion. Esposito v. Warden, 818 Fed Appx. 962 (June 23, 2020)
...........……………………………………...…………………..……...…1

APPENDIX B

United States Court of Appeals for the Eleventh Circuit
Rehearing Denial (September 15, 2020) …….…….………………11

APPENDIX C

United States District Court for the Middle District of Georgia
Order (December 10, 2014) (Doc 67) .………………………….…..13

APPENDIX D

Georgia Supreme Court Denial of Certificate of Probable Cause
(March 19, 2012) (Doc 27-44) ………………………………………102

APPENDIX E

Butts County Superior Court Order (April 29, 2011) (Doc 27-39)
…......…………………………………………………………………..103

APPENDIX F

Direct Appeal Decision of the Georgia Supreme Court, Esposito v.
State 538 S.E.2d 55 (Ga. 2000) (Doc 15-18) ……..….………......150

APPENDIX G

United States Court of Appeals for the Eleventh Circuit COA
Expansion Request (May 4, 2015) ………………………..………157

APPENDIX H

United States Court of Appeals for the Eleventh Circuit COA
Expansion Order (November 10, 2015) …………………………218

Neutral
As of: February 10, 2021 6:12 PM Z

Esposito v. Warden
United States Court of Appeals for the Eleventh Circuit
June 23, 2020, Decided
No. 15-11384

Reporter
818 Fed. Appx. 962 *; 2020 U.S. App. LEXIS 19425 **

JOHN ANTHONY ESPOSITO, Petitioner-Appellant, versus
WARDEN, Respondent-Appellee.

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District
Court for the Middle District of Georgia. D.C. Docket No.
5:12-cv-00163-CAR.

Esposito v. Humphrey, 2014 U.S. Dist. LEXIS 170476 (M.D.
Ga., Dec. 10, 2014)

Case Summary
Overview
HOLDINGS: [1]-A murder defendant's habeas petition was
properly denied; his claim that counsel were ineffective for
failing to investigate and present forensic evidence casting
doubt on whether a tree limb was the murder weapon, based on
the state's failure to test the limb for DNA evidence; counsel
did investigate and use the lack of DNA testing as part of its
strategy; [2]-No prejudice was shown, because footprints, palm
prints, fingerprints, and a cigarette butt placed defendant at the
murder scene; [3]-Even assuming counsel's mistaken belief
about the admissibility of his illegally obtained confession was
deficient, no prejudice was shown because the jury heard
evidence that his female companion was larger and more
aggressive than he and that he was a follower and unlikely to
be a murderer; [4]-The mitigation evidence investigation,
including interviews of 80 witnesses, was adequate.

Disposition: AFFIRMED.
Outcome
District court's denial of petition for a writ of habeas corpus
affirmed.

Core Terms
murder, tree limb, confession, witnesses, investigate, closing
argument, penalty phase, ineffective, mitigation, culpability,
interviewed, present evidence, trial counsel, state court,
preparation, prejudiced, forensic evidence, contends, forensic,
argues, reasonable probability, counsel's performance,
videotaped confession, fail to investigate, death sentence,
recommended, injuries, sentence, drove, guilt

LexisNexis® Headnotes

* App. 1 *

Criminal Law & Procedure > ... > Appeals > Standards of
Review > Clear Error Review

HN3[ ]
Contrary
&
Unreasonable Application

Criminal Law & Procedure > ... > Appeals > Standards of
Review > De Novo Review

Where a federal court has determined that a state court decision
is an unreasonable application of federal law under 28 U.S.C.S.
§ 2254(d), it is unconstrained by 28 U.S.C.S. § 2254's deference
and must undertake a de novo review of the record.

HN1[

] Standards of Review, Clear Error Review

When reviewing a district court's grant or denial of habeas
relief, an appellate court reviews questions of law and mixed
questions of law and fact de novo, and findings of fact for clear
error. When reviewing state habeas court decisions in federal
habeas, the appellate court looks through unreasoned decisions
of state appellate courts and presumes that they adopted the
reasoning of the last related state court decision, unless the state
shows that the appellate court relied, or most likely relied, on
different grounds.

Criminal Law & Procedure > Habeas
Corpus > Review > Antiterrorism & Effective Death
Penalty Act
Criminal Law & Procedure > ... > Review > Standards of
Review > Contrary & Unreasonable Standard
HN2[
Act

] Review, Antiterrorism & Effective Death Penalty

When a state court denies habeas relief on the merits, a federal
court reviews that decision under the standards set by the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA). Generally, AEDPA bars federal courts from
granting habeas relief to a petitioner on a claim that was
adjudicated on the merits in state court unless the state court's
adjudication: (1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United
States; or (2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. 28 U.S.C.S. § 2254(d).
Clearly established Federal law under § 2254(d)(1) is the
governing legal principle or principles set forth by the Supreme
Court at the time the state court renders its decision. With
respect to § 2254(d)(2), state court fact-findings are entitled to
a presumption of correctness unless the petitioner rebuts that
presumption by clear and convincing evidence.

Criminal Law & Procedure > ... > Standards of
Review > Contrary & Unreasonable
Standard > Unreasonable Application

Unreasonable

Standard,

Criminal Law & Procedure > ... > Review > Specific
Claims > Ineffective Assistance of Counsel
Criminal Law & Procedure > Counsel > Effective
Assistance of Counsel > Tests for Ineffective Assistance
of Counsel
HN4[

] Specific Claims, Ineffective Assistance of Counsel

Under Strickland v. Washington, a defendant has a Sixth
Amendment right to effective assistance of trial counsel in his
criminal proceedings. Counsel renders ineffective assistance,
warranting vacatur of a conviction or sentence, when his
performance falls below an objective standard of
reasonableness, taking into account prevailing professional
norms, and when the deficient performance prejudiced the
defense, meaning that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding
would have been different. A reasonable probability of a
different outcome is a probability sufficient to undermine
confidence in the outcome. The petitioner bears the burden of
proving his ineffective assistance claim, and he must meet his
burden on both Strickland prongs—performance and
prejudice—to succeed. A court need not address the
performance prong if the defendant cannot meet the prejudice
prong, or vice versa. When analyzing a claim of ineffective
assistance under 28 U.S.C.S. § 2254(d), the court's review is
doubly deferential on counsel's performance. Thus, under §
2254(d), the question is not whether counsel's actions were
reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland's deferential
standard.

Criminal Law & Procedure > Counsel > Effective
Assistance of Counsel > Trials
HN5[

] Effective Assistance of Counsel, Trials

Counsel are permitted to make the strategic decision not to call
an expert and instead challenge the state's forensic evidence
through other means, and reviewing courts cannot second
guess that strategy. Strategic choices made after thorough

* App. 2 *

investigation of law and facts relevant to plausible options are
virtually unchallengeable. Which witnesses, if any, to call, and
when to call them, is the epitome of a strategic decision, and it
is one that a reviewing court will seldom, if ever, second guess.

Criminal Law & Procedure > ... > Review > Standards of
Review > Deference
HN6[

] Standards of Review, Deference

Federal courts must defer to the judgment of the jury in a state
court case in assigning credibility to the witnesses and in
weighing the evidence.

Criminal Law & Procedure > Counsel > Effective
Assistance of Counsel > Tests for Ineffective Assistance
of Counsel

deny relief.

Counsel: For JOHN ANTHONY ESPOSITO, Petitioner Appellant: John Anthony Esposito, Georgia Diagnostic and
Classification SP - Inmate Legal Mail, JACKSON, GA;
Akiva Freidlin, Marcia A. Widder, Georgia Resource Center,
ATLANTA, GA; Brian Kammer, Law Office of Brian
Kammer, DECATUR, GA.
For WARDEN, Respondent - Appellee: Clint Christopher
Malcolm, Sabrina Graham, Attorney General's Office,
ATLANTA, GA.

Judges: Before JILL PRYOR, TJOFLAT and MARCUS,
Circuit Judges.

HN7[ ] Effective Assistance of Counsel, Tests for
Ineffective Assistance of Counsel
The failure to present exculpatory evidence is more likely to be
prejudicial when the conviction is based on little evidence of
guilt.

Opinion
[*964] PER CURIAM:

Criminal Law &
Procedure > Trials > Witnesses > Impeachment
Evidence > Admissibility > Illegally Obtained Evidence
Evidence > ... > Credibility of
Witnesses > Impeachment > Prior Inconsistent
Statements
HN8[

] Witnesses, Impeachment

An illegally obtained confession may be introduced only for
purposes of impeaching the defendant and not for rebutting
defense witness testimony.

Criminal Law & Procedure > Habeas
Corpus > Review > Burdens of Proof
HN9[

In this capital case, John Esposito appeals the district court's
denial of his federal habeas petition. Esposito was sentenced to
death in Georgia following his conviction for the murder of
Lola Davis. Following an unsuccessful direct appeal and
collateral proceedings in Georgia state courts, Esposito filed a
federal habeas petition in the United States District Court for
the Middle District of Georgia, which the district court denied.
Esposito appeals the denial of his petition on three claims of
ineffective assistance of counsel. First, he contends that his trial
counsel were ineffective in failing to investigate [**2] and
present evidence that he was less culpable than his
codefendant, Alicia Woodward. Second, he contends that his
trial counsel were ineffective in failing to investigate and
present in the penalty phase of his trial mitigation evidence
about his childhood abuse and history of mental illness. Third,
he contends that his trial counsel were ineffective in making
their closing argument in the penalty phase.
After a thorough review of the briefing and the record, and with
the benefit of oral argument, we affirm the denial of Esposito's
petition.

] Review, Burdens of Proof

Where a state court's decision is unaccompanied by an
explanation, the habeas petitioner's burden still must be met by
showing there was no reasonable basis for the state court to

I. BACKGROUND

* App. 3 *

Esposito was convicted in Georgia of malice murder. A jury
recommended a death sentence, and the trial court accepted the
recommendation. Below we describe the events that led to
Esposito's conviction and sentence, as well as evidence, as
relevant here, presented at his state habeas proceedings.

A. Factual Background
Esposito and his girlfriend, Alicia Woodward, abducted Davis,
an elderly woman, from a grocery store parking lot in North
Carolina.1 Woodward approached Davis in [*965] the
parking lot and convinced Davis to give her a ride. Woodward
directed Davis to drive to a nearby location, where Esposito
was waiting. Esposito entered Davis's [**3] car and forced her
to move to the passenger seat. With Woodward driving,
Esposito took $1,000 and a checkbook from Davis's purse.
Esposito and Woodward drove her to a local bank, where they
forced her to cash a check for $300. They then drove her to a
remote location, where Esposito led her into a hayfield, forced
her to kneel, and beat her to death with a tree limb. After
Davis's murder, Esposito and Woodward drove to Alabama,
where they disposed of Davis's car and purse. When they ran
out of money, they abducted an elderly couple in Oklahoma,
robbed them, and bludgeoned them to death with a tire iron.
Esposito v. State, 273 Ga. 183, 538 S.E.2d 55, 57 (Ga. 2000).
Esposito and Woodward were arrested in Colorado. Id. at 5758. Esposito gave two confessions to law enforcement. He
made his first confession to FBI agents on the day of his arrest.
During the 45-minute interview, Esposito admitted that he
forced Davis to get out of the car and kneel on the ground. He
confessed to hitting her several times with a tree limb. He also
admitted to murdering the Oklahoma couple, recounting that
the murder "wasn't too bad" because he "didn't get any brains
on [his] face or anything." Doc. 13-13 at 58.2 He told FBI
agents that after he bludgeoned the wife, she had
brain [**4] matter on her face and one of her eyes was coming
out of her head.
A few days later, Esposito gave a more detailed confession in
a videotaped interview with a Georgia Bureau of Investigations
agent. He again admitted to murdering Davis. He confessed
that he hit Davis with a tree limb and kicked her with his shoe.

1 The

facts come from the evidence adduced at trial, which was
summarized by the Georgia Supreme Court in Esposito v. State, 273
Ga. 183, 538 S.E.2d 55 (Ga. 2000) (affirming Esposito's conviction
and death sentence on direct appeal).
2 Citations

in the form "Doc. #" refer to entries on the district court's

B. Motion to Suppress
Esposito was indicted in Georgia for Davis's murder. The trial
court appointed two criminal defense attorneys, Roy Robinson
Kelly III and W. Dan Roberts, to represent him.
Before trial, Esposito's counsel sought to suppress both of his
confessions. The trial court concluded that the first confession
would be admissible in evidence at trial. The court suppressed
the second, videotaped confession, however, after determining
that it violated Esposito's Miranda3 rights. In response, the
state argued that the videotaped confession nevertheless could
be used for impeachment or rebuttal purposes. After ruling that
the illegally obtained confession could be introduced only if
Esposito testified, the court clarified that the state could use it
for impeachment or rebuttal purposes.

C. Trial

1. Guilt/innocence phase
At the guilt/innocence phase of Esposito's trial, the [**5] state
presented evidence that Esposito and Woodward abducted
Davis, stole from her, and drove her to a remote area, where
Esposito brutally murdered her. FBI Agent Ron Knight
testified that when he interviewed Esposito after the arrest,
Esposito told him that the murders were "all [him].
[Woodward] didn't do anything." [*966] Doc. 14-15 at 49.
Esposito admitted to kidnapping Davis from a grocery store
parking lot, and when Knight asked what happened next,
Esposito responded "I killed her." Id.at 53. Esposito confessed
to hitting Davis with a tree limb. During the interview, Esposito
told Knight, "I don't have any remorse [about the murder]. I
don't have a conscience." Id. at 56. The state did not introduce
into evidence the videotaped confession.
A crime scene specialist testified that Davis's car contained
fingerprints, palm prints, and footprints matching those
belonging to Esposito and Woodward. Also, a cigarette butt
found in the car contained DNA that was consistent with
Esposito's DNA. The state submitted photographs showing that
a tree limb was found at the murder site, and hair was found on
the limb. A forensic analyst testified that one branch contained

docket. Documents from the state habeas proceedings have been
electronically filed; this opinion cites to the electronically-generated
page numbers located on the top margin of each page.
3 Miranda

(1966).

* App. 4 *

v. Arizona, 384 U.S. 436, 86 S. Ct. 1602, 16 L. Ed. 2d 694

63 hairs that matched Davis's hair. The tree [**6] limb was
never tested for DNA evidence.
The jury also heard testimony from the doctor who performed
Davis's autopsy. The doctor testified that Davis died of blunt
force trauma. He testified that he could not be sure what type
of object caused the trauma, but Davis's injuries were
consistent with being hit by an item with bark on it, so it was
possible that a tree limb was the murder weapon.
The jury heard that Woodward was larger physically than
Esposito: Esposito weighed about 160 pounds and Woodward
weighed about 180 pounds. The jury learned, too, that
Woodward: (1) booked and paid for their hotel rooms during
their crime spree, (2) drove Davis's car, and (3) was the first to
approach Davis in the grocery store parking lot.
The state rested. The defense rested without calling any
witnesses. In closing argument, Esposito's counsel emphasized
that the tree limb had never been tested for the presence of
DNA.
The jury found Esposito guilty of murdering Davis.

2. Penalty phase
At the penalty phase, the state introduced evidence about the
murder of the Oklahoma couple. The jury heard that Esposito
had confessed to murdering the couple and beating the wife
until her brain matter appeared on the [**7] side of her face
and her eye popped out of her head.
Esposito called seven witnesses in mitigation. These witnesses
testified about Esposito's disposition, background, and mental
capacity. Specifically, the jury heard from: the chief jailer for
the Jasper County jail, who testified that Esposito was a "model
inmate" who "never caused any problems" while he was in jail
pending trial; Esposito's high school teacher, who testified that
Esposito was a "follower" who had a "totally dysfunctional"
and "aggressive" mother; Esposito's aunt, who recounted that
Esposito was physically, verbally, and sexually abused as a
child; and Esposito's General Education Development (GED)
instructor, who testified that Esposito was "very intelligent,"
"high functioning" in academics, and a "follower" who did not
"initiate things by himself." Docs. 14-20 at 72; 14-21 at 80-81;
14-23 at 46, 48. Two witnesses—a psychiatric nurse and
therapist at a state psychiatric hospital—testified that they were
not convinced that Esposito was the killer.
Esposito's final mitigation witness was Dr. Daniel Grant, a
4 The

aggravating circumstances were that: (1) the murder was
committed in the course of an armed robbery, (2) the murder was

psychologist who had examined Esposito, interviewed him,
administered
tests
to
him,
and
reviewed
his
medical [**8] records. In contrast to the GED instructor's
testimony that Esposito was "very intelligent," Grant opined
that Esposito had average to slightly below average intelligence
and a simplistic, naïve view of [*967] the world. Esposito
lacked confidence and was not good at making decisions.
According to Grant, Esposito was "passive, submissive,
dependent[,] and self-conscious." Doc. 14-24 at 24. Grant
explained that Esposito had a history of five or six prior suicide
attempts and had engaged in self-mutilation. He also testified
that Esposito had "extreme reactivity and sensitivity." Id. at 25.
He noted that Esposito had reported that he was sexually
abused as a child and had, at one point, been forced to perform
oral sex on his stepfather.
The state successfully used cross-examination to bring out
unfavorable evidence about Esposito. The jury heard that:
Esposito's mother obtained a restraining order against him, he
had been involved in devil worship, he was placed in a
psychiatric facility after he assaulted and threatened to kill his
family, he was kicked out of a GED program after he threated
to "kill . . . everybody," and he tortured animals and wrote
letters about killing and raping. Doc. 14-23 at [**9] 50.
In closing argument, the state emphasized the aggravating
circumstances that warranted the death penalty.4 Esposito's
counsel gave a brief closing argument—filling just over four
pages of transcript—in which he stated that "there is no
question that [Esposito] has . . . lots of problems,"
complimented the prosecutor, and noted that the "most popular
thing" for the jury to do would be to sentence Esposito to death.
Doc. 14-25 at 2-3.
The jury unanimously recommended a sentence of death. The
judge adopted the jury's recommendation and imposed a death
sentence.

D. Direct Appeal and State Habeas Proceedings
The Georgia Supreme Court affirmed Esposito's conviction
and death sentence on direct appeal. See Esposito, 538 S.E.2d
at 60. Esposito then initiated state habeas proceedings. In his
counseled state habeas petition, he argued that his trial counsel
were constitutionally ineffective in failing to: (1) develop and
present evidence suggesting that Woodward, not Esposito, was
the killer; (2) develop and present in the penalty phase evidence
about Esposito's abuse as a child and his mental illness; and (3)
make an adequate closing argument during the penalty phase.
committed in the course of a kidnapping with bodily injury, and (3)
the offense was outrageously or wantonly vile because Davis was
disfigured by the beating.

* App. 5 *

The state habeas court conducted an evidentiary
hearing [**10] on Esposito's ineffective assistance of counsel
claims. At the hearing, Esposito's habeas counsel presented
testimony from several witnesses, including Kelly and Roberts,
the investigator who worked on Esposito's trial, and Esposito's
ex-girlfriend.
Kelly and Roberts testified about their legal experience and
detailed their investigation and preparation for Esposito's
capital trial. They both had worked on multiple capital cases
before Esposito's trial, and they previously had worked
together on a death penalty case. In preparing for Esposito's
trial, they realized it was likely that he would be found guilty;
thus, their goal was to help him avoid the death penalty.
Kelly testified that he and Roberts hired an investigator, Hector
Guevara, to do the investigation into possible mitigating
evidence for the penalty phase. During his investigation,
Guevara regularly met with Kelly and Roberts. All three visited
Esposito, whom Guevara questioned about his background, on
multiple occasions. Guevara [*968] provided Kelly and
Roberts with a list of more than 80 people he had interviewed.
Among those interviewed were Esposito's family members,
friends, teachers, coaches, counselors, psychiatrists,
social [**11] workers, and army recruiters. Guevara also
interviewed people who knew about Woodward's past,
including her former employers, friends, and family members.
Guevara provided Kelly and Roberts with written reports
summarizing his findings.
Trial counsel testified that they were aware that Esposito had
mental health issues and obtained his mental health records as
part of their trial preparation. They also consulted a DNA
expert to assist them in cross-examining the state's forensic
expert. Kelly explained that part of their trial strategy was to
show that no evidence—other than the confession—connected
Esposito to the murder weapon because the state failed to
gather DNA evidence from the tree limb.
Dr. Jonathan Arden, a forensic pathologist, testified that he
reviewed Davis's autopsy report, photographs of the autopsy,
and crime scene photographs. Arden opined that the shape of
her injuries indicated that she had been struck with a man-made
object, not a tree limb. When asked if it were possible that
Davis was murdered with a tree limb, Arden responded that he
did not know because "almost anything in the world is
possible." Doc. 17-9 at 42.
Courtney Veach, Esposito's ex-girlfriend, testified [**12] that
she witnessed firsthand the abuse inflicted on Esposito by his
mother. She testified that he had bruises on his body from his
mother's beatings. She further testified that his mother engaged
in inappropriate sexual behavior. For instance, she would have
loud sex when Veach and Esposito were in her home, and she

tried to get them to have sex there. Veach testified that Esposito
told her that when he was younger his mother made him watch
her have sex with different men. Veach recounted that she was
supposed to testify at Esposito's trial. Guevara was supposed to
meet her at the airport; however, they could not find each other
there. When she finally arrived at the courthouse, defense
counsel told her that they would not call her as a witness
because they did not have time to prepare her to testify.
Besides the testimony described above, Esposito presented the
habeas court with affidavits from other potential fact witnesses.
Esposito's kindergarten and fourth grade teachers swore that
they would have testified at trial about the abuse inflicted on
him by his mother and stepfather. Both teachers would have
testified that, when Esposito was in the fourth grade, he
reported to school [**13] employees that he was molested by
a man while walking to school. Esposito's stepfather, Wayne
Deese, swore by affidavit that Esposito would occasionally
"shake uncontrollably and beat his head on the floor," and to
make him stop his mother would stick his head under the
faucet. Doc. 17-21 at 77. Deese's sister, Cynthia Massari,
submitted an affidavit attesting that when Esposito was three
years old, his mother threw him against the wall and threatened
to punch him after he spilled his milk.
Lastly, Esposito submitted affidavits from witnesses who
would have testified about Woodward's violent tendencies and
her negative influence on him. Those witnesses included
Heather Bryan, Woodward's ex-girlfriend, who described
Woodward as possessive and violent and recounted a time
when Woodward threatened her with a butcher knife; Robert
Noble III, Woodward's ex-boyfriend, who said Woodward
stalked him and tried to run him over with a car; and Patricia
Holliman, Esposito's former landlord, who [*969] swore that
before he met Woodward, Esposito was quiet, responsible, and
attended church regularly, but after he met Woodward,
"[e]verything changed," and he stopped going to church and
would disappear for [**14] days at a time. Doc. 17-22 at 29.
The state habeas court denied Esposito's petition. The Georgia
Supreme Court denied Esposito's application for a certificate
of probable cause to appeal the state habeas court's order.

E. Federal Habeas Proceedings
After he had exhausted his state appeals, Esposito filed a
petition for a writ of habeas corpus in federal district court,
raising the same ineffective assistance of counsel claims he
raised in state court. The district court denied Esposito's
petition but granted him a certificate of appealability ("COA")
on two issues: first, whether trial counsel were ineffective in
failing to investigate and present evidence to support the
defense theory that Esposito was less culpable than Woodward;

* App. 6 *

and second, whether trial counsel were ineffective in failing to
investigate and present in the penalty phase mitigating
evidence of his childhood abuse and mental illness. We
expanded Esposito's COA to include his claim that his trial
counsel were ineffective in presenting penalty phase closing
argument.

II. STANDARDS OF REVIEW
HN1[ ] "When reviewing a district court's grant or denial of
habeas relief, we review questions of law and mixed questions
of law and fact [**15] de novo, and findings of fact for clear
error." Reaves v. Sec'y, Fla. Dep't of Corr., 717 F.3d 886, 899
(11th Cir. 2013) (internal quotation marks omitted). When we
review state habeas court decisions in federal habeas, we "look
through" unreasoned decisions of state appellate courts and
presume that they adopted the reasoning of the last related state
court decision, unless the state shows that the appellate court
relied, or most likely relied, on different grounds. Wilson v.
Sellers, 138 S. Ct. 1188, 1192, 200 L. Ed. 2d 530 (2018). Here,
because the Georgia Supreme Court's denial was a summary
one, we review the state habeas court's decision.
HN2[ ] When a state court denies habeas relief on the merits,
we review that decision under the standards set by the
Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"). Williams v. Taylor, 529 U.S. 362, 402-03, 120 S.
Ct. 1495, 146 L. Ed. 2d 389 (2000). Generally, AEDPA bars
federal courts from granting habeas relief to a petitioner on a
claim that was adjudicated on the merits in state court unless
the state court's adjudication:
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding. [**16]
28 U.S.C. § 2254(d). "'[C]learly established Federal law' under
§ 2254(d)(1) is the governing legal principle or principles set
forth by the Supreme Court at the time the state court renders
its decision." Lockyer v. Andrade, 538 U.S. 63, 71-72, 123 S.
Ct. 1166, 155 L. Ed. 2d 144 (2003). With respect to §

5 We

note at the outset that Esposito contends that the state habeas
court applied the wrong prejudice standard in rejecting his ineffective
assistance claims. He argues that the court required him not only to
meet the Strickland prejudice standard but also to show that the "result
of the proceeding was fundamentally unfair or unreliable." Supp.
Appellant's Br. at 14 (quoting Lockhart v. Fretwell, 506 U.S. 364, 369,

2254(d)(2), "[s]tate court fact-findings are entitled to a
presumption of correctness unless the petitioner rebuts that
presumption by clear and convincing evidence." Conner v.
GDCP Warden, 784 F.3d 752, 761 (11th Cir. 2015).
HN3[ ] "Where we have determined that a state court
decision is an unreasonable application [*970] of federal law
under [] § 2254(d), we are unconstrained by § 2254's deference
and must undertake a de novo review of the record." McGahee
v. Ala. Dep't of Corr., 560 F.3d 1252, 1266 (11th Cir. 2009).

III. DISCUSSION
HN4[ ] Under Strickland v. Washington, a defendant has a
Sixth Amendment right to effective assistance of trial counsel
in his criminal proceedings. 466 U.S. 668, 686, 104 S. Ct. 2052,
80 L. Ed. 2d 674 (1984). Counsel renders ineffective
assistance, warranting vacatur of a conviction or sentence,
when his performance falls "below an objective standard of
reasonableness," taking into account prevailing professional
norms, and when the deficient performance prejudiced the
defense, meaning that "there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the
proceeding would have been different." Id. at 688, 694. A
"reasonable probability" of a different outcome is "a
probability sufficient [**17] to undermine confidence in the
outcome." Id. at 694. The petitioner bears the burden of
proving his ineffective assistance claim, and he must meet his
burden on both Strickland prongs—performance and
prejudice—to succeed. Williams v. Allen, 598 F.3d 778, 789
(11th Cir. 2010). We "need not address the performance prong
if the defendant cannot meet the prejudice prong, or vice
versa." Holladay v. Haley, 209 F.3d 1243, 1248 (11th Cir.
2000) (internal citation omitted). When analyzing a claim of
ineffective assistance under § 2254(d), this Court's review is
"doubly" deferential on counsel's performance. Harrington v.
Richter, 562 U.S. 86, 105, 131 S. Ct. 770, 178 L. Ed. 2d 624
(2011) (internal quotation marks omitted). Thus, under §
2254(d), "the question is not whether counsel's actions were
reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland's deferential
standard." Id.
We now turn to Esposito's individual ineffective assistance
claims.5
113 S. Ct. 838, 122 L. Ed. 2d 180 (1993)); see Williams, 529 U.S. at
391 (holding in Part IV that Lockhart did not modify or supplant the
Strickland standard). We disagree. Despite arguably having suggested
initially that Esposito had to clear an additional hurdle to show
prejudice, a review of the court's order shows that it never actually
applied the heightened prejudice standard. Throughout its order, the
court explained that Esposito was required to show a "reasonable

* App. 7 *

A. Failure to Investigate and Present Evidence of Relative
Culpability
Esposito first contends that his trial counsel were ineffective in
failing to investigate and present evidence about his culpability
in the murder relative to Woodward's. He explains that
counsel's defense strategy was to cast doubt on his culpability
by
highlighting
Woodward's
potential
culpability.
Namely, [**18] counsel intended to show that Woodward was
"the driving force behind the crimes and may well have
committed the murders," while Esposito was a follower who
was coerced into committing the crimes. Appellant's Br. at 13.
He argues that counsel were deficient in pursuing this strategy
at trial because they failed to: (1) investigate and present
forensic evidence suggesting that the tree [*971] limb was not
the murder weapon, which would have cast doubt on his
confession that he, not Woodward, killed Davis, and (2)
properly investigate and present evidence of Woodward's
background and character.
The state habeas court rejected these arguments, concluding
that
Esposito's
counsel's
performance
was
not
unconstitutionally deficient because they adequately
investigated Woodward's role and elicited testimony about her
relative culpability at trial. The court further concluded that
even if counsel's performance were deficient, there was no
reasonable probability that additional evidence regarding
Woodward's culpability would have affected the outcome of
the trial.
We consider these arguments in turn.

1. Failure to investigate or present forensic evidence to
undermine Esposito's confession
Esposito argues [**19] that his counsel were ineffective for
failing to investigate and present forensic evidence casting
doubt on whether the tree limb was the murder weapon. First,
we must review counsel's performance under AEDPA
deference. See 28 U.S.C. § 2254(d)(1). Under § 2254(d)(1), the
state habeas court's rejection of Esposito's deficient
performance contention was neither contrary to, nor involved
an unreasonable application of, Strickland. Id. Defense counsel
retained a DNA expert in preparation for trial, cross-examined
the state's forensic expert about the state's failure to test the tree
limb for DNA evidence, and emphasized the lack of DNA
evidence in closing argument. Esposito argues that they should
have hired an expert to opine that Davis's injuries were caused
not by a tree limb, but by a man-made object—as Arden did at
probability" that, absent his counsel's deficiencies, the "outcome of
[his] trial" would have been different. Doc. 27-39 at 29, 35, 42. Thus,

the evidentiary hearing on Esposito's state habeas petition. But
the mere fact that counsel called no such expert does not mean
their performance had to have been deficient. Counsel instead
focused on attacking the state's forensic evidence or lack of it
by retaining an expert to prepare them to challenge the state's
evidence, including through cross-examination of its
witnesses. They then reinforced their [**20] points in closing
argument. HN5[ ] Counsel were permitted to make the
strategic decision not to call an expert and instead challenge the
state's forensic evidence through other means, and we cannot
now second guess that strategy. See Strickland, 466 U.S. at 690
("[S]trategic choices made after thorough investigation of law
and facts relevant to plausible options are virtually
unchallengeable . . . ."); Conklin v. Schofield, 366 F.3d 1191,
1204 (11th Cir. 2004) ("Which witnesses, if any, to call, and
when to call them, is the epitome of a strategic decision, and it
is one that [this Court] will seldom, if ever, second guess."
(internal quotation marks omitted)). In any event, counsel were
not required to pursue every forensic theory "until it [bore]
fruit." Solomon v. Kemp, 735 F.2d 395, 402 (11th Cir. 1984)
(internal quotation marks omitted)).
But even if counsel's performance was deficient, Esposito's
argument still fails because he cannot show he was prejudiced
by that deficiency. See Strickland, 466 U.S. at 694. We see no
reasonable probability that additional forensic evidence about
the murder weapon would have led to a different result. HN6[
] Even if the jury had heard expert testimony that a manmade object could have caused Davis's injuries, it would be
obliged to weigh that evidence against contradictory evidence
suggesting that Davis was murdered [**21] with the tree limb.
See Johnson v. Alabama, 256 F.3d 1156, 1172 (11th Cir. 2001)
(explaining that "federal courts must defer to the judgment of
the jury in assigning [*972] credibility to the witnesses and in
weighing the evidence"). This evidence included Knight's
testimony that Esposito confessed during a post-arrest
interview to having murdered Davis with a tree limb, the state's
forensic analyst's testimony that Davis's hairs were found on
the tree limb, and the autopsy doctor's testimony that her
injuries were consistent with being hit by an item with bark on
it. Indeed, Arden could not rule out the possibility that a tree
limb caused Davis's injuries. And uncontradicted evidence—
including footprints, palm prints, fingerprints, and a cigarette
butt—placed Esposito at the murder scene. HN7[ ] Given
this strong evidence of guilt, there is no reasonable probability
that additional forensic evidence would have made a difference
in the outcome of Esposito's trial. See Fortenberry v. Haley,
297 F.3d 1213, 1228 (11th Cir. 2002) (the failure to present
exculpatory evidence is more likely to be prejudicial when the
conviction is based on little evidence of guilt). Accordingly,
the court applied the correct prejudice standard from Strickland.

* App. 8 *

Esposito cannot establish prejudice from counsel's failure to
present the testimony of a forensic expert.

2. Deficient investigation and [**22] presentation of
evidence related to Woodward's background and character
Next, Esposito asserts that his counsel were deficient for failing
to discover and present evidence showing that Woodward had
a dominating and aggressive personality and was physically
larger than Esposito—all of which would have supported their
theory that she coerced Esposito to commit the murders. He
points to the affidavits he presented in his habeas proceedings
indicating that while he was a follower, Woodward was
domineering, possessive, and violent.
The state habeas court reasonably applied Strickland in
concluding that Esposito failed to show that trial counsel
conducted a deficient investigation into Woodward's
background. See 28 U.S.C. § 2254(d)(1); Strickland, 466 U.S.
at 688. The record shows that Kelly and Roberts hired Guevara,
who investigated Woodward's past by speaking with her
friends, family, and employers. He also interviewed Esposito's
friends and family about her. The fact that Guevara could have
discovered other witnesses who knew Woodward is not enough
to establish that counsel's investigation was deficient. See
Solomon, 735 F.2d at 402.
Esposito also contends that his counsel's presentation of
evidence related to Woodward's culpability was deficient. He
argues [**23] that they made only minimal efforts to present
evidence that Woodward was more culpable due to their
concern about opening the door for the state to use his
videotaped confession as rebuttal evidence. He argues that
counsel's efforts to avoid admission of the videotaped
confession in rebuttal were unreasonable because the
confession was inadmissible for that purpose.
HN8[ ] Esposito is correct that the videotaped confession
would have been inadmissible for rebuttal purposes because the
confession was obtained in violation of his Miranda rights. See
James v. Illinois, 493 U.S 307, 110 S. Ct. 648, 107 L. Ed. 2d
676 (1990) (recognizing that an illegally obtained confession
may be introduced only for purposes of impeaching the
defendant and not for rebutting defense witness testimony). But
even assuming that counsel's mistaken belief about the
admissibility of the confession rendered their representation
deficient, Esposito has failed to show that he was prejudiced by
that deficiency. See Strickland, 466 U.S. at 694. He cannot
show prejudice because the jury did, in fact, hear evidence that
highlighted Woodward's relative culpability [*973] in the
crime. For instance, the jury heard that Woodward was larger
physically than Esposito, approached Davis initially, drove

Davis to the murder site, and booked [**24] and paid for their
hotel rooms during the crime spree. And for what it's worth, the
jury heard from witnesses (Esposito's psychiatric nurse and
therapist) who were unconvinced that Esposito—and not
Woodward—murdered Davis. In short, because the jury heard
testimony about Woodward's physical dominance and
leadership role in the crime, we cannot say it was reasonably
probable that any additional evidence of that nature would have
made a difference in the outcome of the trial. See id. This is
particularly so given the overwhelming evidence of his guilt,
including his confession to Knight. See United States v.
Andrews, 953 F.2d 1312, 1327 (11th Cir. 1992) (holding, in a
direct appeal, that the defendant was not prejudiced by his trial
counsel's failure to call additional witnesses because the
evidence of his guilt was overwhelming). Esposito therefore
failed to show that he was prejudiced by counsel's presentation
of evidence related to Woodward's culpability.

B. Failure to Investigate and Present Mitigating Evidence
Esposito next argues that his counsel were ineffective for
failing to properly investigate and present in the penalty phase
of his trial mitigation evidence that may have convinced the
jury not to recommend a death sentence. He
explains [**25] that counsel should have discovered and
presented testimony from additional witnesses who could have
corroborated his claims of physical, verbal, and sexual abuse
while he was a child, as well as the psychological damage
inflicted by that abuse. He contends that had the jury received
an accurate picture of his abuse and mental illness, there was a
reasonable probability that at least one juror would have voted
to impose a sentence less than death, resulting in a
recommended sentence of life imprisonment. See O.C.G.A. §
17-10-31(c). In rejecting this claim, the state habeas court
concluded that Esposito's trial counsel's investigation and
presentation of the evidence were adequate, and their failure to
uncover every potential witness did not render their
representation deficient.
Esposito has failed to show that the state habeas court's denial
of this claim was an unreasonable application of Strickland. See
28 U.S.C. § 2254(d)(1). The record shows that, in preparation
for the mitigation portion of the trial, counsel hired an
investigator, Guevara, who conducted an extensive
investigation into Esposito's background by interviewing over
80 witnesses, including his family members, friends, teachers,
psychiatrists, and social workers. [**26] Guevara presented
his findings from these interviews to counsel in thorough
written reports that detailed Esposito's childhood abuse and
psychological issues. Given this extensive investigation, it was
reasonable for the state habeas court to conclude that counsel
were not deficient in investigating potential mitigation

* App. 9 *

evidence for the penalty phase.
Nor was it unreasonable for the state court to conclude that
there was no deficiency in counsel's presentation of the
mitigation evidence. Counsel were permitted to make strategic
decisions about which witnesses to call. See Conklin, 366 F.3d
at 1204. The witnesses counsel called in mitigation described
the physical and sexual abuse Esposito suffered, as well as his
attendant psychological issues. Esposito contends that it was
unreasonable for counsel not to call Veach, but we disagree.
Although counsel had intended to call Veach and planned to
pick her up at the airport, the plan went awry when she could
not be found, and as a result she [*974] arrived at the
courthouse at the end of the penalty phase. By then, counsel
had no time to prepare her to testify. At that point, counsel's
decision not to call her as a witness was not unreasonable. That
counsel may have been [**27] able to avoid the mishap with
more careful planning and execution does not make their
performance deficient under Strickland.

explaining how he was prejudiced by his counsel's closing
argument alone. Accordingly, he is entitled to no relief on this
claim.

IV. CONCLUSION
For the above reasons, the district court's denial of Esposito's
petition for a writ of habeas corpus is affirmed.
AFFIRMED.

End of Document

Counsel's decisions to call certain witnesses but not others were
made after a thorough investigation into Esposito's childhood
abuse and mental illness. Esposito thus has failed to show that
the state habeas court's rejection of this claim was an
unreasonable application of Strickland.

C. Inadequate Closing Argument in Penalty Phase
Lastly, Esposito argues that he was denied effective assistance
of counsel during the penalty phase because his counsel's brief
closing argument was inadequate. He explains that the closing
argument failed to reference the mitigating circumstances in
evidence and "gave jurors no cogent basis on which to impose
a sentence less than death." Appellant's Br. at 70. The state
habeas court summarily rejected this claim.
HN9[ ] Esposito has failed to show that there was no
reasonable basis for the state habeas court to reject this claim.
See Harrington, 562 U.S. at 98 ("Where a state court's decision
is unaccompanied by an explanation, the habeas petitioner's
burden still must be met by showing there was no reasonable
basis for the state court to deny relief."). Even if
counsel's [**28] closing argument was deficient, Esposito has
not shown that he was prejudiced by that deficiency. See id.
Esposito asserts that he was prejudiced by the inadequate
closing argument because it "was the culmination of counsel's
many failures up to that point and independently harmful."
Appellant's Br. at 73. This cumulative prejudice argument fails
for the same reason as his other claim of ineffective assistance
in the penalty phase—that is, counsel's performance in
investigating and presenting evidence in mitigation was not
deficient under Strickland. Esposito advances no argument

* App. 10 *

Case: 15-11384

Date Filed: 09/15/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 15-11384-P
________________________
JOHN ANTHONY ESPOSITO,
Petitioner - Appellant,
versus
WARDEN,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JILL PRYOR, TJOFLAT and MARCUS, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

* App. 11 *

Case: 15-11384

Date Filed: 09/15/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

September 15, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 15-11384-P
Case Style: John Esposito v. Warden
District Court Docket No: 5:12-cv-00163-CAR
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
REHG-1 Ltr Order Petition Rehearing

* App. 12 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 1 of 89

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
JOHN ANTHONY ESPOSITO,

:
:
Petitioner,
:
:
vs.
:
: CIVIL ACTION NO. 5:12‐CV‐163 (CAR)
CARL HUMPHREY, Warden,
:
:
Respondent. :
______________________________ :
ORDER
JOHN ANTHONY ESPOSITO petitions the Court for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. For the reasons discussed below, Esposito’s petition is
DENIED.
I. BACKGROUND AND PROCEDURAL HISTORY
A. Facts
The evidence at trial, which included 21 year‐old Esposito’s confession to federal
authorities, showed that he and his codefendant, 19 year‐old Alicia Woodward, both
residents of New Jersey, arrived in Lumberton, North Carolina around September 15,
1996. (Docs. 13‐12 at 14; 14‐6 at 83).1 After running out of money, they decided to rob
and murder someone. (Doc. 14‐15 at 50). Esposito explained that he thought about
robbing a younger woman, but ultimately decided an elderly person would be better

1

Because all documents have been electronically filed, this Order cites to the record by using the
document number and electronic screen page number shown at the top of each page by the
Court’s CM/ECF software

* App. 13 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 2 of 89

because “’old people can’t defend themselves. They don’t have the motor skills to fight
or run.’” (Doc. 14‐15 at 58, 62). On Thursday, September 19, 1996, he and Woodward
sat in the parking lot of a Winn‐Dixie grocery store and waited for a potential victim.
(Docs. 14‐7 at 57‐59; 14‐15 at 50).
Lumberton resident Lola Davis, a 90 year‐old retired high school librarian, took
care of her 87 year‐old husband, who suffered from Parkinson’s disease and required
constant assistance. (Docs. 14‐6 at 66‐70; 14‐7 at 28‐31). Mrs. Davis left him in the care
of a health care attendant only once per week—for two to three hours each Thursday so
she could have her hair done and buy groceries. (Docs. 14‐6 at 70; 14‐7 at 31, 37).
On Thursday, September 19, 1996, Mrs. Davis drove her 1978 Buick to Peggy’s
Beauty Salon, where she had been a regular client for seventeen years. (Docs. 14‐6 at 73,
77; 14‐7 at 15‐18, 34). She had her hair styled and then drove to Winn‐Dixie to buy
groceries. (Doc. at 14‐7 at 18). When Mrs. Davis exited the grocery store, Woodward
approached her. (Docs. 14‐7 at 89‐91; 14‐8 at 4). Woodward told Mrs. Davis that she
was scared of, and needed to get away from, her boyfriend and asked for a ride out of
the parking lot. (Doc. 14‐15 at 51). Mrs. Davis agreed to help and drove Woodward to
the rear of the grocery store, where Esposito jumped into the backseat of her car. (Doc.
14‐15 at 51‐52).
Esposito threatened to kill Mrs. Davis if she did not cooperate. (Doc. 14‐15 at
51‐52). He and Woodward had Mrs. Davis move to the passenger seat and Woodward

-2* App. 14 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 3 of 89

started driving. (Doc. 14‐15 at 52). They told Mrs. Davis to write a check for $300.00
made payable to cash and she complied. (Doc. 14‐15 at 52). On the way to the bank to
cash the check, Esposito went through Mrs. Davis’ purse and found approximately
$1,000.00. (Doc. 14‐15 at 52). They went through the drive‐through window at the
bank and cashed the $300.00 check. (Doc. 14‐8 at 40, 44). The bank teller later
identified both Woodward and Esposito. (Doc. 14‐8 at 43, 46).
With Mrs. Davis in the passenger seat, they travelled approximately 300 miles
from Lumberton, North Carolina to Madison, Georgia.2 (Doc. 14‐8 at 17‐18). This trip
took approximately five hours. (Doc. 14‐8 at 18). They exited the interstate in Morgan
County, Georgia and drove down a dirt road. (Docs. 14‐8 at 86; 14‐9 at 28). Esposito
had Mrs. Davis exit the vehicle, kneel on the ground, and he proceeded beat her to death
with a tree limb, and other “’stuff on the ground.’” (Doc. 14‐15 at 55). In his
confession, Esposito said he didn’t “’have any remorse’” for murdering Mrs. Davis; he
didn’t “’have a conscience.’” (Doc. 14‐15 at 56)
When Mrs. Davis failed to return home on the afternoon of September 19, Mr.
Davis became concerned and phoned the Sheriff’s department. (Docs. 14‐7 at 33; 14‐8 at
7‐10). A missing persons report was filed that day. (Docs. 14‐7 at 33; 14‐8 at 7‐10).
The next day, Mr. Davis learned that his wife had been killed and her body had been

2

Esposito and Woodward had traveled from New Jersey to North Carolina in Woodward’s
Pontiac Grand Am, but they abandoned that vehicle in the Winn‐Dixie parking lot. They
travelled to Georgia in Mrs. Davis’ Buick. (Docs. 14‐8 at 14; 14‐15 at 53).
-3* App. 15 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 4 of 89

found in Georgia. (Docs. 14‐7 at 34; 14‐8 at 16).
A cattle ranch overseer discovered Mrs. Davis’ body on September 20, 1996 under
a large oak tree in a hayfield. (Docs. 14‐8 at 62, 70‐73; 14‐9 at 34). Her head was
“wedged and driven down into the tree root” and there was a large tree limb left on her
body. (Doc. 14‐9 at 16, 56‐57). The forensic pathologist who performed the autopsy
testified that Mrs. Davis died from blunt force trauma to her head. (Doc. 14‐12 at 73).
He explained that she had significant blunt force injuries, including contusions,
lacerations, and abrasions about her face, neck, and ears; cartilage was protruding from
her left ear; there was extensive hemorrhaging and bruising in her scalp; she had
significant brain injury as a result of the outside head trauma; and there were defensive
wounds on her right hand and left wrist. (Doc. 14‐12 at 61‐62, 68, 78).
After murdering Mrs. Davis, Esposito and Woodward headed to Alabama, where
they abandoned her car and purse. (Docs. 14‐9 at 87; 14‐15 at 56‐57); Esposito v. State,
273 Ga. 183, 183, 538 S.E.2d 55, 57 (2000). “Davis’ automobile was shown at trial to
contain fingerprints, palm prints, and footprints matching Esposito’s and Woodard’s.
Saliva on a cigarette butt found in the automobile was shown to contain DNA consistent
with Esposito’s DNA.” Esposito, 273 Ga. at 183, 538 S.E.2d at 57.
Evidence presented at the sentencing phase showed that, after killing Mrs. Davis,
Esposito bludgeoned to death two more elderly people. In Alabama, Esposito and
Woodward boarded a Greyhound bus and headed west to Oklahoma City. (Doc. 14‐17

-4* App. 16 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 5 of 89

at 49). When they ran out of money in Oklahoma City, they decided to find another
elderly victim to rob and murder. (Doc. 14‐17 at 51). To that end, they waited in the
parking lot of a grocery store until they spotted Larry and Marguerite Snider3 leaving
the store. (Doc. 14‐17 at 52; 14‐18 at 8‐9).
Esposito approached the couple, told them his car had broken down, and asked
for a ride to a hotel. After Mr. Snider agreed and started driving, Esposito had him pull
over, grabbed him around the neck, and told him that he would kill Mrs. Snider if he
failed to do as he was told. (Doc. 14‐17 at 53). When Mr. Snider resisted, Esposito hit
him in the face. (Doc. 14‐17 at 53). With Woodward driving, they stopped at an
automatic teller machine, where Esposito made Mr. Snider withdraw money from his
account. (Doc. 14‐17 at 53‐54). They continued down the interstate until Esposito
directed Woodward to exit and drive into a “large field with a dirt road that ran down
the middle.”4 (Doc. 14‐17 at 54‐55).
After retrieving a tire iron from the trunk of the car, Esposito had Mr. Snider exit
the car and he proceeded to hit him in the head with the tire iron until Mr. Snider fell to
the ground. (Doc. 14‐17 at 56). In his confession, Esposito explained that killing Mr.
Snider “’wasn’t too bad. I did not get any brains on my face or anything.’” (Doc. 14‐17
at 56). Esposito then drug Mr. Snider to a grassy area next to the car and left him there.

3

Mr. Snider was ninety at the time and his wife was eighty‐six. (Doc. 14‐18 at 8‐9).
By this time, they had been driving five or six hours and were in Oldham County, Texas.
(Doc. 14‐19 at 82‐83).

4

-5* App. 17 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 6 of 89

(Doc. 14‐17 at 57).
Esposito returned to the car, pulled Mrs. Snider out of the backseat, and hit her in
the head with the tire iron. (Doc. 14‐17 at 57). When she fell to the ground, he hit her
again in the chin and in the right side of her face. (Doc. 14‐17 at 57). In his confession,
Esposito explained that hit her four times until he saw her “skull, ‘pop up.’” (Doc.
14‐17 at 57). He drug Mrs. Snider and placed her next to Mr. Snider. He confessed that
when he placed Mrs. Snider next to her husband, Mr. Snider was not breathing and Mrs.
Sniders’ “eyes were open and one eye was looking at him and one eye was ‘coming out
of her head.’” (Doc. 14‐17 at 58). He confessed that “he would never forget that sight
… she was breathing ‘real hard’”…not blinking” and “’[y]ou could have thrown dirt in
her eyes and she wouldn’t have blinked.’” (Doc. 14‐17 at 58). He “recalled seeing
brain matter on the side of [Mrs. Snider’s] face.” (Doc. 14‐17 at 58).
Esposito told authorities that Woodward had thrown the tire iron into the field,
but she “’didn’t do anything’”; he was the one who killed the Sniders. (Doc. 14‐17 at
59‐60). As with Mrs. Davis’ murder, Esposito said he had no remorse for killing Mr.
and Mrs. Snider. He explained, “‘I don’t have a conscience. I really don’t care.’”
(Doc. 14‐17 at 60).
After killing the Sniders, Esposito and Woodward took the Snider’s car and drove
to Colorado, where they were finally arrested on October 2, 1996 in Mesa Verde National
Park. (Docs. 14‐14 at 35‐42; 14‐17 at 61). Esposito explained that had they not been

-6* App. 18 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 7 of 89

arrested, their plan was to “go to the Wal‐mart, which is located in Cortez, rob and
murder another elderly woman and use the money to fly to San Diego.” (Doc. 14‐17 at
62).
B. Procedural history
On September 30, 1998, a jury found Esposito guilty of malice murder, felony
murder, armed robbery, and hijacking a motor vehicle. Esposito, 273 Ga. at 183 n.1, 538
S.E.2d at 57 n.1.

He was sentenced to death for the crime of malice murder, and the

Georgia Supreme Court affirmed his conviction and sentence on October 30, 2000. Id. at
183, 538 S.E.2d at 57.
After the Georgia Supreme Court denied his motion for reconsideration and the
United States Supreme Court denied his petition for writ of certiorari, Esposito filed a
petition for writ of habeas corpus in the Superior Court of Butts County on May 3, 2002.
(Docs. 15‐19 to 15‐21; 15‐23; 15‐25). He amended the petition on November 6, 2006 and,
after a three‐day evidentiary hearing on September 4, 5, and 6, 2007, the court denied
relief in an order dated April 5, 2011. (Docs. 17‐2; 17‐8 to 27‐23; 27‐39). The Georgia
Supreme Court denied Esposito’s application for a certificate of probable cause to appeal
(“CPC application”) on March 19, 2012. (Docs. 27‐41 to 27‐42; 27‐44).
On May 8, 2012, Esposito filed a Petition for Writ of Habeas Corpus by a Person in
State Custody in this Court. (Doc. 1). The Respondent filed his answer and the Court
denied Esposito’s motion for discovery, motion for an evidentiary hearing, and renewed

-7* App. 19 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 8 of 89

motion for an evidentiary hearing. (Docs. 10, 37, 42, 65). Both parties have now
briefed the issues of exhaustion, procedural default, and the merits of any remaining
claims. (Docs. 54 to 58).
II. STANDARD OF REVIEW
A. Exhaustion and procedural default
Procedural default bars federal habeas relief when a habeas petitioner has failed
to exhaust state remedies that are no longer available or when the state court rejects the
habeas petitioner’s claim on independent state procedural grounds. Frazier v. Bouchard,
661 F.3d 519, 524 n.7 (11th Cir. 2011); Ward v. Hall, 592 F.3d 1144, 1156‐57 (11th Cir. 2010).
There are two exceptions to procedural default. If the habeas respondent
establishes that a default has occurred, the petitioner can overcome the default by
establishing “cause for the failure to properly present the claim and actual prejudice, or
that the failure to consider the claim would result in a fundamental miscarriage of
justice.” Conner v. Hall, 645 F.3d 1277, 1287 (11th Cir. 2011) (citing Wainwright v. Sykes,
433 U.S. 72, 81‐88 (1977)). A petitioner establishes cause by demonstrating that some
objective factor external to the defense impeded his efforts to raise the claim properly in
the state courts. Spencer v. Sec’y, Dep’t of Corr., 609 F.3d 1170, 1180 (11th Cir. 2010)
(quoting Henderson v. Campbell, 353 F.3d 880, 892 (11th Cir. 2003)). A petitioner
demonstrates prejudice by showing that there is a reasonable probability that the result
of the proceedings would have been different. Id. Regarding what is necessary for a

-8* App. 20 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 9 of 89

petitioner to establish a fundamental miscarriage of justice, the Eleventh Circuit has
stated:
To excuse a default of a guilt‐phase claim under [the
fundamental miscarriage of justice] standard, a petitioner must
prove a constitutional violation has probably resulted in the
conviction of one who is actually innocent. To gain review of a
sentencing‐phase claim based on [a fundamental miscarriage of
justice], a petitioner must show that but for constitutional error at
his sentencing hearing, no reasonable juror could have found him
eligible for the death penalty under [state] law.
Hill v. Jones, 81 F.3d 1015, 1023 (11th Cir. 1996) (citations and quotation marks omitted).
B. Review of claims that were adjudicated on the merits in the state courts
Under AEDPA,5 this Court may not grant habeas relief with respect to any claim
that was adjudicated on the merits in state court unless the state court’s decision was (1)
contrary to clearly established Federal law; (2) involved an unreasonable application of
clearly established Federal law; or (3) was based on an unreasonable determination of
the facts in light of the evidence presented in the state court proceeding. 28 U.S.C. §
2254(d)(1)‐(2); see also Harrington v. Richter, 131 S. Ct. 770 (2011). The phrase “clearly
established Federal law” refers to the holdings of the United States Supreme Court that
were in existence at the time of the relevant state court decision. Thaler v. Haynes, 559
U.S. 43, 47 (2010); Williams v. Taylor, 529 U.S. 362, 412 (2000).
“The ‘contrary to’ and ‘unreasonable application’ clauses of § 2254(d)(1) are
separate bases for reviewing a state court’s decisions.” Putman v. Head, 268 F.3d 1223,
5

The Antiterrorism and Effective Death Penalty Act of 1996.
-9* App. 21 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 10 of 89

1241 (11th Cir. 2001) (citing Williams, 529 U.S. at 404‐05).
Under § 2254(d)(1), “[a] state court’s decision is ‘contrary to’... clearly
established law if it ‘applies a rule that contradicts the governing law set
forth in [the United States Supreme Court’s] cases’ or if it ‘confronts a set of
facts that are materially indistinguishable from a decision of [the United
States Supreme] Court and nevertheless arrives at a [different] result….’”
Michael v. Crosby, 430 F.3d 1310, 1319 (11th Cir. 2005) (quoting Mitchell v. Esparza, 540 U.S.
12, 15‐16 (2003)).
A state court’s decision involves an “unreasonable application” of federal law
when “‘the state court identifies the correct governing legal rule but unreasonably
applies it to the facts of the particular state prisoner’s case, or when it unreasonably
extends, or unreasonably declines to extend, a legal principle from Supreme Court case
law to a new context.’” Reese v. Sec’y, Fla. Dep’t of Corr., 675 F.3d 1277, 1286 (11th Cir.
2012) (quoting Greene v. Upton, 644 F.3d 1145, 1154 (11th Cir. 2011)). An “unreasonable
application” and an “incorrect application” are not the same:
We have explained that an unreasonable application of federal law is
different from an incorrect application of federal law. Indeed, a federal
habeas court may not issue the writ simply because that court concludes in
its independent judgment that the relevant state‐court decision applied
clearly established federal law erroneously or incorrectly. Rather, that
application must be objectively unreasonable. This distinction creates a
substantially higher threshold for obtaining relief than de novo review.
AEDPA thus imposes a highly deferential standard for evaluating
state‐court rulings, and demands that state‐court decisions be given the
benefit of the doubt.
Renico v. Lett, 559 U.S. 766, 773 (2010) (citations and quotation marks omitted).
Pursuant to 28 U.S.C. § 2254(d)(2), district courts can “grant habeas relief to a
-10* App. 22 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 11 of 89

petitioner challenging a state court’s factual findings only in those cases where the state
court’s decision ‘was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.’” Price v. Allen, 679 F.3d 1315, 1320
(11th Cir. 2012) (quoting 28 U.S.C. § 2254(d)(2)). A state court’s determination of a
factual issue is “presumed to be correct,” and this presumption can only be rebutted by
“clear and convincing evidence.” 28 U.S.C. § 2254(e)(1).
Within this framework, the Court reviews Esposito’s claims.
III. ESPOSITO’S CLAIMS
A. Claim One: Petitioner was deprived of his right to the effective assistance of
counsel at trial and on appeal, in violation of his rights under the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United States Constitution.
1. The clearly established federal law and deference
Strickland6 is “the touchstone for all ineffective assistance of counsel claims.”
Blankenship v. Hall, 542 F.3d 1253, 1272 (11th Cir. 2008). “A convicted defendantʹs claim
that counselʹs assistance was so defective as to require reversal of a conviction or death
sentence has two components. First, the defendant must show that counselʹs
performance was deficient.… Second, the defendant must show that the deficient
performance prejudiced the defense.” Strickland, 466 U.S. at 687. Esposito “must meet
both the deficient performance and prejudice prongs of Strickland” to obtain relief.
Wong v. Belmontes, 558 U.S. 15, 16 (2009). To establish deficient performance, he must

6

Strickland v. Washington, 466 U.S. 668 (1984).
-11* App. 23 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 12 of 89

show that “counsel’s representation fell below an objective standard of reasonableness.”
Strickland, 466 U.S. at 688. The Court must apply a “‘strong presumption’ that counsel’s
representation was within the ‘wide range’ of reasonable professional assistance.”
Richter, 131 S. Ct. at 787 (quoting Strickland, 466 U.S. at 689). “To overcome that
presumption, [Esposito] must show that counsel failed to act ‘reasonabl[y] considering
all the circumstances.’” Cullen v. Pinholster, 131 S. Ct. 1388, 1403 (2011) (quoting
Strickland, 466 U.S. at 688). To establish prejudice, Esposito must show “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. “A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. When
determining if prejudice exists, “it is necessary to consider all the relevant evidence that
the jury would have had before it if [Esposito’s counsel] had pursued the different path–
not just the mitigation evidence [his counsel] could have presented, but also the
[aggravating evidence] that almost certainly would have come in with it.” Wong, 558
U.S. at 20; see also Porter v. McCollum, 558 U.S. 30, 40‐41 (2009).
Federal courts must “take a ‘highly deferential’ look at counsel’s performance
through the ‘deferential lens of § 2254(d).’” Pinholster, 131 S. Ct. at 1403 (quoting
Strickland, 466 U.S. at 689; Knowles v. Mirzayance, 556 U.S. 111, 121 n.2 (2009)). Thus,
Esposito must do more than satisfy the Strickland standard. “He must also show that in
rejecting his ineffective assistance of counsel claim the state court ‘applied Strickland to

-12* App. 24 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 13 of 89

the facts of his case in an objectively unreasonable manner.’” Rutherford v. Crosby, 385
F.3d 1300, 1309 (11th Cir. 2004) (quoting Bell v. Cone, 535 U.S. 685, 699 (2002)). That is,
“[t]he question is not whether counsel’s actions were reasonable [but] whether there is
any reasonable argument that counsel satisfied Strickland’s deferential standard.”
Richter, 131 S. Ct. at 788.
Esposito argues that “two particular errors of law … fundamentally mar the
habeas court’s legal analysis” and, therefore, this Court should conduct a de novo review
of several of [his] ineffectiveness claims.” (Doc. 56 at 34). First, Esposito maintains this
Court is unconstrained by § 2254’s deference in relation to Strickland’s prejudice prong
because the state habeas court’s reliance on Lockhart7 constituted an unreasonable
application of clearly established federal law. (Doc. 56 at 34‐36). Second, he claims the
state habeas court’s rejection of several ineffective assistance claims was unreasonable
because the “court erred as a matter of law in relying on counsel’s fear of ‘opening the
door’ to the state’s presentation of an illegal custodial statement.ʺ (Doc. 56 at 36)
(emphasis omitted).
The short answer to both of these arguments is that the state habeas court’s
analysis and reasoning are irrelevant. After the state habeas court denied relief,
Esposito filed, and the Georgia Supreme Court summarily denied, his CPC application.
(Docs. 27‐41 to 27‐42, 27‐44). The Eleventh Circuit recently explained that the relevant

7

Lockhart v. Fretwell, 506 U.S. 364 (1993).
-13* App. 25 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 14 of 89

state court decision for AEDPA purposes is the Georgia Supreme Court’s summary
denial of a petitioner’s CPC application, not the superior court’s denial of his state
habeas petition. Hittson v. GDCP Warden, 759 F.3d 1210, 1231‐32 (11th Circ. 2014). This
Court is not to “review the reasoning given in the Butts County Superior Court decision;
rather, [it] review[s] the decision of the Georgia Supreme Court, in accordance with
Richter’s instructions.” Id. at 1232 n.25. Because the Georgia Supreme Court did not
explain its decision, ”[o]ur task … is to review the record before the Georgia Supreme
Court to ‘determine what arguments or theories supported or, … could have supported,
the state court’s decisions.’” Id. at 1232 (quoting Richter, 131 S. Ct. at 786). Under this
standard, Esposito “may only obtain federal habeas relief ‘by showing there was no
reasonable basis for the [Georgia Supreme] [C]ourt to deny relief.’” Id. at 1233 (quoting
Richter, 131 S. Ct. at 784).
However, assuming for the sake of argument that the Butts County Superior
Court’s analysis is relevant, AEDPA deference still applies. First, the Court finds that
the superior court did not unreasonably apply Lockhart. The complete “prejudice
prong” analysis in the “legal standard” section of the superior court’s order reads as
follows:
In Strickland, the Supreme Court held that there is prejudice stemming
from ineffective assistance of counsel if there is a reasonable probability
that, absent the deficiencies, the result of the proceeding would have been
different. Strickland, 466 U.S. at 694. The Supreme Court in Lockhart
further defined the “prejudice” component of Strickland, holding that “an
analysis focusing solely on mere outcome determination, without attention
-14* App. 26 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 15 of 89

to whether the result of the proceeding was fundamentally unfair or
unreliable, is defective. To set aside a conviction or sentence solely
because the outcome would have been different but for counsel’s error
may grant the defendant a windfall to which the law the does not entitle
him. Lockhart, 506 [U.S.] at 369‐70.
In Smith v. Francis, 253 Ga. at 783, the Supreme Court of Georgia
interpreted the prejudice prong to require that a petitioner prove that the
outcome of the proceedings would have been different. “In order to
establish that trial counsel’s performance was so defective as to require a
new trial, [the Petitioner] must show that counsel’s performance was
deficient and that the deficient performance so prejudiced [the Petitioner]
that there is a reasonable likelihood that, absent counsel’s errors, the
outcome of the trial would have been different.” Roberts v. State, 263 Ga.
807, 807‐808 (1994). “Regarding death penalties, the question is whether
there is a reasonable probability that, absent the errors, the sentencer
would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death.” Smith v. Francis, 253 [Ga.] at
783‐784.
In the instant case, this Court has applied the guiding principles set forth in
Strickland and its progeny, as adopted by the Georgia Supreme Court, i.e.,
according a strong presumption of effectiveness to counsel’s conduct;
viewing counsel’s representation objectively from the perspective of
counsel at the time of trial; refusing to engage in hindsight analysis;
presuming the reasonableness of judgment calls and trial strategy;
acknowledging that even the most qualified counsel would likely
represent a capital litigant differently; and recognizing that even the most
experienced and effective attorney might be unable to prevent the
imposition of the death penalty in a particular case. This Court finds that
Petitioner failed to establish that counsel’s performance “fell below an
objective standard of reasonableness.” Strickland, 466 U.S. at 688. This
Court also finds that Petitioner failed to establish that, but for alleged
errors or omissions by counsel, there is a reasonable probability that the
result of the proceeding would have been different. Id. at 694.
Accordingly, this Court hereby denies habeas corpus relief as to the
entirety of Petitioner’s claims of ineffective assistance of counsel.
(Doc. 27‐39 at 18‐19).

-15* App. 27 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 16 of 89

While the state habeas court cited Lockhart, as other courts have done,8 it clearly
stated that its prejudice analysis was governed by “Strickland and its progeny.” (Doc.
27‐39 at 19). Also, the court found Esposito had not established prejudice because he
failed to “establish that, but for alleged errors or omissions by counsel, there is a
reasonable probability that the result of the proceeding would have been different.”
(Doc. 27‐39 at 19). This the correct prejudice standard under Strickland.
Furthermore, when the state habeas court analyzed each of Esposito’s individual
ineffective assistance claims, it applied only the Strickland prejudice analysis.
Discussing trial counsel’s investigation and presentation of life history mitigation, the
state habeas court found: “Because Petitioner ... failed to prove that there is a
reasonable probability that he suffered actual prejudice … Petitioner has failed to meet
his burden under Strickland” (Doc. 27‐39 at 21), and “even if the Court were to conclude
that [counsel’s] presentation … was deficient, Petitioner has failed to establish that he
suffered any actual prejudice such that there is a reasonable probability that the outcome
of the trial would have been different” (Doc. 27‐39 at 29). Analyzing trial counsel’s

8

In Rhode v. Hall, 582 F.3d 1273 (11th Cir. 2009), the Eleventh Circuit, citing Lockhart, stated that
“[t]he prejudice prong does not focus only on outcome; rather, to establish prejudice, the
petitioner must show that counsel’s deficient representation rendered the result of the trial
fundamentally unfair or unreliable.” Id. at 1280 (citing Lockhart, 506 U.S. at 369)). In Israel v.
Sec’y, Fla. Dep’t of Corr., 517 F. App’x 694, 698 (11th Cir. 2013), the Court cited Lockhart for the
proposition that “there is no indication that Israel’s sentencing was fundamentally unfair, or that
its end result is unreliable.” District courts have cited Lockhart for the general proposition that a
habeas petitioner must demonstrate that “deficient performance prejudiced the defense.” See
White v. Sec’y, Dep’t of Corr., 2014 U. S. Dist. LEXIS 31296 at *10 n.5 (M. D. Fla., March 11, 2014);
West v. Sec’y, Dep’t of Corr., 2014 U.S. Dist. LEXIS 16424 at *5 n.1 (M. D. Fla., Feb. 10, 2014).
-16* App. 28 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 17 of 89

investigation and presentation of mental health mitigation evidence, the state habeas
court found: “[T]his Court further finds that Petitioner also failed to prove that the
alleged deficient performance so prejudiced him that there is a ‘reasonable likelihood
that, absent counsel’s errors, the outcome of the trial would have been different’” (Doc.
27‐39 at 35), and “[w]ith regard to the evidence of Petitioner’s mental health that was
presented at the habeas hearing but not presented at trial, this Court is not persuaded
that there is a reasonable probability that this additional evidence would have changed
the outcome of the trial” (Doc. 27‐39 at 35). Addressing trial counsel’s failure to hire a
forensic pathologist, the state habeas court explained: “Even if the Court were to find
that such conduct constituted deficient performance, which the Court does not, this
Court finds that Petitioner failed to establish a reasonable probability that such
testimony would have affected the outcome of Petitioner’s trial….” (Doc. 27‐39 at 42).
Thus, there are no indications that the state habeas court’s prejudice analyses involved
anything other than what is required by Strickland.9 The court did not impose any
additional requirements or make any separate inquiries into whether the outcome was
“fundamentally unfair” under Lockhart. Lockhart, 506 U.S. at 843.

9

The state habeas court did not conduct a prejudice analysis relating to trial counsel’s
investigation and rebuttal of the State’s case, trial counsel’s failure to present the polygraph
expert, trial counsel’s investigation and presentation of evidence to support their theories of
relative culpability and reasonable doubt, or appellate counsel’s performance. For these claims
the state habeas court found a prejudice analysis was unnecessary because Petitioner did not
prove deficient performance. (Doc. 27‐39 at 35‐44).
-17* App. 29 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 18 of 89

Esposito argues that the state habeas court’s prejudice analysis was the same as
that conducted by the Virginia Supreme Court in Williams, which the Supreme Court
found was “’contrary to, or involved an unreasonable application of, clearly established
Federal law.’” Williams, 529 U.S. at 367, 373 (quoting 28 U.S.C. § 2254(d)(1)) The
Supreme Court faulted the state court for imposing additional requirements upon the
habeas petitioner: “The Virginia Supreme Court read our decision in Lockhart to require
a separate inquiry into fundamental fairness even when [the Petitioner] is able to show
that his lawyer was ineffective and that his ineffectiveness probably affected the
outcome of the proceeding.”10 Williams, 529 U.S. at 393. In Esposito’s case, the state
habeas court referenced Lockhart in its general discussion, but it conducted a
straightforward Strickland analysis when it addressed each of Esposito’s ineffective
assistance allegations. Unlike the Virginia Supreme Court, it did not find trial counsel’s
“ineffectiveness probably affected the outcome of the proceeding,” and then conduct a
separate inquiry into fundamental fairness. Instead, it found that trial counsel’s
performance was not deficient and, even if it were, there was not a reasonable
probability that but for counsel’s errors, the result of the proceeding would have been
different. (Doc. 27‐39 at 21, 29, 35, 42). This is the correct Strickland prejudice analysis.

10

The Virginia Supreme Court “assumed without deciding,” that trial counsel’s performance
had been defective. Williams, 529 U.S. at 371. In contrast, the state habeas court in Esposito’s
case found that trial counsel’s performance had not been defective.
-18* App. 30 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 19 of 89

Esposito’s second argument for de novo review of certain ineffectiveness claims is
that the state habeas court erred as a matter of law in relying on counsel’s fear of
“opening the door” to the State’s presentation of the illegal custodial statement. (Doc.
56 at 36). Again, assuming for the sake of argument that the Butt’s County Superior
Court’s reasoning is relevant, Esposito’s argument fails.
The record shows that following his arrest, Esposito confessed on two separate
occasions to murdering Mrs. Davis and the Sniders. First, on October 2, 1996, the day of
his arrest, he confessed to Federal Bureau of Investigation (“FBI”) Special Agent Ron
Knight. (Doc. 14‐15 at 43‐44). On October 8, 1996, he confessed to Georgia Bureau of
Investigation (“GBI”) Agent James Wooten in a videotaped interview.11 (Doc. 13‐12 at
4‐10; Resp’t Ex. 169‐170). Trial counsel sought to suppress both confessions. (Doc.
13‐11 at 3‐4). The trial court conducted a hearing on December 10, 1997 and ruled that
Esposito’s confession to Knight was admissible but reserved ruling on the videotaped
confession to Wooten. (Doc. 13‐13 at 44‐44).
In a September 11, 1998 pretrial hearing, the trial court indicated that the
videotaped confession to Wooten should be suppressed and trial counsel presented a
proposed order to the court. The last sentence of the order read: “[S]aid video
statement and interrogation is hereby suppressed and the State is directed not to use
11

Texas Ranger Alvin Schmidt and David Medlin with the Oldham County Sheriff’s
Department were also present during this interview and Schmidt questioned Esposito as well.
(Doc. 13‐7 at 26; Resp’t Ex. 170). Two DVDs containing this videotaped confession were
manually filed with the Court and are in the record as Respondent’s Exhibits 169 and 170.
-19* App. 31 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 20 of 89

such evidence in the prosecution against this Defendant.” (Doc. 13‐5 at 77). While the
prosecutor agreed that he should not “bring it up in [the] case in chief,” he argued that
under Harris v. New York, 401 U.S. 222 (1971), he should be allowed to use the videotaped
confession for impeachment or rebuttal. (Doc. 13‐21 at 72). His argument was that
Esposito, through his polygraph expert, sought to show that he “is not the one who
delivered the fatal blow” and the videotaped confession could be used as “rebuttal or
impeachment evidence of the result of that polygraph.”12 (Doc. 13‐21 at 73, 75). The
trial judge stated he was “not ruling on that” and explained, “I’m going to state it this
way on the record. I’m going to go ahead and sign his Order and state on the record
that my Order does not apply to possible use for impeachment or rebuttal and if that
comes up, a hearing will be held.” (Doc. 13‐21 at 73, 75). Trial counsel stated they
understood, but did not agree with, the court’s ruling. (Doc. 13‐21 at 75‐ 76). On the
order granting Esposito’s motion to suppress the videotaped confession, the trial judge
wrote “this [o]rder does not apply to possible use for impeachment or rebuttal.” (Doc.

12

Although Esposito provided to law enforcement the details of how he bludgeoned to death
the three elderly victims, he later changed his story and told counsel that Woodward was the
actual killer. (Doc. 17‐11 at 38‐39). Trial counsel received funds for, and hired, Kenneth
Blackstone, an expert in the area of administration and interpretation of polygraph
examinations. (Doc. 17‐9 at 85, 88). Blackstone conducted a polygraph examination of
Esposito. (Doc. 17‐10 at 10‐12). The relevant questions he asked were: (1) “Did you strike
Lola?”; (2) “Did you strike Lola with a tree limb immediately before her death?”; and (3) “Did
you kick Lola in the head immediately prior to her death?” (Doc. 17‐10 at 11‐12). Esposito
responded negatively to all three questions and Blackstone found his answers were
“non‐deceptive.” (Doc. 17‐10 at 17).
-20* App. 32 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 21 of 89

13‐5 at 77). Thus, the trial court left open the possibility that the videotaped confession
might be shown to the jury.
During the state habeas evidentiary hearing, trial counsel explained they thought
the “video confession was terrible for” Esposito and its presentation to the jury “would
have [had] a devastating effect.” (Doc. 17‐10 at 46). Therefore, throughout the
sentencing phase of the trial they were careful not to open the door to the possibility of
having the videotape played for the jury. Counsel explained:
[B]etween [the District Attorney] and the judge, you know,… if anybody
got up and was going to profess John’s innocence, it at least had us
concerned that that might be enough to do that. And so I was cautious to
try to tell [our] witnesses let’s don’t get into an area that could possibly
open up a door and let some things in that would be devastating…. [W]e
didn’t want that confession to come in.
(Doc. 17‐10 at 78).
The state habeas court accepted this justification as legitimate and reasonable,
excusing some of trial counsel’s challenged actions on the ground that counsel made the
tactical decision to refrain from presenting certain evidence for fear of opening the door
to the videotaped confession. (Doc. 162 at 28‐29, 42) Esposito argues:
Because the trial court erred as a matter of law in ruling that a videotaped
confession that it had excluded … could nonetheless be admitted to rebut
any evidence presented by the defense that contradicted the suppressed
statement, defense counsel’s so called “strategic” decisions to avoid
presenting evidence suggesting that Mr. Esposito was not the killer or
otherwise challenging the degree of his culpability were inherently
unreasonable. In turn, the state habeas court’s reliance on this
justification was an unreasonable application of clearly established federal
law, and to the extent the court relied on this justification to find counsel
-21* App. 33 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 22 of 89

performed adequately, the habeas court’s rulings are not entitled to any
deference.
(Doc. 56 at 36‐37).
The Court disagrees because the record reveals that the state habeas court’s
reliance on trial counsel’s justification was reasonable. Contrary to Esposito’s
argument, the trial court did not “rul[e] that a videotaped confession that it had
excluded … could nonetheless be admitted to rebut any evidence presented by the
defense that contradicted the suppressed statement.” (Doc. 56 at 36). Instead, it
clearly left the issue open, explaining that, if necessary, it would hold a hearing to
address the admissibility of the videotape in the future. (Doc. 13‐21 at 73, 76). Given
that the trial court had not definitively ruled on the scope of the confession’s possible
admission, it was reasonable for trial counsel to believe that the court might allow the
statement to be admitted, even if, as Esposito argues, the statement’s admission would
be contrary to Supreme Court precedent.
According to Esposito, trial counsel’s actions were not strategic; they simply were
unaware of the applicable law contained in James v. Illinois, 493 U.S. 307 (1990). In James,
the Supreme Court held that the impeachment exception to the exclusionary rule does
not permit the prosecution to introduce illegally obtained evidence to impeach the
testimony of defense witnesses. Id. at 309. Unfortunately, the record does not show if
trial counsel were aware of James or not. At the state habeas evidentiary hearing, they
were not questioned regarding their knowledge of James. Therefore, the Court agrees
-22* App. 34 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 23 of 89

with Respondent that Esposito’s basis for alleging that trial counsel misunderstood the
law is speculative. “‘An ambiguous or silent record is not sufficient to disprove the
strong and continuing presumption of counselʹs competency. Therefore, where the
record is incomplete or unclear about [counsel]ʹs actions, we will presume that he did
what he should have done, and that he exercised reasonable professional judgment.’”
Williams v. Allen, 598 F.3d 778, 794 (11th Cir. 2010) (quoting Chandler v. United States, 218
F.3d 1305, 1314 n.15 (11th Cir. 2000)). Trial counsel may well have been concerned that
the trial court would admit the video confession despite contrary authority.13 Thus,
their attempts to prevent such were reasonable, as was the state habeas court’s reliance
on this justification.
Having determined that the state courts’ ineffective assistance adjudications must
be afforded deference, the Court now considers the actions of counsel, the state courts’
determinations, and Esposito’s various arguments.
2. Trial counsel’s investigation and presentation of evidence during the mitigation
phase of Esposito’s trial
On October 10, 1996, the trial court appointed two experienced criminal defense
attorneys, Roy R. Kelly, III and Wiley Dan Roberts, to represent Esposito. (Doc. 13‐1 at

13

While it is unknown whether this trial court would have allowed the videotaped confession to
impeach certain defense witnesses or rebut testimony that Esposito was not the one who
bludgeoned the three victims, other trial courts have allowed the introduction of illegally
obtained statements to rebut or impeach defense experts whose opinions are based, “to any
appreciable extent,” on the defendants’ statements to the experts. Wilkes v. United States, 631
A.2d 880, 890‐91 (D.C. 1993); State v. DeGraw, 196 W. Va. 261, 270, 470 S.E.2d 215, 224 (1996).
-23* App. 35 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 24 of 89

15). Kelly, who had been practicing law since 1974, concentrated on criminal defense,
divorce, and real estate work. (Doc. 17‐10 at 30). He had handled five death penalty
cases prior to his appointment in Esposito’s case. (Doc. 17‐10 at 30). Two of his
previous death penalty cases went to the jury and three ended in plea agreements.
(Doc. 17‐10 at 30). Roberts graduated from law school in the 1960s and, after working in
the Navy and the Post Office, opened his private practice in 1969. (Doc. 17‐11 at 5). He
handled criminal cases, real estate, probate work, and some personal injury cases. (Doc.
17‐11 at 6). Roberts had handled three previous death penalty cases. (Doc. 17‐11 at
6‐7). They all ended in pleas, but he had tried some noncapital murders. (Doc. 17‐11 at
7, 40). Kelly and Roberts had worked together on one previous death penalty case.
(Doc. 17‐10‐at 32).
Though they worked together to prepare for both phases of trial, trial counsel
were aware there was a good chance Esposito would be found guilty and, therefore, they
realized their realistic goal was to save him from the death sentence. (Doc. 17‐10 at
34‐35, 43, 65). While Kelly and Roberts originally hoped to do some of the mitigation
investigation work themselves, they ultimately decided to hire an investigator. (Docs.
13‐16 at 3‐4). The Georgia Indigent Defense Counsel recommended Hector Guevara.
(Doc. 17‐10 at 47). In a March 1998 pretrial hearing, counsel explained to the trial court
that they needed to hire Guevara to locate and interview witnesses “specifically for
sentencing phase mitigation type testimony.” (Doc. 13‐16 at 5). Counsel requested

-24* App. 36 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 25 of 89

$20,000, explaining that Guevara would need to interview numerous people who
resided in various states. (Doc. 13‐16 at 5). The trial court expressed concern,
explaining that “it seems extremely high,” but eventually agreed to the amount because
“witnesses [were] scattered over such a wide area of the country.” (Docs. 13‐16 at 7‐8;
13‐18 at 4‐7).
Trial counsel and Guevara regularly visited Esposito, whom counsel described as
cooperative. (Doc. 17‐10 at 33‐34; 17‐11 at 8‐9). Guevara questioned Esposito
extensively about his background on numerous occasions. (Docs. 20‐2 at 45‐80, 20‐3 at
1‐42). Esposito provided Guevara with names of numerous potential mitigation
witnesses. (Doc. 19‐27 at 3‐5). Guevara interviewed the suggested witnesses that he
could locate, along with many additional people from Esposito’s past. (Docs. 19‐22 at
5‐17; 20‐1 at 1‐16, 25‐28; 20‐2 at 2‐11; 21‐42). Guevara provided counsel with an
alphabetized list of more than 80 people he interviewed. (Doc. 20‐1 at 25‐28). These
individuals included family members, friends, teachers, high school coaches, school
administrators, school counselors, psychiatrists, psychologists, social workers, mental
health counselors, and army recruiters. (Doc. 20‐1 at 25‐28).
Guevara met with counsel regularly and provided them with hundreds of pages
of written reports detailing his interviews with Esposito and potential mitigation
witnesses. (Docs. 17‐10 at 52; 19‐26 at 63‐70; 19‐27 at 23‐46; 20‐1 at 2‐86; 20‐2 at 1‐80; 20‐3
at 1‐78; 20‐4 at 1‐79; 20‐5 at 1‐5; 20‐6 at 2‐69, 74‐82; 20‐7 at 1‐69). These included “A

-25* App. 37 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 26 of 89

Social History,” containing detailed information about Esposito’s family, childhood,
sexual abuse, problems in school, mental problems, treatment in mental facilities,
self‐mutilation, time in the Army reserves, and his relationship with a prior girlfriend.
(Doc. 19‐27 at 33‐46). Also included was information about domestic abuse and
violence in his family, drug and alcohol abuse in his family, his mother’s promiscuity,
his mother’s compulsive and inappropriate behaviors, his biological father’s
imprisonment, and Esposito’s friends’ opinions of Woodward. (Doc. 19‐27 at 33‐46).
Guevara also provided trial counsel with a ten page “Analysis of Mitigation Factors,”
and a detailed timeline of Esposito’s life history and mental treatment history. (Docs.
19‐27 at 23‐32; 20‐1 at 2‐21).
Guevara and trial counsel obtained extensive records, including: (1) enlistment
and discharge records from the U.S. Army Reserves; (2) medical and mental health
records, including tests and evaluations, from Kennedy Memorial Hospital
(“Kennedy”), Ancora State Hospital (“Ancora”), Transitional Residence Independent
Services, Inc. (“TRIS”), Central State Hospital, Underwood Memorial Hospital
(“Underwood”), and Southeastern Regional Medical Centers; (3) records from W.
Deptford Police Department, Paulsboro Police Department, New Jersey State Police,
Georgia Police, FBI, GBI, Colorado Police, and Colorado Department of Natural
Resources; (4) Jasper County Jail Records; (5) school records; and (6) psychological
evaluations from Esposito’s high school. (Docs. 20‐1 at 22‐24; 20‐2 at 40‐42).

-26* App. 38 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 27 of 89

Trial counsel were aware that Esposito had mental health problems that should
be explored. (Doc. 17‐10 at 35). They obtained Esposito’s mental health records from
the prosecutor’s files and from Guevara. (Doc. 17‐10 at 51, 57, 68‐69). Guevara
interviewed various mental health professionals who had treated Esposito in the past
and provided trial counsel with reports detailing the information obtained during these
interviews. (Docs. 20‐3 at 44‐45, 64‐65, 72‐78; 20‐4 at 1‐29). Trial counsel retained
neuropsychologist Dr. Daniel Grant, who was recommended by the Georgia Indigent
Defense Council, 14 to evaluate Esposito and “see what mitigation factors could be
determined.” (Doc. 17‐10 at 57, 71). Grant was provided Dr. Jerold S. Lower’s15

14

The Georgia Indigent Defense Council also recommended Ofelia Gordon, a social worker.
(Doc. 17‐10 at 48). Trial counsel contacted her in 1997 and she met with Esposito for two hours
on January 7, 1998. (Doc. 17‐13 at 9‐10). Afterwards, Guevara met with Gordon to “get her
ideas on what she feels is wrong with … Esposito.” (Doc. 20‐2 at 13). Guevara reported to trial
counsel that Gordon could not tell them much that they did not already know from their
interviews with Esposito and others. (Doc. 20‐2 at 13). Guevara also reported that Gordon
found Esposito was evasive, had no major psychotic problems, felt little remorse for his actions,
seemed to lack a conscience, probably had a personality disorder, and that Esposito’s suicide
attempts were just “a way for him to get into a hospital and that they conveniently occurred
when he was about to become homeless.” (Doc. 20‐2 at 13). Given this, trial counsel decided
not to use Gordon. (Doc. 17‐13 at 21).
15
The trial court ordered forensic psychologist Dr. Jerold S. Lower to evaluate Esposito to
determine his “competency to stand trial and criminal responsibility.” (Doc. 20‐30 at 60). The
order also called for Lower to assess “whether the defendant meets the definition of ‘mentally ill’
or ‘mentally retarded.’” (Doc. 20‐30 at 60). Lower diagnosed Esposito as suffering from “a
personality disorder characterized by poor judgment and impulse control, inability to form close
relationships with others, disregard for social mores, shifting and unstable emotional
attachments, inability to assume responsibility for his situation in life, and related
characteristics.” (Doc. 18‐11 at 17). Lower found Esposito was competent to stand trial,
understood right from wrong, and was not mentally ill or mentally retarded. (Doc. 18‐11 at 17).
Lower opined that Esposito did not suffer “from a serious, treatable mental disorder” and that
his personality disorder would “likely be highly resistant to any known type of intervention.”
(Doc. 18‐11 at 17‐18).
-27* App. 39 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 28 of 89

psychiatric report; discharge summaries and progress notes from Kennedy, Underwood,
and Ancora; school records; and Guevara’s interview notes. (Docs. 17‐13 at 31; 18‐11 at
15‐24, 31‐39; 18‐13 at 31‐77; 18‐14 at 1‐75; 18‐15 at 1‐19). Grant never asked for
additional records and, if he had, counsel would have provided them. (Doc. 17‐10 at
73). Grant spoke with Angela Caraccillo, one of Esposito’s prior therapists. (Doc.
14‐24 at 39). He interviewed Esposito and administered intelligence, problem solving,
language, educational, personality, and neuropsychological tests. (Doc. 17‐13 at 32).
After Grant’s evaluation, trial counsel reviewed his conclusions, spoke with him, and
decided to call him to testify about Esposito’s difficult childhood, the physical and
sexual abuse Esposito suffered, and Esposito’s various traumatic experiences. (Doc.
17‐10 at 72).
Trial counsel had two mitigation themes. They hoped to paint Woodward as the
leader or “brains” of the duo. (Doc. 17‐10 at 39). They also wanted to put up
mitigation witnesses to show that while Esposito had problems, he had some
redeemable features and characteristics. (Doc. 17‐10 at 59, 72). According to trial
counsel, they were “quite frankly, trying to … get some sympathy from the jury to spare
this young man’s life.” (Doc. 17‐10 at 59‐60).
During the mitigation phase, trial counsel called seven witnesses. The first was
Judy Holloway, the Chief Jailer at the Jasper County Jail, who testified that she had daily
contact with Esposito and he been a model inmate at the jail for almost two years. (Doc.

-28* App. 40 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 29 of 89

14‐20 at 72). She described him as quiet and told the jury that he never caused any
problems. (Doc. 14‐20 at 72).
John Crain, a special education teacher from New Jersey, testified that he knew
Esposito when Esposito was in the seventh through ninth grades in school. (Doc. 14‐21
at 84). He explained that Esposito came from a dysfunctional family, was emotionally
disturbed, and was a follower. (Docs. 14‐21 at 79‐80, 84; 14‐22 at 25‐26). Crain
described Esposito’s mother, Debra,16 as domineering and overly aggressive. (Doc.
14‐21 at 80‐81). Crain told the jury that Esposito’s father was in prison for murder and
his step‐father was not involved in his life at all. (Doc. 14‐21 at 79‐80, 83‐84). He
explained that, on the first day of class, Esposito was attacked by fellow students
because Esposito’s biological father had murdered the father of one of the students in the
class. (Doc. 14‐21 at 79. He said that Esposito was not disruptive in class, always did
what was expected, did not get into fights, and showed no outward aggression toward
anyone at school. (Docs. 14‐21 at 82; 14‐22 at 3, 6, 9). Crain stated that Esposito made
every effort to fit in at school, but was never able to do so. He explained that while
Esposito eventually joined the wrestling team and became involved in weightlifting, he
continued to search for an identity. (Doc. 14‐21 at 82‐83). Crain stated that the school
was unable to meet Esposito’s special needs,17 in large part because Debra refused to

16

In the record, Esposito’s mother is referred to as Debra or Deborah Jean Esposito, Debra or
Deborah Jean Deese, and Debra or Deborah Jean Trueax. This Order refers to her as Debra.
17
According to Crain, Esposito needed to be placed in a classroom with fewer children, to attend
-29* App. 41 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 30 of 89

cooperate and blocked the school’s efforts.18 (Doc. 14‐21 at 83; 14‐22 at 14).
Esposito’s maternal aunt, Althea Holt, testified that Esposito’s biological father
physically abused both Esposito and Debra. (Doc. 14‐23 at 5). After Debra left
Esposito’s biological father, she met Wayne Deese, who also verbally and physically
abused both of them. (Doc. 14‐23 at 5). Holt explained that Esposito was “beaten all of
the time,” and she personally saw the bruises and marks left on his arms. (Doc. 14‐23 at
5‐6). She asked Debra for custody of Esposito so she could take him out of the abusive
environment. However, Debra refused and then isolated Esposito from her. (Doc.
14‐23 at 5).
Holt described Esposito as quiet, shy, and respectful. (Doc. 14‐23 at 13). She
explained that after Esposito’s father was incarcerated for murder, Esposito “was
constantly reminded of the crime that his father had committed.” (Doc. 14‐23 at 5).
According to Holt, Esposito never had a father figure and was completely controlled by
Debra, who would not allow him to have friends or play sports. (Doc. 14‐23 at 5, 12).
Holt testified that Debra bathed Esposito until he was thirteen years old, and, during his
later years, made him take three to four showers per day. (Doc. 14‐23 at 7). Holt

counseling at least two hours per week, and to receive one‐on‐one tutoring. (Doc. 14‐22 at 14,
23).
18
Not all that Crain revealed was helpful for Esposito. On cross‐examination he testified:
Debra once had to obtain a restraining order against Esposito; Esposito’s younger brother, who
grew up in the same allegedly dysfunctional household, had never been in any trouble; Esposito
had been in three different psychiatric hospitals; and, in 1994, Debra reported Esposito was
involved in devil worship when he was in the seventh grade. (Docs. 14‐21 at 89‐90; 14‐22 at
21‐22, 26).
-30* App. 42 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 31 of 89

explained that she last visited Esposito when he was eighteen years old and in the
psychiatric ward of Underwood. (Doc. 14‐23 at 6).

She testified that she could not

put into words the terrible life that Esposito was forced to endure and Debra, his father,
and his stepfather all contributed to the fact that he was on trial for his life. (Doc. 14‐23
at 14).
Annette Nolan, a registered psychiatric nurse, testified that in May 1996, Esposito
was discharged from Underwood and admitted into Kennedy. (Doc. 14‐23 at 16‐17, 26).
She explained that at the time, Esposito was depressed, suicidal, and had been
in‐and‐out of mental institutions for years. (Doc. 14‐23 at 17, 26). Nolan testified that
Debra physically and sexually abused Esposito. (Doc. 14‐23 at 19). She also told the
jury that Esposito had been sexually molested by his step‐father, Deese, and Deese’s
sister. (Doc. 14‐23 at 19, 26). According to Nolan, Esposito loved Debra, but was
disappointed and hurt that Debra exposed him to such abusive situations.
Nolan testified that Esposito “accepted Jesus Christ as his Lord and Savior” while
he was a patient at Kennedy. (Doc. 14‐23 at 20). She explained that she stayed in touch
with Esposito after he was discharged and he had continued to attend church. (Doc.
14‐23 at 21). According to Nolan, it was Esposito’s association with Woodward that led
to the murders. She opined that Esposito was just taking the blame while Woodward
may have been the actual murderer. (Doc. 14‐23 at 34, 36, 38‐40). She asked the jury to
“spare John the death penalty and give him life imprisonment.” (Doc. 14‐23 at 23).

-31* App. 43 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 32 of 89

On cross‐examination, Nolan acknowledged that Esposito’s discharge papers
from Kennedy referred to him as “superficial, dramatic, and rather histrionic in his
presentation as to what happened to him.” (Doc. 14‐23 at 25). She stated that she still
believed what Esposito told her about the past sexual and physical abuse. (Doc. 14‐23
at 26). She also acknowledged that Esposito was admitted into psychiatric hospitals on
numerous occasions over a two year period but, upon discharge, never followed
through with outpatient treatment, never attended group therapy, and never filled his
prescriptions. (Doc. 14‐23 at 30). She explained that such behavior is not unusual and
that many mentally ill people fail to follow‐up with their treatment because they are in
denial about their mental illness. (Doc. 14‐23 at 27‐28).
Sister Marie DiCamillo, a special education teacher at Ancora, explained that
Esposito was a patient at that facility for six months in 1994. (Doc. 14‐23 at 44). She
prepared Esposito to take his GED test and described Esposito as a model student, who
was respectful and intelligent. (Doc. 14‐23 at 46‐48). When he passed his GED test, he
was given a graduation ceremony at Ancora, which Debra refused to attend because she
wanted “nothing to do with” Esposito. (Doc. 14‐23 at 47). DiCamillo testified that
Esposito was never accepted by his family. (Doc. 14‐23 at 48). She described Esposito
as a follower in need of guidance and explained that he did well in a structured
environment. (Doc. 14‐23 at 48). She asked the jury for mercy and requested that they

-32* App. 44 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 33 of 89

spare his life.19 (Doc. 14‐23 at 49).
Angela Caraccillo, a therapist and program manager for the young adult program
at TRIS, testified that 19 year‐old Esposito was in their outpatient program while he was
hospitalized at Ancora and spent one year in their residential program when he was
discharged from Ancora in May 1995.20 (Doc. 14‐23 at 58‐59, 65, 78). She explained
that he entered the residential program because his mother would not allow him back
into their home and he did not have the skills needed to live alone. (Doc. 14‐23 at
58‐59). According to Caraccillo, Esposito’s mother had abandoned him when he was
thirteen years old, did not want to have anything to do with him, refused to participate
in therapy, and threatened to kill Esposito if she ever saw him again. (Doc. 14‐23 at
58‐61). She explained that Esposito was concerned that he did not fit in with others,
was worried that he was not making anything of himself, never caused any problems,
was polite and respectful, sought out therapy, and did well in vocational training.
(Doc. 14‐23 at 60‐63, 78). She testified that he experienced “dissociative” episodes, in
19

As with other sentencing phase witnesses, not all that DiCamillo said was helpful to Esposito.
On cross‐examination she acknowledged: Esposito was admitted to Ancora because he was
considered a threat to others; his admission screening documents showed that he wanted to kill
everyone; he had homicidal ideations; and he did get into one physical altercation with a fellow
patient. (Doc. 14‐23 at 50, 53).
20
The jury heard that Esposito was hospitalized as follows: (1) Underwood from April 12, 1994
until May 3, 1994; (2) Underwood from May 4, 1994 until May 10, 1994; (3) Kennedy from
January 9, 1995 until January 18, 1995; (4) Underwood on January 26, 1995; (5) Underwood from
February 25, 1995 until March 2, 1995; (6) Kennedy on March 2, 1995; (7) Ancora from March 3,
1995 until May 1, 1995; (8) TRIS on May 1, 1995 until the beginning of May 1996; and (9) Kennedy
from May 3, 1996 until May 13, 1996 (Docs. 14‐23 at 78‐79, 84, 87; 14‐24 at 4). Esposito
voluntarily admitted himself on all of these occasions except the April 12, 1994 hospitalization.
(Doc. 14‐24 at 2).
-33* App. 45 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 34 of 89

which he would “black[] out” and have no recollection of what had happened. (Doc.
14‐23 at 62). She stated that he was in touch with reality only when he was in a
structured environment. (Doc. 14‐23 at 63, 82).
Caraccillo testified that Esposito had been physically abused by Debra and Deese,
as well as sexually abused by Deese and Deese’s sister. (Doc. 14‐23 at 61). She stated
that Esposito and his younger brother “cowered underneath the staircase hiding” every
day when Deese came home from work because they knew he would either sexually or
physically abuse them. (Doc. 14‐23 at 62‐63). She explained that Esposito had all of the
“concrete symptoms” of someone who had endured sexual abuse and, therefore, she did
not think he was lying or exaggerating. (Doc. 14‐24 at 3, 9). She stated that, when
questioned, Esposito’s mother admitted physically abusing him and never denied he
was sexually abused. (Doc. 14‐23 at 66; 14‐24 at 9). Instead of denying the abuse, his
mother simply explained that she “did not want to rehash old memories.” (Doc. 14‐24
at 9). Like DiCamillo, Caraccillo testified that she believed Woodward might have
actually committed the murders and Esposito was just protecting Woodward. (Doc.
14‐24 at 6‐7).
On cross‐examination, Caraccillo admitted Debra told her she would not
participate in Esposito’s therapy because he had threatened to kill his family members,
had tortured animals,21 and he displayed violent behavior. (Doc. 14‐23 at 66). She

21

Caraccillo testified that Esposito admitted being cruel to animals, but he was remorseful for
-34* App. 46 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 35 of 89

acknowledged that in April 1994 Debra sought a restraining order against Esposito
because he threatened family members. (Doc. 14‐23 at 69‐70). She also acknowledged
that in 1994, when he appeared before the court that issued the restraining order,
Esposito admitted he was involved in devil worship. (Doc. 14‐23 at 70). She conceded
that he burned himself with cigarettes; cut himself with knives; and never held a job for
more than two weeks. (Doc. 14‐23 at 72‐73, 77‐78). Caraccillo acknowledged that in
the discharge summary from his January 9, 1995 to January 18, 1995 hospitalization at
Kennedy, he admitted “lying repetitively” and that progress notes from his May 4, 1994
to May 10, 1994 stay at Underwood showed “that the likelihood of his compliance with
any form of outpatient treatment is consequently and significantly compromised by his
ongoing manipulation of the systems and resistance to treatment.” (Doc. 14‐23 at
84‐85). However, she stated that she disagreed with these assessments because he was
compliant and cooperative while at TRIS. (Doc. 14‐23 at 86).
Grant, an expert in forensic psychology and neuropsychology, testified that he
reviewed Esposito’s mental health records, interviewed Esposito, and administered “a
large number of tests”22 to determine if Esposito suffered from any psychological,

his actions. (Doc. 14‐24 at 5‐6).
22
Grant testified that he administered the Wechsler Adult Intelligence Scale (third revision),
Kaufman Brief Intelligence Test, Visual Naming Test, Verbal Fluency Test, Nelson Denny
Reading Comprehension Test, Wide Range Achievement Test, Thurstone Test of Verbal Fluency,
Visual Discrimination Test, Line Orientation Test; Ray Complex Figure Test, Denman
Neuro‐psychological Memory Scale, Wisconsin Card Sorting Test, Category Test, Rhythm Test,
Seashore Tonal Memory Test, Brief Test of Attention, Visual Test of Search and Attention, Finger
-35* App. 47 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 36 of 89

emotional, or behavioral problems. (Doc. 14‐24 at 19‐20). Grant explained that he
sought to determine if there were any deficits or problems with the way Esposito’s brain
functions and if there were any “emotional [,] developmental and personality variables
that may have bearing on [Esposito’s] behavior.” (Doc. 14‐24 at 21).
Grant informed the jury: (1) Esposito’s attitudes about the world are simplistic,
naïve, and immature; (2) he is frequently absorbed in wishful thinking, daydreaming,
and fantasies; (3) he has excessive feelings of emptiness; (4) he suffers from identity
confusion, or confusion; (5) he needs other people to provide support, direction,
guidance, security, and structure for him; (6) he is passive, submissive, dependent, and
self‐conscious; (7) he lacks any initiative, confidence, or self‐sufficiency; (8) he is
incapable of making decisions and avoids doing so; (9) he has an excessive need for
someone to take care of him and is frequently helpless when left alone; (10) he has an
identity disturbance characterized by a markedly persistent unstable self‐image; (11) he
is self‐destructive, as shown by his previous five or six suicide attempts and various acts
of self‐mutilation; (12) he seeks relationships and institutions to take care of him; (13) his
relationships are frequently unstable, intense, and volatile; (14) he is preoccupied with
constant fears of being abandoned, rejected, and alone; (15) he has dissociative episodes;
and (16) he does well in a structured environment, where his decisions are limited and

Tapping and Finger Tip Number Writing Tests, Million Clinical Multi‐Axial Inventory (second
version), Personality Assessment Inventory, Traumatic System Survey, Beck Hopelessness Scale,
and Beck Scale for Suicide Ideation. (Doc. 14‐24 at 20‐21).
-36* App. 48 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 37 of 89

where there are strict boundaries placed on him. (Doc. 14‐24 at 24‐26, 36). Grant
stated that he “would classify [Esposito] as falling within personality disorder, nos,23
and also having a lot of features of post‐traumatic stress disorder.” (Doc. 14‐24 at 38)
He testified that a personality disorder is considered “a severe debilitating disorder” and
suffering from one can be “devastating,” and “extremely disruptive” to one’s ability to
function in daily life. (Doc. 14‐24 at 38).
Grant, like others, testified that Esposito has a long history of emotional, sexual,
and physical abuse. (Doc. 14‐24 at 26). He explained that Deese beat Esposito with
various objects and forced him to perform oral sex on several occasions. (Doc. 14‐24 at
26). Because of the abuse, Esposito suffers from recurrent intrusive thoughts and
nightmares and feels estranged and detached from others. (Doc. 14‐24 at 26).
On cross‐examination, Grant acknowledged that a Minnesota Multi‐Phasic
Personality Inventory performed on Esposito in 1994 revealed he was rebellious, had
trouble with authority, had difficulty with social limits, had anti‐social elements present,
and “people who score in a similar manner tend to be self‐centered, narcissistic,
immature, impulsive, and emotionally superficial, and may have difficulty expressing
their hostility.” (Doc. 14‐24 at 32). Grant confirmed that Esposito’s psychiatric records
show he is consistently found to be manipulative, superficial, and self‐centered. (Doc.
23

Grant explained that “nos” means “not otherwise specified” and a diagnosis of personality
disorder, nos, means that Esposito does not meet the criteria of one specific personality disorder,
such as anti‐social personality disorder, but has aspects of several different personality
disorders, including anti‐social personality disorder. (Doc. 14‐24 at 38).
-37* App. 49 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 38 of 89

14‐24 at 34). He stated that he agrees with Lower’s findings that Esposito has average
or above‐average intelligence, is competent to stand trial, “is clinically responsible and
understands the conduct of which he is accused and considers it wrong,” and would not
be considered mentally ill, as that term is defined in Georgia law. (Doc. 14‐24 at 42‐44,
51). While not fitting Georgia’s legal definition for mentally ill, Grant explained that
Esposito “has a mental illness under the … Diagnostic Statistical Manual of Mental
Disorders, Fourth Edition,” which is the “most widely used book in the world that
diagnoses mental disorders.” (Doc. 14‐24 at 44, 51).
Following this testimony, closing arguments, and the charge, it took the jury less
than two hours to find the existence of three aggravating circumstances24 and sentence
Esposito to death. (Docs. 13‐6 at 7; 14‐25 at 17‐18).
3. Esposito’s arguments
a. Trial counsel’s alleged failure to investigate and present evidence of Esposito’s
abusive childhood and history of mental illness
Esposito alleges that trial counsel failed to investigate and present evidence to
support their strategy that he had a difficult life history and some redeemable
characteristics. The state habeas court denied relief on this claim and the Georgia

The jury found the following statutory aggravating circumstances existed: (1) The offense of
murder was committed while the offender was engaged in the commission of another capital
felony, to wit: armed robbery; (2) The offence of murder was committed while the offender was
engaged in the commission of another capital felony, to wit: kidnaping with bodily injury; and
(3) the offense of murder was outrageously or wantonly vile, horrible, or inhuman in that it
involved depravity of mind to the victim. (Doc. 13‐6 at 7).
24

-38* App. 50 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 39 of 89

Supreme Court concluded the claim had no arguable merit. (Docs. 27‐39 at 21‐30; 27‐41
at 25‐29, 34‐36; 27‐44). The record supports these decisions.
Esposito faults trial counsel for failing to present more witnesses who had
personal knowledge of the abuse Esposito suffered as a child. At the state habeas
evidentiary hearing, the only additional witness presented who had personal knowledge
of Esposito’s dysfunctional family life was his former girlfriend, Courtney Greco Veach.
(Doc. 17‐8 at 55). Esposito also introduced affidavits from friends, teachers, and family
members who claimed to have knowledge of the abuse Esposito suffered at the hands of
his mother, biological father, and step‐father. (Docs. 17‐20 at 75‐77; 17‐21 at 1‐7, 75‐77;
17‐22 at 1‐35).
It is well settled that “counsel is not required to present all mitigation evidence,
even if additional mitigation evidence would have been compatible with counsel’s
strategy.” Putman, 268 F.3d at 1244. “’The mere fact that other witnesses might have
been available … is not a sufficient ground to prove ineffectiveness of counsel.” Waters
v. Thomas, 46 F.3d 1506, 1514 (11th Cir. 1995) (quoting Foster v. Dugger, 823 F.2d 402, 406
(11th Cir. 1987)). In relation to the affidavits25 submitted to the state habeas court, the

25

In his brief, Esposito makes much of Deese’s affidavit. (Doc. 56 at 63‐67). As explained
above, Deese was Esposito’s step‐father and the person Esposito claims physically abused him
and sexually molested him on numerous occasions when he was between the ages of three and
ten. (Doc. 17‐12 at 8; 18‐14 at 22‐23). In his affidavit, Deese makes no mention of any abuse he
inflicted upon Esposito, but provides details about his tumultuous marriage to Debra, the
physical and mental abuse Debra inflicted on Esposito, and Debra’s promiscuous and sexually
inappropriate behavior. (Docs. 17‐21 at 75‐77; 17‐22 at 1‐9; 56 at 63‐67). The record shows
-39* App. 51 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 40 of 89

Eleventh Circuit has repeatedly explained:
It is common practice for petitioners attacking their death sentences to
submit affidavits from witnesses who say they could have supplied
additional mitigating circumstance evidence, had they been called, or, if
they were called, had they been asked the right questions. This case is no
exception. But the existence of such affidavits, artfully drafted though
they may be, usually proves little of significance. This case is no exception
in that respect, either. That other witnesses could have been called or
other testimony elicited usually proves at most the wholly unremarkable
fact that with the luxury of time and the opportunity to focus resources on
specific parts of a made record, post‐conviction counsel will inevitably
identify shortcomings in the performance of prior counsel. As we have
noted before, in retrospect, one may always identify shortcomings, but
perfection is not the standard of effective assistance.
Waters, 46 F.3d at 1513‐14 (quotation marks and citations omitted).
Esposito alleges that trial counsel were ineffective for failing for present Veach,
his former girlfriend, as a witnesses during the mitigation phase of Esposito’s trial.
Veach arrived at the courthouse on the last day of Esposito’s trial and, most likely,
during the testimony of the last defense witness. (Doc. 17‐8 at 89). Trial counsel told
her they had no time to prepare her to testify so they were not going to call her. At the
state habeas evidentiary hearing, Kelly explained that he would not have put Veach on

Deese told a different story when Guevara interviewed him prior to Esposito’s trial. (Docs. 20‐4
at 41‐50). At that time, Deese claimed Debra was a “good mother, perfect” and she would do
anything to protect her children. (Doc. 20‐4 at 41) He told Guevara that Esposito was
extremely violent, had threatened to kill him, and once stabbed him with a knife. (Doc. 20‐4 at
46). Pretrial, Deese claimed that he was so afraid of Esposito, he “slept behind a locked door”
and kept “a knife under the mattress.” (Doc. 20‐4 at 46). Following this interview, Guevara
was informed that Deese did not want to be involved in Esposito’s case and did not want to be
contacted again. (Doc. 20‐7 at 36) Given all of this, it was certainly reasonable for trial counsel
to refrain from calling Deese.
-40* App. 52 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 41 of 89

the stand if he did not have time to prepare her beforehand. (Doc. 17‐10 at 73). He also
explained that the defense team planned for Grant to be the final mitigation witness and,
therefore, their strategy could not accommodate Veach’s late arrival. (Doc. 17‐10 at 73).
“Which witnesses, if any, to call, and when to call them, is the epitome of a strategic
decision, and it is one that we will seldom, if ever, second guess.” Waters, 46 F.3d at
1512 (citing Solomon v. Kemp, 735 F.2d 395, 404 (11th Cir. 1984)). Certainly, the Georgia
Supreme Court could have reasonably concluded that trial counsel did not perform
deficiently by failing to call Veach.
At the state habeas evidentiary hearing, Veach testified that Esposito’s mother
was mentally and physically abusive; Esposito was frequently in mental hospitals; he
was unable to keep a job or live independently; he had to rely on others to take care of
him; and he engaged in self‐mutilation. (Doc. 17‐8 at 56‐78). This testimony was
largely cumulative of that presented at trial. Thus, it was also reasonable for the state
court to determine that Esposito failed to show prejudice resulted from trial counsel’s
failure to call Veach as a mitigation witness.

Holsey v. Warden, 694 F.3d 1230,1259‐60

(11th Cir. 2012) (explaining that evidence is largely cumulative if it “tells a more detailed
version of the same story told at trial or provides more or better examples or amplifies
the themes presented to the jury”).
Esposito argues that trial counsel failed to present adequate evidence regarding
his mental illnesses and hospitalizations. At the state habeas evidentiary hearing,

-41* App. 53 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 42 of 89

Esposito presented testimony from forensic psychologist, Dr. David Lisak. (Docs. 17‐11
at 75‐89; 17‐12 at 1‐65). Lisak testified regarding Esposito’s “pathological” relationship
with his abusive, hypersexual, controlling mother; his mental and emotional problems;
his vulnerability; the sexual abuse Esposito suffered when he was young, his serious
mental and emotional problems; Esposito’s complete inability to function
independently; and his need for a structured environment. (Docs. 17‐11 at 75‐89; 17‐12
at 1‐65; 56 at 73‐77). However, Lisak had to acknowledge that all of this testimony was
given by others during the sentencing phase of Esposito’s trial. (Doc. 17‐12 at 54‐64).
Esposito faults trial counsel for failing to call Lower, the court‐appointed
psychologist who evaluated Esposito prior to trial. (Doc. 56 at 77). Lower assessed
Esposito to determine competency to stand trial, degree of criminal responsibility or
mental competence at the time of the murder, and whether he met the criteria for
“mentally retarded” or “mentally ill” under O.C.G.A. § 17‐7‐131. (Doc. 17‐14 at 13).
Esposito alleges that Lower would have told the jury that he was a disturbed young man
with a history of mental health problems that required multiple hospitalizations; he had
a personality disorder characterized by poor judgment and impulse control; and he was
mentally ill from a clinical standpoint. (Doc. 56 at 77‐78).
Lower’s findings are the same as the findings and testimony given by Grant
during the sentencing phase of trial. Both Lower and Grant found that Esposito was
competent to stand trial and was criminally responsible for his actions because he

-42* App. 54 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 43 of 89

understood the difference between right and wrong and knew the conduct of which he
was accused was wrong. (Docs. 14‐24 at 42‐44, 51; 17‐14 at 19). Both Lower and Grant
found that Esposito was not mentally ill or mentally retarded under the legal definitions
in O.C.G.A. § 17‐7‐131. (Docs. 14‐24 at 37, 44; 17‐14 at 19). Just as Lower testified in the
state habeas evidentiary hearing, Grant told that jury that while not “legally” mentally
ill, Esposito was clinically mentally ill. (Docs. 14‐24 at 44, 51). Lower’s ultimate
diagnosis, personality disorder, nos, was the same as Grant’s. (Docs. 14‐24 at 37‐39, 43;
17‐14 at 23).
In short, it was reasonable for the state courts to conclude that trial counsel
reasonably investigated Esposito’s mental health, reasonably presented evidence
regarding his mental health issues, and Esposito was not prejudiced by trial counsel’s
failure to offer different witnesses or more testimony regarding his mental illnesses.
Thus, relief must be denied on this claim.
Citing Williams v. Taylor, 529 U.S. 362 (2000), Esposito claims that the state habeas
court unreasonably discounted or failed to adequately evaluate the totality of available
mitigating evidence. (Doc. 56 at 87). As discussed above, the relevant order for
purposes of AEDPA review is the Georgia Supreme Court’s summary denial of
Esposito’s CPC application. Hittson, 759 at 1231‐32. Therefore, the Butts County
Superior Court’s analysis is irrelevant. However, assuming that the superior court’s
reasoning is relevant, there is no indication that the court unreasonably discounted or

-43* App. 55 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 44 of 89

inadequately evaluated Esposito’s mitigation evidence. The state habeas court was
under no duty to list every piece of evidence Esposito thought relevant to his ineffective
assistance claims. As the Supreme Court explained, a state court is not required to
“show its work” or provide rationales and explanations for its decisions. Richter, 131 S.
Ct. at 784. Instead, the focus is on the ultimate legal conclusion reached by the state
court, “’not on whether the state court considered and discussed every angle of the
evidence.’” Lee v. Comm’r, Ala. Dep’t of Corr., 726 F.3d 1172, 1211 (11th Cir. 2013)
(quoting Gill v. Mecusker, 633 F.3d 1272, 1290 (11th Cir. 2011)). Unless there was a
conspicuous misapplication of federal law, which there was not, this Court must assume
the state court knew and followed the law. Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316,
1329‐30 (11th Cir. 2013).
b. Trial counsel’s alleged failure to investigate and present evidence of
Woodward’s domineering and violent personality
Trial counsel testified that they thought Woodward was the “brains of this
group” and Esposito was “the follower … doing as she wanted him to do.” (Doc. 17‐10
at 39). They asked Guevara to interview Woodward’s friends and family in order to
obtain information about her background. (Doc. 17‐10 at 70). Guevara made multiple
attempts to interview Woodward’s friends, former employers, and former roommates.
(Docs. 20‐1 at 83; 20‐2 at 24‐26; 20‐4 at 57). While he did interview some former
employers and acquaintances, several persons could not be located and others refused to
speak with him. (Docs. 19‐22 at 14; 20‐4 at 57; 20‐6 at 11, 28‐29, 47‐48, 63‐64). Trial

-44* App. 56 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 45 of 89

counsel obtained letters from Woodward to former cellmates and from former cellmates
to Woodward. (Doc. 20‐1 at 23).
During both the guilt and sentencing phases of trial, trial counsel sought to
establish that Woodward manipulated and controlled Esposito. (Docs 17‐10 at 43‐44;
17‐11 at 15). Through various guilt phase State witnesses, trial counsel showed that
Woodward was the one who rented all of the hotel rooms during their travels (Docs.
14‐7 at 11; 14‐11 at 26); she purchased the bus tickets (Doc. 14‐17 at 19); she always drove
(Doc. 14‐8 at 41, 43); she weighed more than Esposito26 (Docs. 14‐7 at 59, 66; 14‐10 at 1, 5);
and she was the one who actually approached Mrs. Davis (Docs. 14‐7 at 90; 14‐8 at 3, 4).
During the sentencing phase, witnesses testified that Esposito was a passive follower
who was incapable of making decisions on his own and unable to function
independently in the world. (Docs. 14‐21 at 79‐20; 14‐24 at 24‐26, 36). Witnesses
testified that they thought it possible Woodward committed the murders and Esposito
confessed just to protect her. (Docs 14‐23 at 34, 36, 38, 40; 14‐24 at 6‐7). Trial counsel
hoped that all of this testimony would show Woodward was the main actor and more
26

Esposito also argues that trial counsel were ineffective for failing to call Woodward as an
exhibit so the jury could see she was a “large and imposing” figure who had the “ability to
dominate Mr. Esposito and the physical prowess to commit the murders.” (Doc. 56 at 48).
Both Esposito and Woodward were 5’ 7” tall. (Doc. 17‐11 at 49). He weighed 160 pounds and
had a muscular build. (Doc. 17‐11 at 49). She weighed 180 pounds. (Doc. 17‐11 at 49). Some
witnesses described Woodward as an attractive woman with long dark hair. (Docs. 14‐7 at 85;
14‐8 at 41). Trial counsel testified that they did not call Woodward because they did not think
she could add anything beneficial to their case. (Docs. 14‐7 at 85; 14‐8 at 41; 17‐11 at 51‐52).
This was a reasonable strategic decision. See Waters, 46 F.3d at 1512 (explaining that which
witnesses to call “is the epitome of a strategic decision” that should seldom be second guessed by
the courts).
-45* App. 57 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 46 of 89

culpable that Esposito. (Doc. 17‐11 at 18).
Esposito faults trial counsel for failing to call witnesses who could have testified
regarding Woodward’s domineering personality and violent behavior. At the state
habeas evidentiary hearing, Esposito introduced five affidavits from people who
described Woodward as possessive, physically abusive, violent, unstable, unpredictable,
and irrational. (Docs. 17‐22 at 28‐31; 18‐9 at 66‐69, 71‐79, 81‐85). Affiant Heather Bryan
claimed that Woodward once attacked her with a knife and that Woodward physically
assaulted her own mother, who suffered from multiple sclerosis.27 (Doc. 18‐9 at 66‐69).
Previous boyfriends stated that Woodward stalked them, forced herself on them, and
became violent when they ended the relationships. (Doc. 18‐9 at 75‐79, 81‐85) Only
one of the five affiants, Patricia Holliman, had any knowledge of Woodward’s
relationship with Esposito. She described Esposito as a model tenant during the few
months he lived in her boarding house in 1996 and stated that he did not want to
accompany Woodward to North Carolina, but she was incredibly persistent and he
finally relented. (Doc. 17‐22 at 2831).28
The state court found meritless Esposito’s claim that his trial counsel were
ineffective for failing to investigate and present evidence to support their theory that

27

This is in stark contrast to the pretrial information Bryan provided to the GBI on September 23,
1996. At that time, she told Special Agent Ron Braxley that she had “never known [Woodward]
to be violent.” (Doc. 18‐9 at 70).
28
Holliman explained that she was interviewed by Guevara prior to Esposito’s trial. She does
not indicate what she told Guevara at the time. (Doc. 17‐22 at 31).
-46* App. 58 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 47 of 89

Woodward was more culpable than Esposito. This decision did not involve an
unreasonable application of Strickland, nor was it based on unreasonable factual
findings. Testimony such as that in the affidavits tendered at the state habeas
evidentiary hearing “could have supported [Esposito’s] mitigation theory during the
penalty phase; however, [they] are not the silver bullet that [Esposito] tries to make
[them] out to be.” Hittson, 759 F.3d at 1253 (citing Strickler v. Greene, 527 U.S. 263, 289
(1999). The jury could have heard all these witnesses had to say about Woodward and
still concluded that Esposito was responsible for Mrs. Davis’ murder. After all,
Esposito confessed to bludgeoning her and the Sniders. This court cannot say that
Esposito has shown a reasonable probability that the result of his trial would have been
different had these witnesses testified regarding Woodward. Certainly, this Court
cannot find that “no fairminded jurist could agree with the state court’s” denial of relief.
Holsey, 694 F.3d at 1257 (quotation marks and citations omitted).
c. Trial counsel’s alleged failure to investigate and present evidence that the
physical evidence was inconsistent with Esposito’s confession
Esposito claims that trial counsel were ineffective for failing to retain a forensic
pathologist who could have testified that Mrs. Davis’ injuries were inconsistent with
injuries caused by a tree limb and that whatever instrument caused her injuries should
have had transfer biological material, such as blood, on it. (Doc. 56 at 42‐43). He also

-47* App. 59 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 48 of 89

claims that trial counsel should have had their DNA expert examine the tree limb29 that
was found at the crime scene so she could have told the jury there was no blood on the
limb. According to Esposito, such testimony would have been compelling evidence
that Esposito was less culpable than Woodward and that he was untruthful when he
confessed to killing Mrs. Davis. (Doc. 56 at 43).
As for trial counsel’s performance, the record shows they consulted DNA expert,
Dr. Linda Adkinson. (Doc. 17‐10 at 73). Kelly testified that he “didn’t get real good
vibrations about her testifying” but he wanted her to assist him in cross‐examining the
State’s DNA expert. (Doc. 17‐10 at 74). Kelly explained that “since [the State] didn’t
try to take DNA from the limb, that was one of the things that we were trying to bring
out, that there was nothing to put [Esposito] as the actual person who did the killing,
other than the confession[].” (Doc. 17‐10 at 74).
When cross‐examining the State’s experts, trial counsel established that whoever
lifted the limb to hit Mrs. Davis may have left skin on the limb, but the State had not
performed any DNA testing of the limb. (Docs. 14‐13 at 3; 14‐14 at 13‐14, 29). During
his closing argument, Kelly stressed the brutal beating should have left the victim’s
blood and the perpetrator’s skin on the murder weapon. (Doc. 14‐6 at 25). Yet, there

29

Actually two limbs or pieces of wood are referenced in the trial transcript. One was a larger
limb that was on top of Mrs. Davis’ body at the crime scene. (Docs. 14‐9 at 16‐18; 15‐4 at 9).
The other was a smaller “tree branch piece” or a “piece of cast‐off tree limb” that was located
near her body. (Docs. 14‐9 at 18; 15‐4 at 10). The latter apparently came from the larger limb.
(Doc. 14‐9 at 58‐61).
-48* App. 60 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 49 of 89

was no blood on the tree limb or the limb had not been tested for blood. (Doc. 14‐16 at
25). As for any skin that might have been left by the perpetrator, Kelly argued:
All it takes is half a microgram of skin and you could tell who held that
limb. It brings me to the obvious question that I’ve been asking myself for
a long time, until the time this case started. Why didn’t they test the
things that were at the crime … scene? Why didn’t they run [a] DNA test
on them? We have heard so much about DNA the last few months we are
probably sick of it, but it’s a very legitimate question, especially on an
object that the State says killed a person. Would not that be the first thing
you tested? Not the first DNA test. Why not…. Why did they want to
go to all this trouble to try to prove it. They’ve got this statement. Why
do they want to go through all this trouble to test this limb. And that’s the
whole theory that they’ve got. We’ve got this statement, so, you know,
let’s … pick out something and let’s don’t test anything else…. [M]y
client is charged with murder. It’s not some traffic ticket…. And you
know what the stakes are. And you know who has the burden. Should
you, could you leave any stone unturned when you are trying to convict
someone of murder…. [I]t doesn’t take a rocket scientist to say the first
thing that out to be tested … is that limb. They got some hairs from Mrs.
Davis, but there is nothing on that limb that puts John Esposito with it, or
at that crime scene, nothing.
(Doc. 14‐16 at 26‐27).
The Georgia Supreme Court had ample support for finding trial counsel’s
performance reasonable. It appears that trial counsel was not focused on trying to
establish that the limb was not the murder weapon. Instead, they focused on the State’s
failure to test the limb to determine who had lifted it to hit Mrs. Davis. This makes
sense because the presence of Mrs. Davis’s hair embedded in the limb tended to establish
that she had been struck by the limb. The State’s microanalyst testified that sixty‐three
hairs found on the cast‐off piece of limb matched hairs on Mrs. Davis’ head, as did five

-49* App. 61 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 50 of 89

strands of hair embedded in the larger tree limb.30 (Doc. 14‐14 at 21‐26).
To show he was prejudiced by trial counsel’s failure to retain a forensic
pathologist to testify that Mrs. Davis’ injuries were not caused by a limb, Esposito
presented testimony from forensic pathologist Dr. Jonathan Arden at the state habeas
evidentiary hearing. (Doc. 17‐9 at 30‐42). Arden testified that, based on his review of
autopsy photographs, 31 Mrs. Davis’ injuries were caused by two or three different
man‐made object, but he could not say with reasonable certainty what objects caused
any of the injuries. (Doc. 17‐9 at 27, 30‐34, 41). On cross‐examination, Arden
acknowledged that some of Mrs. Davis’ injuries could have been caused by the tread of
an athletic shoe, which is consistent with one of Esposito’s statement. (Doc. 17‐9 at 61,
63‐64). More importantly, Arden conceded that Mrs. Davis’ hairs were found
embedded in the tree limbs. (Doc. 17‐9 at 71). Given this, he had to acknowledge that
it was possible she was struck by the limb. (Doc. 17‐9 at 71‐72).
30

A forensic report dated November 14, 1996 shows “CHEMICAL EXAMINATION OF THE
TREE LIMB (ITEM 1) FAILS TO REVEAL THE PRESENCE OF BLOOD.” (Doc. 19‐11 at 78).
Esposito faults trial counsel for failing to introduce the report at trial or question the forensic
serologist about the report. (Doc. 56 at 44 n.31). The record does not reveal why trial counsel
did not introduce the report or question the forensic serologist. Again, it appears that trial
counsel were not focused on trying to establish the limb was not the murder weapon. Instead,
they were focused on the lack of physical evidence linking Esposito to the limb and the State’s
failure to test the limb to confirm Esposito’s confession that he (not Woodward) was the one who
used the limb to kill Mrs. Davis. (Doc. 14‐16 at 25‐27). This was reasonable because the State
never maintained there was blood on the limb and Davis’ hair, not blood, supported the State’s
argument that the limb was used to bludgeon Davis. (Doc. 14‐14 at 21‐27).
31
Arden had not spoken with the medical examiner or any investigator involved in Mrs. Davis’
case. Nor had he actually seen the tree limb. He only saw photographs, in which the tree limb
was wrapped in plastic. He had not even seen any close‐up photographs of the unwrapped tree
limb and its bark. (Doc. 17‐9 at 57‐58).
-50* App. 62 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 51 of 89

Looking at the entire record, the state courts reasonably found Esposito had not
shown prejudice. He did not show a reasonable probability that the result of his trial
would have been different if his DNA expert testified there was no blood on the tree
limb, or the forensic report showing the lack of blood had been introduced into evidence,
or had trial counsel hired a forensic pathologist, such as Arden, to testify.
d. Trial counsel’s failure to object to the prosecutor’s questioning of Grant and
the allegedly improper characterization of mental health evidence during
closing
Esposito argues trial counsel should have objected to the prosecutor’s
cross‐examination of Grant and closing argument, both of which Esposito claims
“prevented the jury from giving meaningful effect” to his mental health evidence.
(Doc. 56 at 98‐105). Respondent argues the claim is unexhausted, or if exhausted, it is
meritless. (Doc. 57 at 98‐100).
Looking first at exhaustion, in his amended state habeas petition, Esposito alleged
the “prosecution attempted to remove from the jury’s consideration Petitioner’s history
of mental illness” and “[t]o the extent that Petitioner’s counsel failed to object … [they
were] ineffective, and Petitioner was prejudiced thereby.”32 (Doc. 17‐2 at 14‐15 n.4).
Additionally, in his post‐hearing brief, Esposito argued that the prosecution’s
questioning of Grant was “improper in its own right … and defense counsel should have

32

Esposito raised the prosecutorial misconduct claim in the body of his amended state habeas
petition and raised the ineffective assistance of counsel claim in a footnote. (Doc. 17‐2 at 14‐15
n.4).
-51* App. 63 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 52 of 89

vigorously objected.” (Doc. 27‐34 at 28). He complained that “[t]rial counsel failed to
object to this improper questioning and stood silently by while the State
mischaracterized Dr. Grant’s professional opinions….” (Doc. 27‐34 at 30). The state
habeas court did not specifically address this ineffective assistance claim, but the court’s
order contained a “catch‐all” provision that provided: “As to any other claims of
ineffective assistance of counsel not specifically addressed in this Order, this Court finds
that Petitioner failed to meet his burden under Strickland of proving deficient
performance and actual prejudice.” (Doc. 27‐39 at 44).
Any claim that is not contained within a Georgia habeas petitioner’s CPC
application is unexhausted. Hittson, 759 F.3d at 1232 n.23. In section IV(G) of his CPC
application, Esposito argued the State misled the jury into believing that his mental
health problems did not qualify as mitigation. (Doc. 27‐41 at 52). In a footnote in the
introduction of section IV, Esposito stated, “This Court cannot ignore the State’s
improper actions merely because Mr. Esposito’s counsel were ineffective for failing to
properly object and litigate them…. In addition, Mr. Esposito’s attorneys were
ineffective for failing to challenge the improper arguments and actions of the State that
are discussed herein.” (Doc. 27‐41 at 44 n.17). The Georgia Supreme Court denied
Esposito’s CPC application.
While it is certainly debatable whether Esposito adequately presented this
ineffective assistance claim to the state courts, the Court finds Esposito exhausted the

-52* App. 64 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 53 of 89

claim. The Court, however, agrees with Respondent that the claim has no merit. The
Eleventh Circuit recently explained:
When a petitioner says his attorney was ineffective for failing to make an
objection, Strickland requires proof that the attorney fell below the standard
of reasonableness under prevailing norms. This test has nothing to do
with what the best lawyers would have done. Nor is the test even what
most good lawyers would have done. We ask only whether some
reasonable lawyer at the trial could have acted, in the circumstances, as
defense counsel acted.
Decisions about whether to object—and when, and in what form—are
tactical choices consigned by Strickland to a lawyer’s reasoned professional
judgment. Good lawyers, knowing that judges and juries have limited
patience, serve their clients best when they are judicious in making
objections. In any trial, a lawyer will leave some objections on the table.
Some of those objections might even be meritorious, but the competent
lawyer nonetheless leaves them unmade because he considers them
distractive or incompatible with his trial strategy.
Bates v. Sec’y, Fla. Dep’t of Corr., 768 F.3d 1278, 1295 (11th Cir. 2014) (quotation marks and
citations omitted)..
Looking at the circumstances in this case, trial counsel stated that they called
Grant to testify about Esposito’s difficult childhood, his physical and sexual abuse, and
his traumatic experiences. (Doc. 17‐10 at 72). Grant provided this testimony during
his direct examination. (Doc. 14‐14 at 24‐26, 36). During cross‐examination, Grant
testified that Esposito suffers from borderline personality, nos, which can be a severe,
life‐long, debilitating disorder. (Doc. 14‐24 at 38, 43). The prosecutor asked if Esposito
was mentally retarded and Grant stated he was not. (Doc. 14‐24 at 35). The prosecutor
asked if, “[d]espite the personality disorder,” is Esposito mentally ill under Georgia law
-53* App. 65 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 54 of 89

at O.C.G.A. § 17‐7‐131. (Doc. 14‐24 at 44). Grant responded, “[n]o, he doesn’t
necessarily fit that definition, but he does fit the definition of a mental disorder based on
the diagnostic and psychotic manual of mental disorders.” (Doc. 14‐24 at 44). The
exchange continued:
Q. And is he mentally ill under the definition of the law?
A. He’s not mentally ill according to what you said, but he has a mental
illness under the – the Diagnostic Statistical Manual of Mental Disorders,
Fourth Edition.
Q. So, the answer is “no.”
A. It’s “no” but—it depends on which—
Q. Under the legal definition the answer is “no.”
A. No not under that definition, but this is the most widely used book in
the world that diagnoses mental disorders and he does meet them.
Q. Which book are we using today, sir?
A. You’re asking about that one.
Q. Thank you.
(Doc. 14‐24 at 51).
Esposito argues that trial counsel should have objected because O.C.G.A. §
17‐7‐131 has nothing to do with the definition of relevant mitigating evidence in the
sentencing phase of a capital crime. Instead, “[i]t includes a definition of the term
‘mentally ill’ for purposes of the legal determination whether a criminal defendant is
‘guilty but mentally ill at the time of the crime.’” (Doc. 56 at 103) (citing O.C.G.A. §
17‐7‐131(a)(2)). Without support, Esposito argues that trial counsel did not object
because they did not know the law. (Doc. 56 at 105). The record does not reveal why
trial counsel failed to object. It could be that trial counsel did not want to emphasize
Grant’s “personality disorder, nos” diagnosis because, according to Grant, it included
-54* App. 66 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 55 of 89

aspects of borderline personality disorder, narcissistic personality disorder, and
anti‐social personality disorder. (Doc. 14‐24 at 38). Such diagnoses can be seen
damaging as opposed to mitigating. Cummings v. Sec’y for Dep’t of Corr., 588 F.3d 1331,
1368 (11th Cir. 2009). Regardless, even if counsel performed ineffectively by failing to
object, the Georgia Supreme Court had a reasonable basis for concluding Esposito was
not prejudiced.
Contrary to Esposito’s assertion, it is not apparent that “[w]hat little mitigating
evidence the jury heard was likely not considered.” (Doc. 56 at 98). The jury heard
from numerous witnesses, including Grant, that Esposito had longstanding
psychological problems, was emotionally disturbed, suicidal, depressed, and had been
in‐and‐out‐ of mental institutions for years. (Docs. 14‐21 at 79‐80, 84; 14‐22 at 25‐26;
14‐23 at 17, 26). Grant repeatedly expressed that Esposito was mentally ill from a
clinical standpoint. Contrary to Esposito’s assertions, trial counsel’s failure to object
did not “allow[] the prosecution to argue that Mr. Esposito’s history of psychiatric illness
had no mitigating value.” (Doc. 56 at 98). In fact, the State never argued that
Esposito’s mental health problems could be considered mitigating only if they rose to the
level of “mentally ill” under Georgia law.
Esposito claims that the prosecutor exploited the improper cross‐examination
when, during his closing argument, he stressed that the jury was to be guided by the law
in determining Esposito’s sentence and observed: “Statutory means it’s set out in our

-55* App. 67 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 56 of 89

statutes. It’s in one of those black law books that Ms. Baskin held up. Those are our
law books and this is a court of law.” (Doc. 14‐24 at 65‐66). A review of the record
reveals that the prosecutor was not underscoring the importance of Grant’s
cross‐examination or talking about mitigating circumstances at all. Instead, he was
telling the jury that before they could impose the death penalty, they had to find at least
one “statutory aggravating circumstance.” (Doc. 14‐24 at 65‐66). He told the jury that
“statutory” means “it’s set out in our statutes” in the “law books.” (Doc. 14‐24 at 65‐66).
In their closing, trial counsel argued that Esposito’s “problems” did not excuse his
actions, but they were “a factor in mitigation.” (Doc. 14‐25 at 2). The trial court
instructed the jury to consider all mitigating circumstances, which it defined as “those
which you … find do not constitute a justification or excuse for the offense in question,
but which in fairness and mercy may be considered as extenuating or reducing the
degree of moral culpability or blame.” (Doc. 14‐25 at 6).
There is no indication the jury failed to consider any of Esposito’s potentially
mitigating evidence. Moreover, given the brutality of Esposito’s crimes, he has not
shown a reasonable probability that the outcome of his sentencing proceeding would
have been different but for trial counsel’s failure to object to the prosecutor’s
cross‐examination of Grant and closing.33 Certainly, he has not shown “there was no

33

Esposito can show prejudice resulting from trial counsel’s failure to object to the prosecutor’s
closing only if the underlying improper prosecutorial argument claim would warrant relief;
which would be the case only if there was a reasonable probability that the improper argument
-56* App. 68 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 57 of 89

reasonable basis for the state court to deny relief.” Hittson, 759 F.3d at 1233.
e. Trial counsel’s failure to object to the prosecutor’s allegedly improper
examination of additional witnesses
Esposito makes three arguments: (1) Trial counsel should have objected to the
prosecutor’s improper questioning of sentencing phase witnesses John Crain,34 Alicia
Holt,35 and Annette Nolan;36 (2) trial counsel should have objected when the prosecutor
allegedly “made several comments that served to bolster the credibility of his witnesses
and imply that he knew the witnesses to be sincere and trustworthy; 37 and (3) trial
counsel should have objected to victim impact evidence presented in the guilt phase of
the trial through witnesses George McNeill and Helena Herring38 and during the

changed the outcome of the case. See Darden v. Wainwright, 477 U.S. 168, 181 (1986). Esposito
has not shown that absent any improper prosecutorial argument, he would not have received a
death sentence.
34
Esposito claims that when cross‐examining Crain, the prosecutor insinuated Esposito was a
racist, improperly questioned Crain about Esposito’s involvement in devil worship, and
improperly engaged Crain in a discussion of the ties Esposito’s father had to the Italian mob.
(Doc. 56 at 106).
35
Esposito claims that the prosecutor improperly questioned Holt regarding Esposito’s
involvement in devil worship. (Doc. 56 at 108).
36
During direct examination, Nolan testified that Esposito was a born‐again Christian. On
cross‐examination the prosecutor asked her if she would be surprised to hear that Esposito did
not give Mrs. Davis or the Sniders a chance to pray before he beat them to death. (Doc. 56 at
108).
37
Specifically, Esposito argues that trial counsel were ineffective for failing to object when the
prosecutor referred to Alvin Schmidt as a “genuine Texas Ranger” and repeated Schmidt’s
answers to several questions. (Doc. 56 at 110). He also argues that counsel should have
objected when the prosecutor had Knight repeat several of his answers. (Doc. 56 at 110‐11)
38
Esposito argues that trial counsel should have objected when the prosecutor elicited testimony
from McNeill and Herring regarding: The poor health of Mr. Davis; the sacrifices Mrs. Davis
made to care for her husband; Mrs. Davis’ compassionate, caring nature; her church attendance;
her good health; her love of gardening; and the affection she had for her dog and the children in
her neighborhood. (Doc. 56 at 115‐16).
-57* App. 69 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 58 of 89

sentencing phase of the trial through Lawrence Snider, Jr. and Shirley Snider.39 (Doc. 56
at 106‐08, 110, 113).
Respondent argues these ineffective assistance claims are unexhausted or,
alternatively, they have no merit.
Looking first at exhaustion, in his amended state habeas petition, Esposito made
these general allegations: “Counsel failed to object to the admission of several items of
evidence and testimony offered by the State during the guilt/innocence and sentencing
phases of trial”; “[c]ounsel failed to object to or otherwise litigate the improper
admission of extensive irrelevant and prejudicial evidence regarding the victims”;
“[c]ounsel failed to adequately object to and litigate improper testimony, including, but
not limited to, testimony that was hearsay, irrelevant, cumulative, outside the personal
knowledge of the witness, and testimony that was highly prejudicial”; and “[c]ounsel
failed to object to improper comments and arguments by the prosecution within which
the prosecution vouched for the credibility of prosecution witnesses.” (Doc. 17‐2 at
5‐9).
In his post‐hearing brief, Esposito argued that the State improperly vouched for
the credibility of prosecution witnesses and, during the guilt phase of trial, improperly

39

Esposito argues trial counsel should have objected when Lawrence Snider testified his parents
had been married over 62 years at the time of their deaths and they attended church every
Sunday. Also, he claims that trial counsel should have objected when Shirley Snider testified
her in‐laws treated her like a daughter, were caring, active, loving, and very involved with their
church. (Doc. 56 at 118‐19).
-58* App. 70 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 59 of 89

elicited testimony about Mrs. Davis’ habits, life, and personality. (Docs. 27‐34 at 78‐84;
28‐1 at 1, 5‐7). Regarding trial counsel’s response, or lack thereof, Esposito’s only
relevant claim was that trial counsel were ineffective for failing to ensure the jury did not
base its decisions on emotion or passion. (Doc. 27‐34 at 77).40
In his CPC application, Esposito alleged that “[d]uring the guilt/innocence phase
of the trial, the State elicited extensive testimony about the victim that was irrelevant and
served only to inflame the jury’s emotions.” (Doc. 27‐41 at 45). He also complained
that the State improperly vouched for the credibility of its witnesses. (Doc. 27‐41 at
49‐50). Finally, Esposito alleged generally that trial counsel “were ineffective for failing
to challenge the improper arguments and actions of the State.” (Doc. 27‐41 at 44 n.17).
Given this record, Esposito arguably exhausted his claims that trial counsel were
ineffective when they failed to object to the guilt phase victim impact testimony and
when they failed to object when the prosecutor vouched for the credibility of his
witnesses. It does not appear Esposito exhausted his claims that trial counsel were
ineffective when they did not object to the prosecutor’s allegedly improper questioning
of sentencing phase witnesses Crain, Holt, Nolan, Lawrence Snider, and Shirley Snider.
However, the Court agrees with Respondent, even if all claims are exhausted,
they are without merit. Assuming the failure to object was deficient, Esposito has not
40

While the state habeas court did not specifically address this claim, it did state, “[a]s to any
other claims of ineffective assistance of counsel not specifically addressed in this Order, this
Court finds that [Esposito] failed to meet his burden under Strickland of proving deficient
performance and actual prejudice.” (Doc. 27‐39 at 44).
-59* App. 71 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 60 of 89

established prejudice. Esposito has not shown a reasonable probability that had trial
counsel objected to the questioning of, or testimony given by, any of the witnesses, there
is a reasonable probability that the outcome of the guilt phase of his trial would have
been any different. Witnesses placed Esposito in the car with Mrs. Davis in Lumberton,
North Carolina and fingerprints, palm prints, footprints and DNA from a cigarette butt
taken from Mrs. Davis’ Buick all matched Esposito. Esposito, 273 Ga. at 183, 538 S.E.2d
at 57. Not to mention that in his detailed statement to Knight, Esposito explained how
he bludgeoned Mrs. Davis to death. Given this evidence, his guilt was not at issue. In
relation to his sentence, Esposito has not shown a reasonable probability that had trial
counsel successfully objected to the prosecutor’s questions, the jury would not have
imposed the death penalty. Given the extensive nonstatutory evidence in aggravation
offered during sentencing—specifically the brutal murder of the Sniders—it was
reasonable for the state courts to conclude that Esposito could not show prejudice. See
Clisby v. Alabama, 26 F.3d 1054, 1057 (11th Cir. 1994) (“Strickland and several other cases
reflect the reality of death penalty litigation: sometimes the best lawyering, not just
reasonable lawyering, cannot convince the sentencer to overlook the facts of a brutal
murder.”).
f. Trial counsel’s failure to object to the presentation of the Texas crime scene
videotape introduced during sentencing
Prior to the sentencing phase of Esposito’s trial, trial counsel objected to the
admission of evidence related to the Sniders’ murder. (Doc. 14‐16 at 80). The
-60* App. 72 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 61 of 89

prosecutor argued that the evidence related to Esposito’s character and was, therefore,
admissible in sentencing. (Doc. 14‐16 at 80‐81). The trial court agreed with the
prosecutor and found the “State has a right to present this evidence.” (Doc. 14‐16 at 81).
Part of that evidence was a videotape depicting the crime scene, including the Sniders’
bodies.41 (Doc. 56 at 131). Trial counsel did not specifically object to the presentation
of the crime scene video. Instead all parties agreed that the video would be played
without audio and they agreed on a particular stopping point.42 (Doc. 14‐20 at 5‐6).
During his state habeas proceedings, Esposito argued that trial counsel were
ineffective for failing to contest the admission of the videotape. (Doc. 27‐34 at 60‐66).
The state habeas court addressed Esposito’s specific allegation regarding the videotape
in the context of his broader claim that trial counsel were deficient in their attempts to
suppress harmful evidence offered by the State and found trial counsel performed
reasonably. (Doc. 27‐39 at 37‐39). Esposito argues that the state habeas court’s finding
that “Mr. Kelly and Mr. Roberts ‘reasonably and zealously tried to keep out evidence of
Petitioner’s confessions and the Sniders’ murder” was an unreasonable factual finding.
He also claims that the state habeas court’s conclusion that trial counsel’s performance
was reasonable involved in unreasonable application of Strickland. (Docs. 27‐39 at 38;
41

The DVD containing the videotape of the Oldham County, Texas crime scene has been
manually filed and is the record as Respondent’s Exhibit 168.
42
The prosecutor stated that “we have agreed to play it and stop at a certain point. There’s a
scene at the morgue afterwards, and we’re going to agree not to play that.” (Doc. 14‐20 at 5).
Trial counsel complained that the audio was “not appropriate” and the prosecutor stated,
“[t]here will be no audio.” (Doc. 14‐20 at 6).
-61* App. 73 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 62 of 89

56 at 130‐33).
Under Hittson, the state habeas court’s findings and reasoning are irrelevant.
Instead, the Georgia Supreme Court’s summary denial of Esposito’s CPC application, in
which he raised this claim, is the relevant decision and the only question is “whether the
Georgia Supreme Court had any reasonable basis” to conclude that Esposito’s
ineffective‐assistance claim was meritless. Hittson, 759 F.3d at 1273 (Carnes, J.,
concurring). It did. Had trial counsel objected, there was not a reasonable likelihood
of a different result. Georgia courts have routinely held graphic, inflammatory
photographs and videotapes admissible despite their gruesome and prejudicial nature.
See Crozier v. State, 263 Ga. 866, 867, 440 S.E.2d 635, 636 (1994) (addressing admission of
photographs and explaining that admission of evidence is favored in doubtful cases and
photos depicting the nature and location of victim’s wounds were relevant and
admissible even if they were duplicative and inflammatory); Joyner v. State, 280 Ga. 37,
40, 622 S.E.2d 319, 323 (2005) (addressing videotape and explaining that the trial court
properly admitted video although trial counsel objected on the grounds that its
depiction of the victim’s decomposed body was inflammatory and lacked evidentiary
value); Bullard v. State, 263 Ga. 682, 686, 436 S.3d.2d 647, 651 (1993) (explaining the
gruesome nature of the videotape complained of resulted entirely from the acts of the
defendant, not from any alteration or autopsy by the state and, therefore, tape properly
admitted). Also, even if trial counsel had objected and the video had been excluded,

-62* App. 74 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 63 of 89

there was not a reasonable probability that the jury would have reached a different
sentencing verdict. Esposito confessed to kidnapping these elderly people, robbing
them, forcing them to endure hours travelling in the car with him and his codefendant,
and finally beating each of them to death. It was reasonable for the Georgia Supreme
Court to find a lack of prejudice.
Furthermore, assuming the state habeas court’s decision is relevant, it was not
based on any unreasonable factual findings and did not involve an unreasonable
application of Strickland. When the state habeas court found trial counsel acted
“reasonably and zealously” in trying to suppress harmful evidence, it was not referring
solely to trial counsel’s efforts to keep out evidence of the Sniders’ murder. (Doc. 27‐39
at 38). Instead, the state habeas court’s order clearly shows the court was referring to
efforts trial counsel made to exclude evidence of Esposito’s “confessions and the Sniders’
murder.” (Doc. 27‐39 at 38) (emphasis added). While trial counsel made only a verbal
objection to admission of evidence related to the Sniders’ murder, they did more in their
attempts to have his confessions suppressed. In addition to filing a motion to suppress,
they filed an ex parte motion for funds to bring in out‐of‐state witnesses, presented
witnesses and arguments at the lengthy hearing, and were ultimately successful in
keeping Esposito’s videotaped confession out of evidence. (Docs. 13‐5 at 29‐38, 44‐46,
77; 13‐11 at 1‐89; 13‐12 at 1‐89; 13‐13 at 1‐64). Thus, the state habeas court’s
characterization of trial counsel’s performance regarding their efforts to suppress

-63* App. 75 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 64 of 89

evidence of Esposito’s “confessions and the Sniders’ murder” was reasonable and the
court’s denial of relief did not constitute an unreasonable application of Strickland.
(Doc. 27‐39 at 38) (emphasis added). Certainly the state habeas court’s ruling was not
“so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Richter, 131 S. Ct. at
786‐87. Thus, the Court must deny relief on this claim.
g. Trial counsel’s failure to object to the jury’s visit to the crime scene
During the guilt phase of Esposito’s trial, the jury visited the crime scene in the
company of Chief Deputy Michael Pritchett, who was a witness for the State and one of
the first officers to arrive at the scene. (Doc. 56 at 133‐41). The trial judge, court
reporter, prosecutor, and trial counsel did not attend this visit. Esposito claims trial
counsel were ineffective for agreeing to the crime scene visit. (Doc. 56 at 133‐41).
The record shows the trial judge instructed the jury that they were going to be
taken by bus to the crime scene and twice told them to “[r]emember my instructions not
to discuss the case or allow anyone to discuss it with you or in your presence.” (Doc.
14‐14 at 62‐63). The prosecutor explained he was not going to the crime scene; trial
counsel stated they would not attend; and Esposito waived his rights to attend. (Doc.
14‐14 at 63‐64). The trial judge informed Pritchett that he could walk the jury “over to
the tree,” and then could say, “this is where the body was found.” (Doc. 14‐14 at 65‐66).
Pritchett was instructed to say only “those words,” and told not to answer any

-64* App. 76 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 65 of 89

questions. (Doc. 14‐14 at 65‐67). The trial judge explained to Pritchett that the jurors
should not be discussing the case among themselves. (Doc. 14‐14 at 65‐66).

On

direct appeal, the Georgia Supreme Court raised sua sponte the issue of the crime scene
visit. The court advised against allowing such visits:
Although not raised as an enumeration of error, this procedure is troubling
and should not be used in the future. As we have stated before, a trial
judge should attend any planned jury view. Taking a jury from the
controlled environment of a courtroom to a place that has some relevance
to the trial always involves the risk that something unexpected might arise
requiring the trial judgeʹs intervention. A court reporter should also
attend any jury view so that any important statements or events may be
thoroughly reviewed on appeal. The attorneys should also attend, unless
their presence is affirmatively waived.
While a defendantʹs presence at a jury view that involves merely the
transportation of the jury to a crime scene is not absolutely required, trial
courts should note that a defendantʹs presence is mandatory, if not waived
by the defendant himself, whenever testimony or other evidence is
presented to the jury. Special dangers exist whenever a witness at trial,
particularly a law enforcement officer, attends a jury view, and a trial court
should avoid those dangers by excluding such persons.
Finally, because jury views have proved to be fertile ground for
irregularity and, at times, reversible error, the parties to criminal trials and
trial courts should carefully weigh the real benefits of a jury view before
planning one. Frequently, as in Espositoʹs case, the jury has already
viewed photographs of the crime scene, and nothing is to be added to the
juryʹs understanding of the issues to be tried by an in‐person visit to the
scene. In such cases, a trial court would be authorized to deny a request
for a jury view.
Esposito, 273 Ga. at 187, 538 S.E.2d at 59‐60. Even with this criticism, however,
the Georgia Supreme Court upheld Esposito’s conviction and sentence.
Before the state habeas court, Esposito challenged trial counsel’s acquiescence to
-65* App. 77 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 66 of 89

the jury’s judicially unsupervised crime scene visit. The state habeas court explained:
During the guilt‐innocence phase of Petitioner’s trial, the parties allowed
an investigator in his case, the chief deputy sheriff of Morgan County, to
accompany the jury to view the crime scene and to tell the jury where the
body was found. The judge, the court reporter, and the attorneys did not
attend the jury viewing. This Court agrees with the Supreme Court of
Georgia that “this procedure is troubling and should not be used in the
future.”… However, on the facts of this case, this Court finds no
prejudice from the procedure or trial counsel’s failure to object.
(Doc. 27‐39 at 44).
Esposito claims that the juror affidavits he submitted, which the state habeas
court refused to consider, showed prejudice. At the state habeas evidentiary hearing,
Esposito tendered four juror affidavits, two of which addressed the jury’s crime scene
visit. (Doc. 19‐2 at 46‐52). In her affidavit, alternate juror Tonya M. Samuels stated
that the sheriff described details of the crime scene and, in his affidavit, juror Joe Taylor
stated that the deputy showed the jurors where Mrs. Davis had been killed. (Doc. 19‐2
at 46‐52). Respondent objected to the admission of the affidavits because Esposito did
not serve the affidavits at least ten days prior to the evidentiary hearing43. (Doc. 27‐26 at
2). The state habeas court ruled that, in reaching its conclusions, the affidavits would
not be considered. (Doc. 17‐5 at 1). However, it allowed the affidavits to be proffered
for the record. (Doc. 27‐26 at 2). Respondent then proffered his own rebuttal affidavits
from these same two jurors. (Docs. 27‐26 at 2; 27‐23 at 40‐42, 45‐46). In the affidavit

43

For a detailed discussion of state habeas counsel’s tender of the juror affidavits, see the Court’s
July 18, 2013 Order denying Esposito’s motion for an evidentiary hearing. (Doc. 42 at 4‐9).
-66* App. 78 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 67 of 89

tendered by Respondent, Samuels clarified that the sheriff who met the jurors at the
crime scene only told them where Mrs. Davis’ body had been located and said nothing
else. (Doc. 27‐33 at 41‐41). Similarly, Taylor clarified that the sheriff only told them
where Mrs. Davis’ body had been located and “never said anything else … about the
case.” (Doc. 27‐33 at 45). All of these affidavits were placed in the record that was
transmitted to the Georgia Supreme Court when Esposito filed his CPC application. See
Hittson, 759 F.3d at 1231 (explaining that for the Georgia Supreme Court to fully consider
a CPC application, “O.C.G.A. § 9‐14‐52(b) directs the superior court clerk to transfer the
record and transcript of the proceedings below to the Supreme Court”).
In his CPC application, Esposito, in a footnote, argued that trial counsel were
ineffective for failing to challenge the crime scene visit. (Doc. 27‐41 at 44 n.17). As
explained previously, the Georgia Supreme Court concluded all claims Esposito raised
lacked arguable merit and summarily denied the CPC application. (Doc. 27‐44).
Esposito has failed to show the state habeas court’s findings were based on
unreasonable factual determinations or involved an unreasonable application of
Strickland. Additionally, the Georgia Supreme Court had the entire record from the
superior court, including all the affidavits that had been proffered for the record, to
review. (Doc. 27‐26 at 2). Without elaboration, the Georgia Supreme Court found the
claim lacked arguable merit. “Our task in these situations is to review the record before
the Georgia Supreme Court to ‘determine what arguments or theories supported or, as

-67* App. 79 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 68 of 89

here, could have supported the state court’s decision.’” Hittson, 759 F.3d at 1232
(quoting Pinholster , 131 S. Ct. at 786). Esposito’s failure to show prejudice from the
crime scene visit, even when considering the proffered affidavits, supports the Georgia
Supreme Court’s determination. Certainly Esposito has not shown the Georgia
Supreme Court had “’no reasonable basis’” for denying this claim. Id. at 1233 (quoting
Pinholster, 131 S. Ct. at 784). Because he has not made such a showing, this Court must
deny relief.
h. Trial counsel’s failure to object to the prosecutor’s sentencing phase closing
argument
Esposito argues the prosecutor made numerous improper arguments in his
sentencing phase closing argument: (1) telling the jury the Sniders, who never missed
church, would never be able to go to church again (Doc. 56 at 124); (2) using “grandiose
Biblical quotations in exhorting the jury to impose a death sentence”44 (Doc. 56 at 124);
(3) concluding his argument for imposition of the death penalty by stating, “But justice
would be when Mr. F. M. Davis goes to the Pearly Gates in heaven and sees his beloved
44

The prosecutor’s biblical references included: (1) “How long—the good book says, ‘How
long shall the wicked be allowed to triumph and exalt.’ He’s wicked.” (Doc. 14‐24 at 80); (2)
“’How these men of evil boast.’ He is a man of evil. I’m not going to sugar coat it. And he
boasted. He boasted. These are his words, … his boasting…. And what did this man of evil
boast? I want you to picture him there … out in that Texas field with Mr. Snider and those six
blows and his boast. What did [Esposito] tell [Knight]? ‘I don’t have a conscience, no
remorse.’” (Doc. 14‐24 at 82‐83); and (3) “Dr. Harvey told us on Mrs. Marguerite Snider it was
five hard blows, … so hard that one of these shattered her skull…. And what else did this man
of evil—‘how these men of evil boast’—on those five licks, what did he say when he was
questioned by Ron Knight. ‘I really do not care.’ … ‘Hey, I didn’t even get brains on me.’
‘Arise and judge the earth.’ Today is judgment day for John Anthony Esposito.” (Doc. 14‐24 at
84‐85).
-68* App. 80 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 69 of 89

wife of fifty years, Mrs. Lola, and he can say, ‘honey, there was justice on this
earth.’”(Doc. 56 at 124‐25); (4) stating Esposito would kill again because he took pleasure
from killing (Doc. 56 at 126); (5) referring to Esposito as “a serial killer” (Doc. 56 at 127);
(6) asking the jurors to speculate about the last moments of Marguerite Snider’s life45
(Doc. 56 at 128); and (7) telling the jury that he “handle[s] lots of murder cases” and all
killings are brutal and senseless but these were “particularly malicious and brutal.”
(Doc. 56 at 129). Esposito argues that “[i]n remaining silent in the face of the
prosecutor’s misconduct, counsel once again provided deplorably ineffective
representation.” (Doc. 56 at 123).
Respondent argues that Esposito raised only a general claim that trial counsel
failed to object to the improper and prejudicial statements made by the State during its
closing. (Doc. 57 at 95‐96). He claims that none of these specific claims were alleged or
argued in the state habeas proceedings and they are, therefore, unexhausted. (Doc. 57
at 95). Alternatively, Respondent argues the claims are meritless.
The record shows Esposito’s amended state habeas petition contained
approximately seventy‐eight general ineffective assistance claims. Two of which were
“[c]ounsel failed to object to improper and prejudicial statements made by the State

45

The prosecutor stated, “Can you imagine 86 year old Marguerite Snider, married for sixty‐two
and a half years to her beloved husband Larry to be sitting out in that Texas field watching that
man beat the brains out of her husband right in front of her. She didn’t even put up a fight.
We’ve been married sixty‐two years. He’s 90. Why fight him. Take me, too. I may as well
go with him. I may as well go.” (Doc. 14‐24 at 83‐84).
-69* App. 81 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 70 of 89

during opening and closing arguments of both the guilt/innocence and sentencing
phases of the trial” and “[c]ounsel failed to adequately and timely object to improper
statements the prosecution made during closing arguments.” (Doc 17‐2 at 8, 10). He
also alleged that his “rights to due process and a fair trial were violated by improper,
prejudicial, and misleading remarks by the prosecution in its argument at Petitioner’s
trial” and “[t]o the extent that … counsel failed to object to these improper comments
and seek a mistrial or other appropriate relief, or to otherwise preserve objections to the
State’s argument …, counsel were ineffective, and Petitioner was prejudiced thereby.”
(Doc. 17‐2 at 14‐15 n.4).
In his post‐hearing brief and CPC application, Esposito argued that “[a]t the close
of both phases of [his] trial, the State presented argument to the jury that was improper,
misleading, and prejudicial.” (Doc. 28‐1 at 3). His specific claims were: (1) the
prosecutor improperly told the jury that, if not sentenced to death, Esposito would kill
again because he liked killing people (Docs. 27‐41 at 48‐49; 28‐1 at 3); (2) the prosecutor
improperly referred to Esposito as a serial killer (Docs. 27‐41 at 48‐49; 28‐1 at 4); and (3)
the prosecutor improperly claimed he was an expert in murder cases and this murder
deserved the death penalty (Docs. 27‐41 at 49; 28‐1 at 4‐5). In his post‐hearing brief, he
claimed that “[a]lthough Mr. Esposito’s attorneys were ineffective for failing to ensure
that the jury not base its decisions o[n] emotion and passion, this Court cannot ignore the
State’s improper actions, merely because Mr. Esposito’s counsel failed to properly object

-70* App. 82 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 71 of 89

and litigate them.” (Doc. 27‐34 at 77). In his CPC application, he alleged that
“Esposito’s attorneys were ineffective for failing to challenge the improper arguments …
of the State….”46 (Doc. 27‐41 at 44 n.17).
Thus, it seems Esposito exhausted three of his seven specific claims that trial
counsel were ineffective for failing to object during the prosecutor’s sentencing phase
closing argument. Relying on a doctrine first announced in Vela v. Estelle, 708 F.2d 954
(5th Cir. 1983), Esposito argues the remaining four47 claims are exhausted. According
to Vela, if the state court that reviewed the ineffective assistance claims considered trial
counsel’s conduct as a whole, on the basis of the entire record, and the new claims
alleged in the federal petition stem from conduct that appears in that record, the new
claims are considered exhausted. Id. at 960. Based on this, Esposito claims that “the
specific instances of counsel’s ineffectiveness in failing to object to portions of the closing
argument are clearly subsumed with the broader … claim that counsel were ineffective
in failing to object to the prosecutor’s improper argument.” (Doc. 58 at 14).
It is less than clear if Vela is still good law in the Eleventh Circuit. While the

46

As explained previously, the state habeas court’s order did not address every ineffective
assistance claim in detail, but the order provided that all such claims were denied on the basis of
Esposito’s failure to show deficient performance and prejudice and the Georgia Supreme Court
summarily denied Esposito’s CPC application. (Docs. 27‐39 at 44; 27‐44).
47
The remaining four claims are: (1) Telling the jury the Sniders would never be able to go to
church again (Doc. 56 at 124); (2) using “grandiose Biblical quotations“ (Doc. 56 at 124); (3)
asking the jury to speculate about the final moments of Mrs. Snider’s life (Doc. 56 at 128); and (4)
concluding his closing argument by saying if the death penalty is imposed, Mr. Davis will be
able to tell Mrs. Davis there was justice on earth when they meet at the “Pearly Gates.” (Doc. 56
at 124‐25).
-71* App. 83 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 72 of 89

Court expressed approval of the Vela doctrine in Francis v. Spraggins, 720 F.2d 1190, 1193
n.6 (11th Cir. 1983), it expressly declined to address the continuing validity of Vela in a
later case—Footman v. Singletary, 978F.2d 1207, 1211 n.4 (11th Cir. 1992). More recently,
in Kelly v. Sec’y for the Dep’t of Corr., 377 F.3d 1317 (11th Cir. 2004), the Eleventh Circuit
held that generalized allegations of ineffective assistance of counsel do not preserve for
federal review all specific instances of ineffectiveness. (Doc. 57 at 96). Instead, to
exhaust, a habeas petitioner must first present each particular factual instance of
ineffective assistance of counsel to the state courts before raising them in his federal
petition. Id. at 1344‐45.
While under Vela, all of Esposito’s claims might be exhausted, it appears four of
his specific ineffective assistance claims would not be exhausted under Kelly. The Court
need not decide this issue because it agrees with Respondent that even if all of these
ineffective assistance claims are exhausted, they are meritless because Esposito “cannot
show merit in his underlying misconduct claim.” (Doc. 57 at 96). He “has failed to
show his trial fundamentally unfair.” (Doc. 57 at 96).
Esposito can show prejudice resulting from trial counsel’s failure to object to the
prosecutor’s closing arguments only if the improper prosecutorial argument claim itself
warrants relief. Land v. Allen, 573 F.3d 1211, 1221 (11th Cir. 2014). “[T]he bar for
granting habeas based on prosecutorial misconduct is a high one.” Id. at 1220. To find
prosecutorial misconduct, the remarks must be improper and must have “’so infected

-72* App. 84 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 73 of 89

the trial with unfairness as to make the resulting conviction a denial of due process.’”
Darden, 477 U.S. at 181 (quoting Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)).
An improper prosecutorial argument has rendered a capital sentencing
proceeding fundamentally unfair if there is a reasonable probability that
the argument changed the outcome, which is to say that absent the
argument the defendant would not have received a death sentence. A
reasonable probability is one that is sufficient to undermine the confidence
in the outcome.
Romine v. Head, 253 F.3d 1349, 1366 (11th Cir. 2001).
Even assuming that the prosecutor’s arguments were improper, Esposito has not
shown that, absent the remarks, he would not have received a death sentence. Given
this, his underlying prosecutorial misconduct claims would not warrant relief. Esposito
“cannot show prejudice in his [trial] counsel’s failure to object to prosecutorial
misconduct that, itself, does not warrant reversal.” Land, 573 F.3d at 1211. Under
AEDPA, Esposito certainly has not shown that no fairminded jurist could agree with the
Georgia Supreme Court’s decision that these ineffective assistance claims lacks merit.
Richter, 131 S. Ct. at 786. Thus, this Court must deny relief.
i. Trial counsel’s presentation of the sentencing phase closing argument
Esposito claims that trial counsel were ineffective in their presentation of the
sentencing phase closing argument because they “made minimal reference to the
mitigating circumstances and made a lukewarm plea to spare [his] life.” (Doc. 56 at
94‐95). Respondent claims the state habeas court properly denied this claim finding
Esposito “failed to prove both the deficiency and prejudice prongs of the test for
-73* App. 85 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 74 of 89

reviewing claims of ineffective assistance of counsel.” (Doc. 57 at 88). Esposito also
raised the issue in his CPC application, which the Georgia Supreme Court summarily
denied. (Docs. 27‐41 at 38‐40; 27‐44).
In the closing argument, it appears trial counsel attempted to respond to the
Sniders’ gruesome murder by stressing that Esposito had not been tried or convicted for
those crimes. Trial counsel emphasized that he would face those charges in the future
in Texas. (Doc. 14‐25 at 2).
Trial counsel asked the jury to consider Esposito’s troubled past when deciding
what his sentence should be. Kelly argued:
You heard the witnesses today, and they were John’s friends and family, …
[and] psychologist…. And there is no question that this young man has a
lot of problems. Does that excuse what he did? Absolutely not.
Absolutely not. There is no one here saying that excuses what he did. Is
it a factor in mitigation? Absolutely.
…
The only two times it appears that John had any structure in his life was
when he was at the mental institution in New Jersey and strangely enough,
the other time was in the Jasper County jail.
(Doc. 14‐25 at 2‐4).
They stressed that Esposito was not a “con man” as the prosecutor had argued.
(Doc. 14‐25 at 4). He had not been able to “con” the chief jailer at the Jasper County Jail,
where he had lived for over two years. Instead, when he left to attend trial, she
“hugged his neck” and even spoke on his behalf during the sentencing phase of the trial.
(Doc. 14‐25 at 5).

-74* App. 86 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 75 of 89

Kelly stressed that the jury had a tremendous responsibility and should they
decide to impose death, that would be “an irreversible decision,” with which they would
have to live. (Doc. 14‐25 at 3). He asked the jury not to get “caught up in the frenzy
that [the prosecutor] is trying to get you caught up in.” (Doc. 14‐25 at 3). Instead, they
should choose punishment, not revenge:
It’s in your hands. You’ve got a choice of revenge, and that’s what [the
prosecutor] wants you to do. If you want revenge, then death is what you
will give. But I beg you to choose punishment over revenge. You can
give him life or life without parole and that is a very horrible, horrible
punishment. There is a young man sitting about thirty feet away from
you right now that literally will live or die with your decision and I
humbly bet you to choose punishment over revenge.
(Doc. 14‐25 at 5).
The Eleventh Circuit has explained that “[d]eficient performance is demonstrated
by an attorney’s failure to use the closing argument to focus the jury’s attention on his
client’s character or any mitigating factors of the offender’s circumstances, and by his
failure to ask the jury to spare his client’s life.” Lawhorn v. Allen, 519 F.3d 1272, 1295
(11th Cir. 2008). Kelly’s closing argument can certainly be criticized. It was, as
Esposito argues, brief. Also, he undoubtedly could have placed more emphasis on
“Esposito’s upbringing and psychiatric history.” (Doc. 56 at 96). However, Kelly did
explain to the jury that Esposito’s “problems” were mitigating and he did plead with
them to spare Esposito’s life. Given AEDPA deference, this Court cannot find the state
habeas court’s decision that counsel performed reasonably and Esposito was not

-75* App. 87 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 76 of 89

prejudiced involved an unreasonable application of Strickland or was based on any
unreasonable determinations of fact. Moreover, Esposito has not shown the Georgia
Supreme Court had no reasonable basis for denying relief. This is especially true
regarding prejudice. The Georgia Supreme Court could reasonably have determined
that Esposito failed to show that, but for Kelly’s closing argument, the result of his
sentencing proceeding would have been different. Therefore, the Court denies relief on
this claim.
j.

Ineffective assistance at the motion for new trial and on direct appeal

Esposito argues that counsel ineffectively handled his motion for new trial and
direct appeal.48 (Doc. 56 at 141‐42). In relation to the motion for new trial, Respondent
argues that “during state habeas proceeding [Esposito] failed to allege much less argue
counsel were ineffective during the Motion for New Trial.” (Doc. 57 at 101).
Therefore, according to Respondent, this claim is unexhausted. Esposito claims he
exhausted this issue and points to his amended state habeas petition, in which he
complained that “[c]ounsel failed to present these49 issues during the Motion for New
Trial and on appeal to the Georgia Supreme Court.” (Doc. 17‐2 at 10). In his CPC
application, however, Esposito makes no mention of counsel’s performance during the
motion for new trial. Claims not contained within a petitioner’s CPC application are

48

Strickland applies to appellate counsel. Heath v. Jones, 941 F.2d 1126, 1130 (11th Cir. 1991).
Presumably “these” refers to numerous instances of trial court error and prosecutorial
misconduct that he alleged in his state habeas petition. (Doc. 17‐2 at 5‐10).

49

-76* App. 88 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 77 of 89

unexhausted. Hittson, 759 F.3d at 1232 n.23. Thus, Esposito’s claim that counsel were
ineffective during the motion for new trial is unexhausted and procedurally defaulted.
Snowden v. Singletary, 135 F.3d 732, 736 (11th Cir. 1989) (explaining that “when it is
obvious that the unexhausted claims would be procedurally barred in state court due to
a state‐law procedural default, we can forego the needless ‘judicial ping‐pong’ and just
treat those claims now barred by state law as no basis for federal habeas relief”).
Esposito alleges he can overcome the default by showing cause and prejudice.
Citing Martinez v. Ryan, 132 S. Ct. 1309 (2012) and Trevino v. Thaler, 133 S. Ct. 1911 (2013),
Esposito “makes conclusory assertions in his brief that his post‐conviction counsel
performed deficiently” and this deficiency provides the cause necessary to overcome
default. Fults v. GDCP Warden, 764 F.3d 1311, 1314‐15 (11th Cir 2014). He also alleges
that he is entitled to an evidentiary hearing to determine whether, in fact, his
post‐conviction counsel were ineffective for failing to raise the claim.
Martinez and Trevino apply in a very limited context,50 both in terms of when the
attorney omission constituting cause occurred and what particular omission occurred.
As to the first limitation, “the Martinez Court expressly limited its holding to attorney
errors in initial‐review collateral proceedings.” Arthur v. Thomas, 739 F.3d 611, 629 (11th
Cir. 2004). Specifically, the Supreme Court stated that “[t]he holding in this case does
not concern attorney errors in other kinds of proceedings, including appeals from
50

The Eleventh Circuit has not determined if Martinez or Trevino apply at all to Georgia criminal
procedures.
-77* App. 89 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 78 of 89

initial‐review collateral proceedings, second or successive collateral proceedings, and
petitions for discretionary review in a State’s appellate courts.” Martinez, 132 S. Ct. at
1320. Instead, the rule in Coleman v. Thompson, 501 U.S. 722 (1991)—that inadequate
post‐conviction counsel does not provide cause to overcome procedural
default—governs in all these scenarios.
In Esposito’s case, assuming state habeas counsel were ineffective for failing to
raise his motion for new trial ineffectiveness claim, it appears from the record that the
deficient performance occurred when they failed to include the claim in the CPC
application. Inadequate performance during the appeal from denial of habeas relief
cannot provide cause. Martinez, 132 S. Ct. at 1320; Arnold v. Dormire, 675 F.3d 1082, 1087
(8th Cir. 2012) (explaining that Martinez offers no support “for the contention that the
failure to preserve claims on appeal from a postconviction proceedings can constitute
cause”).
As for the second limitation, Martinez and Trevino altered Coleman only with
respect to “claims of ineffective assistance at trial.” Martinez, 132 S. Ct. at 1319. In
Esposito’s case, his underlying claim is that counsel were deficient during the motion for
new trial, not during trial. It is unclear if Martinez and Trevino would even apply in
such a situation.
Assuming for the sake of argument that Martinez and Trevino apply,51 Esposito

51

This assumes that Martinez and Trevino apply (1) to Georgia criminal procedure, (2) when
-78* App. 90 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 79 of 89

has not established that his post‐conviction counsel were ineffective under the standards
of Strickland or that the underlying ineffective assistance of motion for new trial counsel
claim is a substantial one. Nor do his general and conclusory allegations entitle him to
an evidentiary hearing. “[A] petitioner does not establish constitutionally deficient
performance simply by showing that (a) potentially meritorious claims existed and (b)
his collateral counsel failed to raise those claims.” Hittson, 759 F.3d at 1263 (citing
Murray v Carrier, 477 U.S. 478, 486 (1986)). Esposito would have to “show that no
competent counsel, in the exercise of reasonable professional judgment, would have
omitted” his claim that counsel were ineffective for not raising more claims in his motion
for new trial. Id. (emphasis in the original). State habeas counsel raised numerous
ineffective assistance claims in their CPC application. (Doc 27‐41 at 1‐54). Esposito
simply “has alleged no facts to overcome the presumption that they exercised reasonable
professional judgment in deciding which claims to raise and which claims to omit.” Id.
at 1264.
As for the underlying motion for new trial ineffective assistance claim, Esposito’s
entire argument consists of one paragraph in his brief, in which he he criticizes the
brevity of the action motion for new trial and complains that the “hearing conducted on
the motion consists of a scant 11 transcript pages.” (Doc. 56 at 141 ‐42). Counsel
explained, both during the motion for new trial itself and during the state habeas
post‐conviction counsel fail to raise the claim in a CPC application, and (3) when the underlying
claim is ineffective assistance during a motion for new trial.
-79* App. 91 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 80 of 89

evidentiary hearings, why they focused on one particular argument. Their thought was
that “other than the confessions, there was not anything much tying [Esposito] as the
person who actually committed the crime.” (Docs. 15‐14 at 3; 17‐10 at 43). Thus, they
believed that the confession the jury heard from Knight was the “one piece of evidence
that … caused the jury to find … Esposito guilty and place him in the electric chair.”
(Doc. 15‐14 at 3; 17‐10 at 44). They also believed they had good grounds52 for
challenging the admission of the confession. (Doc. 17‐10 at 82). In short, they thought
this was their best argument. (Doc. 17‐11 at 63). “’Experienced advocates since time
beyond memory have emphasized the importance of winnowing out weaker arguments
on appeal and focusing on one central issue if possible, or at most on a few key issues.’”
Hittson, 759 F.3d at 1263 (quoting Jones v. Barnes, 463 U.S. 745, 751‐52 (1983)). Therefore,
by simply alleging that counsel’s motion for new trial was too short and their argument
too brief, Esposito has not alleged a “substantial” ineffective assistance claim.
Esposito also claims that appellate counsel were ineffective because they raised
only two claims on direct appeal: (1) a challenge to the trial court’s denial of the motion
to suppress Esposito’s confession to the FBI and (2) a challenge to the method of
execution. (Doc. 15‐15). Respondent argues that some of the specific claims of
ineffective assistance of appellate counsel that Esposito raises in his federal habeas

52

They argued the confession was not freely and voluntary given because: Esposito was
young; he had little education, and the interrogation took place many hours after he was given
the Miranda warnings. (Doc. 15‐14).
-80* App. 92 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 81 of 89

petition have not been exhausted and are procedurally defaulted. (Doc. 57 at 90 n.10).
Alternatively, he argues the state habeas court’s decision finding appellate counsel
performed effectively was reasonable. (Doc. 57 at 90).
In his amended state habeas petition, Esposito alleged “[c]ounsel failed to present
these issues53… on appeal to the Georgia Supreme Court.” (Doc. 17‐2 at 10). He also
maintained that
[c]ounsel rendered ineffective assistance on appeal when they
unreasonably and prejudicially failed to raise meritorious issues on
appeal…. Such issues include, but are not limited to, failing to argue that
it was reversible error for a prosecution witness to escort the jury to view
the crime scene, failing to appeal the trial court’s erroneous rulings on
prospective jurors, and failing to appeal the erroneous instructions that
were given to the jury.
(Doc. 17‐2 at 11). Esposito also claimed “the State made improper, misleading
arguments,” “presented irrelevant and prejudicial evidence,” and “elicited extensive
information about the victims.” (Doc. 17‐2 at 14). In a footnote, he alleged that
appellate counsel were ineffective for failing to raise these issues on appeal. (Doc. 17‐2
at 15 n.4).
In their post‐hearing brief, state habeas counsel argued appellate counsel were
ineffective because they raised only two claims on appeal while “Esposito had at least

53

It appears “these issues” refer to the numerous alleged trial errors listed in the amended state
habeas petition. These include the prosecutor’s presentation of inadmissible evidence (Doc.
17‐2 at 4‐5, 7), the prosecutor’s allegedly improper examination and cross‐examination of
witnesses (Doc. 17‐2 at 7‐9), the prosecutor’s allegedly improper closing (Doc. 17‐2 at 8, 10), and
the crime‐scene visit. (Doc. 17‐2 at 9)
-81* App. 93 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 82 of 89

three viable issues that could have been properly raised.” (Doc. 27‐34 at 70). These
“three viable issues” were (1) the improper introduction of the Texas crime scene
videotape, (2) the prosecution’s improper suggestion to the jury that Mr. Esposito’s
psychological problems do not constitute mitigation under Georgia law, and (3) a
sentencing disproportionality claim. (Doc. 27‐34 at 70‐73).
The state habeas court ruled that counsel “were objectively reasonable when they
raised their two strongest, non‐frivolous claims on direct appeal to the Georgia Supreme
Court.” (Doc. 27‐39 at 43). Having found the conduct of appellate counsel reasonable,
the court did not address prejudice. (Doc. 27‐39 at 43‐44).
In their CPC application, state habeas counsel faulted appellate counsel for
raising only two issues on appeal and pointed to the same “three viable issues” that
appellate counsel should have raised. (Doc. 27‐41 at 41‐43).
In his federal habeas briefs, Esposito argues that appellate “counsel performed
deficiently in failing to raise claims challenging the prosecutor’s improper presentation
of inadmissible evidence; the prosecutor’s misconduct in presenting evidence and
cross‐examining defense witnesses; the prosecutor’s improper closing arguments; and
the extra‐judicial crime scene visit.” (Doc. 56 at 147).
Respondent claims Esposito has exhausted only his claim that appellate counsel
were deficient for failing to raise the improper introduction of the Texas crime scene
videotape. (Doc. 57 at 100). Presumably this claim is encompassed within Esposito’s

-82* App. 94 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 83 of 89

current broader claim that appellate “counsel performed deficiently in failing to raise
claims challenging the prosecutor’s improper presentation of inadmissible evidence.”
(Doc. 57 at 100). At any rate, appellate counsel’s failure to raise the admission of the
Texas crime videotape was one the “three viable issues” that Esposito raised in his CPC
application and the claim is, therefore, exhausted. (Doc. 27‐34 at 70). Esposito also
exhausted his claims that appellate counsel should have raised the prosecutor’s
improper suggestion that Esposito’s psychological problems are not mitigating.54 (Doc.
27‐41 at 41‐43).
All other claims of ineffective assistance of appellate counsel have not been
exhausted and are procedurally defaulted.55 Although Esposito makes the conclusory
assertion that ineffective assistance of state habeas counsel provides cause to overcome
the default, “he does not explain why the performance was deficient or how, if the
performance was deficient, he was prejudiced.” Fults, 764 F.3d at 1315. Moreover,
Esposito has cited no authority for the argument that Martinez and Trevino apply when
the underlying claim is ineffective assistance of appellate counsel, versus ineffective
assistance of trial counsel. The Eleventh Circuit has “repeatedly underscored the

54

Presumably this claim is encompassed in Esposito’s current broader claims that appellate

counsel should have raised the prosecutor’s improper questioning of defense witnesses
and improper closing argument. (Doc. 56 at 147).
55

As for Esposito’s argument that appellate counsel were ineffective for failing to raise the jury’s
visit to the crime scene (Doc. 56 at 147), the Georgia Supreme Court addressed this issue sua
sponte and, while criticizing the practice, affirmed Esposito’s conviction and sentence. Esposito,
273 Ga. at 187, 538 S.E.2d at 59‐60.
-83* App. 95 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 84 of 89

narrow scope” of Martinez and Trevino, emphasizing that the equitable rule established
in the cases “applies only ‘to excusing a procedural default of ineffective‐trial counsel
claims.’” Chavez v. Sec’y, Fla. Dep’t of Corr., 742 F.3d 940, 945 (11th Cir. 2014).
In relation to the ineffective assistance of appellate counsel claims that have been
exhausted, Esposito has not shown the state courts’ determinations were unreasonable.
When discussing the direct appeal, counsel testified that they did not believe in the
“shotgun approach” to appeals. (Doc. 17‐10 at 82). Instead, they wanted to “raise the
valid issues and not just throw something out there.” (Doc. 17‐10 at 82). Just as with
the motion for new trial, they thought the best argument they had was to challenge the
trial court’s denial of their motion to suppress Esposito’s confession to the FBI. (Doc.
17‐11 at 62‐63). The state habeas court found “counsel’s reasoning in raising their two56
strongest, non‐frivolous claims on appeal was objectively reasonable” and the Georgia
Supreme Court found no arguable merit to Esposito’s ineffective assistance of appellate
counsel claim. (Docs. 27‐39 at 43; 27‐44).
The Supreme Court and the Eleventh Circuit have both explained the benefits of
concentrating on “one central issue” or “a few key issues” for appeal. Jones, 463 U.S. at
751‐52; Hittson, 759 F.3d at 1263. To show that appellate counsel “failed to provide the
level of representation required by Strickland, [Esposito] must show more than the mere
fact that they failed to raise potentially meritorious claims; he must show that no
56

As explained above, appellate counsel also argued that execution by electrocution is cruel and
unusual punishment. Esposito, 273 Ga. at 185‐86, 538 S.E.2d at 58‐59.
-84* App. 96 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 85 of 89

competent counsel, in the exercise of reasonable professional judgment, would have
omitted the claims.” Hittson, 759 F.3d at 1263. He has not made such a showing. He
certainly has not shown that the Georgia Supreme Court had “no reasonable basis … to
deny relief.” Id. at 1233. Thus, this Court must deny relief.
B. Claim Two: Misconduct by the prosecution team and other state agents
deprived petitioner of his constitutional rights to due process and a fair trial, in
violation of the Fifth, Sixth, Eighth, and Fourteenth Amendments to the United
States Constitution.
Esposito agrees with Respondent that his claim “the State suppressed evidence
relating to improper communications between Petitioner’s jailers and prospective
jurors” is unexhausted and he, therefore, withdraws it. (Doc. 56 at 20).
In a footnote of his brief, Esposito claims that “the prosecutor’s actions and
argument” violated his due process rights. (Doc. 56 at 98 n.67). He is referring to the
prosecutor’s cross‐examination of his mental health expert, examination of the State’s
witnesses, presentation of victim impact evidence, penalty phase closing argument, and
presentation of the Texas crime scene videotape. (Doc. 56 at 97‐133). Esposito
concedes these prosecutorial misconduct claims are procedurally defaulted. (Doc. 56 at
98 n. 67). He argues that ineffective assistance of counsel provides the cause to
overcome the default. For reasons discussed above, Esposito has not established
ineffective assistance of counsel. Thus, these claims are procedurally defaulted and the
Court does not address their merits.
C. Claims Three through Five:
-85* App. 97 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 86 of 89

Esposito does not address these three claims in his briefs. (Docs. 56, 58).
“[M]ere recitation in a petition, unaccompanied by argument, in effect forces a judge to
research and thus develop supporting arguments—hence litigate—on a petitioner’s
behalf. Federal judges cannot litigate on behalf of the parties before them, and it is for
this reason that any claims in [Esposito’s] petition that were not argued in his brief are
abandoned.” Blankenship v. Terry, 2007 WL 4404972 at *40 (S.D. Ga.), aff’d 542 F.3d 1253
(11th Cir. 2008) (citing United States v. Burkhalter, 966 F. Supp. 1223, 1225 n.4 (S. D. Ga.
1997); GJR Investments, Inc. v. County of Escambia, Fla., 132 F.3d 1359, 1369 (11th Cir.
1998)).
D. Claims Six through Ten:
Esposito withdraws these claims.57 (Doc. 56 at 21‐23).
E. Claim Eleven: The execution of Petitioner by lethal injection is cruel and
unusual punishment in violation of his rights under the Fifth, Sixth, Eighth,
and Fourteenth Amendments to the United States Constitution.
A habeas action is not the appropriate vehicle for attacking Georgia’s lethal
injection procedures; rather, that challenge must be raised in a 42 U.S.C. § 1983 action.
Tompkins v. Sec’y Dep’t Corr., 557 F.3d 1257, 1261 (11th Cir. 2009); see Hill v. McDonough,
547 U.S. 573, 579‐83 (2006); Thomas v. McDonough, 228 F. App’x 931, 932 (11th Cir. 2007)

57

To the extent Claim Six—allegations that the death penalty in Georgia is imposed arbitrarily
and capriciously and amounts to cruel and unusual punishment—raises a challenge to the lethal
injection procedure in Georgia, this issue is contained in Claim Eleven of Esposito’s federal
habeas petition and is discussed in section III E of this Order.
-86* App. 98 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 87 of 89

(holding that “§ 1983 and § 2254 are mutually exclusive,” and that if a claim can be
brought under § 1983, it “cannot be brought under § 2254”). The Eleventh Circuit has
explained:
Usually an inmate who challenges a state’s method of execution is
attacking the means by which the State intends to execute him, which is a
circumstance of his confinement. It is not an attack on the validity of his
conviction and/or sentence. For that reason, “[a] § 1983 lawsuit, not a
habeas proceeding, is the proper way to challenge lethal injection
procedures.” Hence, … the district court did not err in dismissing [the
petitioner’s] lethal injection challenge in his federal habeas petition. That
avenue of relief is still available to him in a § 1983 action.
McNabb v. Comm’r Ala. Dep’t of Corr., 727 F.3d 1334, 1344 (11th Cir. 2013) (quoting
Tompkins v. Sec’y, Dep’t of Corr., 557 F.3d 1257, 1261 (11th Cir 2009)).
Claim eleven is dismissed.
IV. CONCLUSION
For the reasons explained above, Esposito’s petition for writ of habeas
corpus is DENIED.
CERTIFICATE OF APPEALABILITY
A prisoner seeking to appeal a district court’s final order denying his petition for
writ of habeas corpus has no absolute entitlement to appeal but must obtain a Certificate
of Appealability (“COA”). 28 U.S.C. § 2253(c)(1)(A). As amended effective December
1, 2009, Rule 11(a) of the Rules Governing Section 2254 Cases in the United States District
Courts provides that “[t]he district court must issue or deny a [COA] when it enters a

-87* App. 99 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 88 of 89

final order adverse to the applicant,” and if a COA is issued “the court must state the
specific issue or issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2).”
The Court can issue a COA only if the petitioner “has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To merit a COA, the
Court must determine “that reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the
issues presented were ‘adequate to deserve encouragement to proceed further.’”
Miller‐El v. Cockrell, 537 U.S. 322, 336 (2003) (citations omitted). If a procedural ruling is
involved, the petitioner must show that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Under this standard, the Court issues a COA on the following issues: Whether
trial counsel were ineffective in failing to investigate and present evidence to support
their defense theories that Esposito was less culpable that Woodward and that his
personal history of abuse and mental illness was mitigating.
In relation to all other claims, grounds, and issues raised in Esposito’s
petition for writ of habeas corpus (Doc. 1), the Court finds the standard shown
above for the grant of a COA has not been met.

-88* App. 100 *

Case 5:12-cv-00163-CAR Document 67 Filed 12/10/14 Page 89 of 89

SO ORDERED, this 10th day of December, 2014.

S/ C. Ashley Royal
C. ASHLEY ROYAL, JUDGE
UNITED STATES DISTRICT COURT

-89* App. 101 *

* App. 102 *

IN THE SUPERIOR COURT OF BUTTS COUNTY
FILED
STATE OF GEORGIA
8uns SUPERIOR COURT

2011 APR 2q P 1102
JOHN ANTHONY ESPOSITO

Petitioner,

v.
HILTON HALL, Warden,
Georgia Diagnostic and
Classification Prison,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

BY¥~~~::;;;;::;­

CASE NO: 2002_v_3ff1 0NDA SMITH. CLERK

FINAL ORDER
FINDINGS OF FACT AND CONCLUSIONS OF LAW
PURSUANT TO D.C.G.A. § 9-14-49

This matter comes before this Court on the Petitioner's Amended Petition for Writ of
Habeas Corpus as to his convictions and sentence of death from his trial in the Superior Court of
Baldwin County. Having considered the Petitioner's original and amended Petition for Writ of
Habeas Corpus (the "Amended Petition"), the Respondent's Answers to the original and
amended Petitions, relevant portions of the appellate record. evidence admitted at the hearing on

this matter on September 4-6, 2007, the documentary evidence submitted, the arguments of
counsel, and the post-hearing briefs, this Court makes the following findings of fact and
conclusions oflaw as required by D.C.G.A. § 9-14-49. The Court denies the petition for a writ
of habeas corpus.

Res. Ex. No. 162
Case No. S:12-CV-163
* App. 103 *

TABLE OF CONTENTS
1. STATEMENT OF THE CASE .............................................................................................. 1
II.. STATEMENT OF FACTS .. ~ ......... ~ ... ,..........................
~ I~
~ ~
,3
III. CLAIMS THAT ARE NOT BEFORE THIS COURT FOR REVIEW .................................. 3
I ........

...

........... 1 ••

..

• • • • • 1 . . . . . . . . . . . . . ,11 . . . . . . . . . . . . .

A. CLAIMS BARRED BY RES ruDrcAT A........................................................................ .3
B. PROCEDURALLY DEFAULTED CLAIMS ................................................................... 5

C. NON·COGNIZABLE CLAIMS ..................................................................................... 11
IV. CLAIMS THAT ARE PROPERLY BEFORE THIS COURT FOR REVIEW .................. .12
A INEFFECTIVE ASSISTANCE OF COUNSEL ........................................................ 12

1. Legal Starldard ..................

,1 . . . . . . . . . . . . . . . 11 . . . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

12

a. Deficient Performance Prong ................... '" .................................. 13

b Prejudice Prong........... .............
I

I

...... I

.......... I

I

..................................... I

........

~ ~
•

••••

~ ~ I5

2.

Trial Cooose]' s Experience ............................................... '" ............... 16

3.

Trial Counsel's Investigation and Presentation of Life History Mitigation ............ 18
a. Investigation of Life History Mitigating Evidence ...................................... 18

b. Presentation of Life History Mitigating Evidence .......................................23
4.

Trial Counsel's Investigation and Presentation of Mental Health Mitigation .......27

a. Investigation of Petitioner's Mental Health .................................................27

b. Presentation of Petitioner's Mental Health ................................................. .29
5. Investigating and Rebutting the State's Case ............................................ 32
a. Investigation of the State's Case ................................................... 33

b. Preparation and Presentation of Rebuttal Evidence ............................ .34

i. Argument for a Plea Agreement. ........ '" ................................. 34
ii. Argument to Suppress the State's Evidence .............................. .34

* App. 104 *

iii. Presentation of Evidence by a Polygraph Expert ........................ .36
iv. Defense Strategy ............................. , ................................ .37
6. Ineffective Assistance of Counsel on Direct Appeal. .......................... '" ......39
V.

SENTENCING PHASE JURY INSTRUCTIONS ............................................... .41

VI.

ALL OTHER CLAIMS RAISED IN AMENDED PETITION ............ , .................. .42

VII. CONCLUSION .....

I

••••••• I

... I

....

~

.... I

~

..................

~~
.',
"

iii

* App. 105 *

~

I

......

~

......... I

................................ ,

43

............

IN THE SUPERIOR COURT OF BUTTS COUNTY
STATE OF GEORGIA

'"
'"
'"

JOHN ANTHONY ESPOSITO,
Petitioner,

'"
*

v.

CIVIL ACTION NO.
2002~V-321

HABEAS CORPUS

'"

'"

HILTON HALL, Warden,
Georgia Diagnostic and
Classification Prison,

'"
*
'*

,

,
)

'"

Respondent.

ORDER
I.

STATEMENT OF THE CASE.

Petitioner, Jolm Anthony Esposito, was indicted in Morgan County, Georgia on
December 2, 1996 for malice murder, felony murder. anned robbery. and hijacking a
motor vehicle. The State filed notice of its intent to seek the death penalty for Petitioner
as to the murder on January 31,1997. On November 17, 1997, the trial court granted an
unopposed motion to change venue and moved the trial to the Superior Court of Baldwin
County. On September 30, 1998, ajury found Petitioner guilty on all counts of the

indictment and on October 2, 1998, Petitioner was sentenced to death for the malice
murder, life imprisonment for the anned robbery, and twenty years imprisonment for the
motor vehicle hijacking. The felony murder conviction was vacated by the trial court by
operation oflaw.
Petitioner filed a motion for new trial on October 29, 1998. After hearing the
motion and argument of counsel on June 30, 1999, the trial court denied Petitioner'S
motion for a new trial on September 16, 1999.

1

* App. 106 *

On direct appeal to the Georgia Supreme Cowt, Petitioner's convictions and
sentence were affirmed on October 30, 2000. Esposito v. State, 273 Ga. 183, 538 S.E.2d
55 (2000). In reviewing the sufficiency of the evidence, the Georgia Supreme Court
fOlmd that the "evidence adduced at trial, viewed in the light most favorable to the
verdict, was sufficient to authorize a rationaJ trier of fact to find beyond a reasonable
doubt that Esposito was guilty of the crimes of which he was convicted and that statutory
aggravating circumstances existed." Esposito, 273 Ga. at 184 (citing Jackson v. Virginia,
443 U.s. 307 (I 979»). A timely motion for reconsideration was filed and subsequently
denied on November 30, 2000.
Thereafter, Petitioner filed a petition for writ of certiorari in the United States
Supreme Court on April 27, 2001. The United States Supreme Court denied his petition
for writ of certiorari on June 25, 2001. Esposito v. Georgia, 533 U.S. 935, 121 S.Ct.
2564 (2001). Petitioner then filed a petition for rehearing in the United States Supreme

Court, which was denied on August 27,2001. Esposito v. Georgi!!. 533 U.S. 970, 122

S.Ct. 15 (2001),
The Georgia Supreme Court issued the remittitur to the trial court on September
18,2001. Petitioner filed the instant habeas corpus petition on May 3,2002, and his
amended petition on November 6,2006. Thereafter, an evidentiary hearing was held on
September 4~6, 2007. Respondent filed his post~hearing brief and a proposed order on

February 11,2008. Respondent submitted an amended proposed order on May 5, 2008.
Petitioner filed his post~hearing brief on February 18,2008; however, he did not submit a
proposed order. Respondent's Motion to Strike Petitioner's Brief as untimely is hereby

2

* App. 107 *

denied in the interests of justice. The Court has considered Petitioner's argument in
reaching its conclusions on Petitioner's claims.
II.

STATEMENT OF FACTS.

On direct appeal from Petitioner's 1998 conviction and sentence of death, the
Georgia Supreme Court fOlUld that the evidence at trial established the following facts:
[OJn September 19, 1996, Esposito's co-conspirator, Alicia Woodward,
persuaded Lola Davis to give her a ride from a parking lot in Lumberton,
North Carolina. Woodward directed Davis to a nearby location where
Esposito entered Davis' automobile. Esposito and Woodward then forced
the elder1y Davis, without the use of any weapons, to drive to a nearby
parking lot and to move to the passenger seat of her automobile. Esposito
removed one thousand dollars and Davis' checkbook from her purse, and
Woodward drove Davis' automobile to a local bank where she cashed a
check for three hundred dollars that she and Esposito had forced Davis to
write. Woodward and Esposito then drove Davis to a remote location in
Morgan COWlty, Georgia, where Esposito led Davis into a hayfield, forced
her to kneel, and beat her to death with tree limbs and other debris.
Esposito and Woodward then drove in Davis' automobile to Alabama
where they disposed of Davis' automobile and purse. Davis' automobile
was shown at trial to contain fingerprints, palm prints, and footprints
matching Esposito's and Woodward's. Saliva on a cigarette butt found in
the automobile was shown to contain DNA consistent with Esposito' s
DNA.
Evidence presented during the sentencing phase showed that, after
murdering Davis, Esposito and Woodward traveled to Oklahoma,
abducted an elderly couple, illegally obtained money using the couple's
bank card, and then drove the couple to Texas where Esposito beat them to
death with a tire iron. An FBI agent also testified during the sentencing
phase that Esposito had described his and Woodward's plan to abduct and
murder yet another elderly woman for money.
Esposito v. State, 273 Ga. at 1839184.
III.

CLAIMS THAT ARE NOT BEFORE THIS COURT FOR REVIEW.

A.

CLAIMS THAT ARE BARRED BY RES IDDICATA.

A number of Petitioner's claims were rejected by the Georgia Supreme Court on
direct appeal in Esposito v. State, 273 Ga. 183,538 S.E.2d 55 (2000). Georgia law is

3

* App. 108 *

unequivocally clear that issues that have been raised and litigated on direct appeal may
not be relitigated by means ofa habeas corpus proceeding. Elrod v. Aull, 231 Ga. 750,
204 S.E.2d 176 (1974); Gooter v. Hickman, 256 Ga. 315, 348 S.E.2d 644 (1986); Roulain
v. Martin, 266 Ga. 353,466 S.E.2d 837 (1996), Accordingly, applying this wellestablished res judicata principle to the claims raised by Petitioner, this Court is
precluded from revie"wing the following claims:
a)

That portion of Claim III, wherein Petitioner alleges that the trial
court erred in allowing the introduction ofillegalfy obtained
statements and evidence, was addressed and decided adversely to
Petitioner on direct appeal. Esposito v. State,273 Ga. at 184185(2). To the extent that this claim was not addressed by the
Georgia Supreme Court on direct appeal, this claim is procedurally
defaul ted and may not be addressed on its merits in this proceeding
absent a showing of cause and actual prejudice or of a miscarriage
of justice to overcome the procedural default;

b)

That portion of Claim V, wherein Petitioner alleges that his death
sentence was imposed arbitrarily and capriciously, and pursuant to
a pattern and practice of discrimination in the administration and
imposition of the death penalty in Georgia., was addressed and
decided adversely to Petitioner on direct appeal. Esposito v. State,
. 273 Ga. at 187(5);

c)

That portion of Claim Y, wherein Petitioner alleges that his death
sentence is disproportionate. was addressed and decided adversely
to Petitioner on direct appeal. Esposito v. State, 273 Ga. at 187188(6); and

d)

1

Claim VII, wherein Petitioner alleges that his death sentence was
. arbitrarily imposed and is a disproportionate punishment, was addressed
and decided adversely to Petitioner on direct appeal. Esposito v. State,
273 Ga. at 187-188(5) and (6).1

To the extent that Claim VII raises new claims, it is procedurally defaulted.

4

* App. 109 *

As the Georgia Supreme Court has already reviewed and rejected these claims,

and as this Court is precluded from relitigating these claims under the doctrine of res
judicata, these claims are dismissed.

B.

PROCEDURAL DEFAULTED CLAIMS.

Claims that Petitioner failed to raise at trial and on direct appeal, and as to which
Petitioner has failed to establish cause and actual prejudice sufficient to excuse the
procedural default of these claims in this collateral proceeding, are procedurally defaulted
and are not reviewable by this Court. See Black v. Hardin, 255 Ga, 239, 336 S.E.2d 754
(1985); Valenzuela v. Newsome, 253 Ga. 793, 325 S.E.2d 370 (1985); O.C.O.A. § 9-1448(d); White v. Kelso, 261 Ga. 32,401 S.E.2d 733 (1991). Under this binding authority,
the following' claims have been procedurally defaulted and are thus barred from
this Court's review:

a)

Claim n, wherein Petitioner alleges prosecutorial misconduct in
that:
1)

the State suppressed infonnation favorable to the defense at
both phases of Petitioner's trial;

2)

the State argued to the jury that which it knew or should
have known to be false and/or misleading;

3)

the State failed to disclose benefits or promises extended to
State witnesses in exchange for their testimony and allowed
its witnesses to convey a false impression to the trial judge
and the jury. This alleged misconduct inc1 uded the State's
treatment of Petitioner's co·defendant and its decision to
dispose of her case with a life sentence despite her greater
culpability;

4)

the State elicited false and/or misleading testimony from the
State's witnesses;

5)

the State knowingly or negligently presented false
testimony in pretrial, gUilt phase, penalty phase and

5

* App. 110 *

sentencing. This alleged misconduct included, but was not
limited to the following; denying the existence of
Petitioner's mental illness, minimizing the role of mental
illness in his life and ignoring background records of
Petitioner that the prosecution obtained and had in its
possession;
6)

the State improperly used its peremptory strikes to
systematically exclude jurors on the basis of race and/or
gender;

7)

the State made improper, misleading arguments and
presented irrelevant and prejudicial evidence. This alleged
misconduct included the following: the State elicited
extensive infonnation about the victims, improper victim
impact tesHmony, testimony regarding the search for the
victims, the State introduced into evidence prejudicial
photographs and a video of a crime scene and attempted to
remove from the jury's consideration Petitioner's history of
mental illness and longstanding personality disorder and
the role of Petitioner's co-defendant and her greater
culpability;

8)

the jury bailiffs and/or sheriff's deputies and/or other State agents
who interacted with jurors at the trial engaged in improper
communications with jurors; and

9)

the State gathered all of its witnesses together during the
middle of the trial;

.;

;

b)

That portion of Claim III, wherein Petitioner alleges trial court
error in that:
1)

the trial court failed to possess and employ an accurate and
proper understanding of what constitutes mitigation and
what constitutes aggravation; 2

2)

the trial court failed to curtail the improper and prejudicial
arguments by the State;

During the hearing, Petitioner empbasized the post-trial report by Judge Prior, however
the report by the trial judge had no bearing on the proceedings which resulted in
Petitioner's conviction, and therefore, it has no relevance to this collateral habeas appeal.
O.e.G.A. § 9-14-42(a).
2

6

* App. 111 *

3)

the trial court admitted into evidence various items of
unspecified prejudicial, unreliable, unfounded,
unsubstantiated and/or irrelevant evidence tendered by the
State;

4)

the trial court admitted unspecified evidence despite proper
objections;

5)

the trial court refused to allow admissible evidence;

6)

the trial court imposed an unconstitutional and
disproportionate sentence;

7)

the trial court failed to require the State to disclose certain
items of unspecified evidence in a timely manner so as to
afford the defense an opportunity to conduct an adequate
investigation;

8)

the trial court failed to require the State to disclose certain
items of unspecified evidence of an exculpatory or
impeaching nature to the defense;

9)

the trial court allowed the State to present false and
misleading testimony;

10)

the trial court failed to act upon known improprieties of defense
counsel;

11)

the trial court failed to provide Petitioner with adequate
counsel;

12)

the trial court permitted the prosecution to elicit extensive
and irrelevant victim impact evidence;

13)

the trial court impennissibly iI\iected comments during the
testimony of witnesses and impermissibly questioned
witnesses;

14)

the tria! court relied on a misunderstanding of the law in the
court's rulings, report and findings;

15)

the trial court excused unspecified potential jurors for
improper reasons under the rubric of "hardship";

16)

the trial court restricted voir dire relating to several areas of
inquiry;

-",

,.

7

* App. 112 *

17)

the trial court admitted into evidence prejudicial and
irrelevant photographs and video;

18)

the trial court placed the burden on Petitioner to prove that
he was ineligible for the death penalty;

19)

the trial court failed to inquire into the possibility of juror
misconduct and remedy such misconduct;

20)

the trial court ordered that an involuntary confession could
be admitted to rebut mitigating evidence introduced by the
defense;

21)

the trial court refused to give proper jury instructions requested by
Petitioner;

22)

the trial court refused to strike unspecified prospective
jurors who were unqualified for reasons such as, but not
limited to, bias against the defense;

23)

the trial court gave the jury erroneous and misleading
instructions~

24)

the trial court provided the jury with misleading and
prejudicial forms on which to note their verdicts and
findings as to aggravation;

25)

the trial court permitted the jurors to interact with the
alternate jurors during deliberations;

26)

the trial court improperly restricted the scope of voir dire;

27)

the trial court improperly rehabilitated prospective jurors;

28)

the trial court failed to maintain order in the courtroom by
allowing emotional and prejudicial actions by members of
the public in the courtroom and by witnesses while on the
stand;

29)

the trial court failed to declare a mistrial or issue curative
instructions when the State made improper and prej udicial
statements in arguments; and

30)

the trial court allowed the prosecution to introduce
improper, unreliable and irrelevant evidence including

8

* App. 113 *

evidence of which the defense had not been provided
adequate notice and which had been concealed from the
defense;
c)

d)

.e)
.'

Claim IV, wherein Petitioner alleges juror misconduct 3 that
included, but was not limited to, the following:
1)

improper consideration of matters extraneous to the trial;

2)

improper racial attitudes which infected the deliberations of
the jury;

3)

false or misleading responses of jurors during voir dire;

4)

improper biases of jurors which infected their deliberations;

5)

improper exposure to the prejudicial opinions of third
parties;

6)

improper communications with third parties;

7)

improper communication with jury bailiffs;

8)

improper ex parte commWlications with the trial judge; and

9)

improperly prejudging Petitioner's guilt, his defense and
his claims;

That portion of Claim V. wherein Petitioner alleges that Georgia's
statutory death penalty procedures, as applied, do not result in fair,
nondiscriminatory imposition of the death sentence;
Claim VI, wherein Petitioner alleges that the Unified Appeal
Procedure is unconstitutional; 4

Petitioner failed to introduce any admissible evidence in these habeas proceedings to
overcome the procedural defau! t of the claim of juror misconduct. The juror affidavits
that Petitioner sought to admit were excluded because they were untimely and
furthennore. they were inadmissible as an improper attempt to impeach the jury's verdict
in direct violation ofO.C.O.A. § 9·10¥9 and O.C.O.A. § 17-941. which provide that
"[t]he affidavits of jurors may be taken to sustain but not to impeach their verdict."
~ Additionally, the Georgia Supreme Court has repeatedly held that the Unified Appeal
Procedure is not unconstitutional and does not violate any of the rights of a defendant.
Wellons v. State, 266 Ga. 77, 91, 463 S.E.2d 868 (1995); Ledford v. State, 264 Ga. 60,
65,439 S.E.2d 917 (1994); Ward v. State. 262 Ga. 293, 300, 417 S.E.2d 130 (1992);
3

9

* App. 114 *

~I

f)

That portion of Claim VIII, wherein Petitioner alleges that he was
denied due process of law when the same jury that convicted him
was responsible for determining the appropriate sentence;'

g)

That portion of Claim VIII, wherein Petitioner alleges that death
qualification is unconstitutional;

h)

Claim IX, wherein Petitioner alleges that the trial court erred in its
instructions to the jury during the guilt/innocence phase of
Petitioner's trial. Specifically, Petitioner alleges that the trial
court:
1)

incorrectly charged the jury on the burden of proof beyond
a reasonable doubt pennitting the jury to convict Petitioner
upon less than "utmost certainty" of guilt";

2)

gave an improper charge on impeachment of witnesses;

3)

instructed the jury on inappropriate and inapplicable
matters;

4)

gave an unconstitutionally vague and misleading definition
of insanity;

5)

incorrectly instructed the jury on the consequences of
certain verdicts;

6)

incorrectly instructed the jury on who would take custody
of Petitioner if convicted under a guilty but mentally ill
verdict;

7)

suggested to the jury that mental illness was not a factor in
determining whether Petitioner was insane;

8)

improperly instructed the jury on charges which merged
into one offense;

Isaacs v. State, 259 Ga. 717, 722, 386 S.E.2d 316 (1989); Pruitt v. State, 270 Ga. 745 (6),
514 S.E.2d 639 (1999).
; The Georgia Supreme Court has held that a "defendant is not entitled to separate juries
for the guilt and sentencing phases of the trial." Ward v. State, 262 Ga. 293, 300
(1992)(citing MiUer v. State, 237 Ga. 557. 559 (1976».

10

* App. 115 *

i)

9)

failed to instruct the jury on lesser included offenses;

10)

improperly instructed the jury to not be swayed by
sentiment, sympathy, prejudice or other factors;

11)

improperly charged vague and standardless definitions of
statutory tenns; and

12)

improperly charged the jury on the offenses charged in the
indictment; and

Claim XI, wherein Petitioner alleges that he was sentenced to
death because of his race and gender in violation of McCleskey v.
Kemp, 481 U.S. 279 (1987).

Because Petitioner failed to raise the foregoing claims at trial and on direct

appeal, and because Petitioner has failed to establish cause and actual prejudice sufficient
to excuse the procedural default of these claims in this collateral proceeding, the
foregoing clai~s are barred from review by this Court and are hereby dismissed. See
Black v. Hardin, 255 Ga. 239,336 S.E.2d 754 (1985); Valenzuela v. Newsome, 253 Ga
793,325 S.E.2d 370 (1985); D.C.O.A. § 9-14-48(d); White v. Kelso, 261 Ga. 32, 401
S.E.2d 733 (1991).

C.

NON-COGNIZABLE CLAIMS.

Petitioner's allegation in Claim XIII that lethal injection is cruel and unusual

punishment is non-cognizable in these habeas proceedings as it is not an assertion of a
"substantial denial" of Petitioner's constitutional rights "in the proceedings which
resulted in his conviction." O.C.G.A. § 9-14-42(a). Even if this Court were to find that
this claim is cognizable, this claim is without merit because this Court is bound by the
decision of the U.S. Supreme Court in Haze v. Rees. 553 U.S. 35 (2008), as well as the
decisions of the Georgia Supreme.Court holding that lethal injection in Georgia is

11

* App. 116 *

constitutional. See Braley v. State, 276 Ga. 47, 56, 572 S.E.2d 583 (2002), citing
Dawson v. State, 274 Ga. 327, 335-336, 554 S.E.2d 137 (2001). As such, this claim is
hereby dismissed.
Additionally, Petitioner's allegation of cumulative error in Claim XII is 000cognizable in these habeas proceedings as the Georgia Supreme Court has repeatedly
held that there is no cumulative error rule in Georgia.

See,~.

Rogers v. State, 282 Ga.

659,668 (2007); Schofield v. Holsey, 281 Ga. 809, 812 n. 1 (2007); Smith v. State, 277
Ga. 213, 219 (2003); Head v. Taylor,273 Ga. 69, 70 (2000). As such, this claim is
hereby dismissed.

IV.

CLAIMS THAT ARE PROPERLY BEFORE THIS COURT FOR REVIEW
A.

INEFFECTIVE ASSISTANCE OF COUNSEL.

In Claim I of Petitioner's Amended Petition for Writ of Habeas Corpus, as well as
numerous footnotes throughout the petition, Petitioner alleges that he was denied
effective assistance of counsel in violation of his constitutional rights at trial and on direct
appeal.
This Court denies this claim. This Court finds that Petitioner failed to prove both
the deficiency and prejudice prongs of the test for reviewing claims of ineffective
assistance of counsel under the applicable standards set forth in Strickland v.
Washington. 466 U.S. 668 (1984). Because Petitioner failed to overcome Strickland's
intentionally heavy burden of proving ineffectiveness. the writ of habeas corpus is denied
as to Petitioner's claims of ineffective assistance of counsel.

1.

Legal Standard.

12

* App. 117 *

The standards for reviewing allegations of ineffective assistance of counsel were
established by the United States Supreme Court in Strickland v. Washington, 466 U.S.
668 (1984). To prevail on a claim ofineffective assistance of cOWlseI, a petitioner must
establish both that his attorney's performance was deficient and that the attorney's error
resulted in prejudice to Petitioner's case. See Strickland, 466 U.S. at 698. Unless a
petitioner makes both showings. his conviction or death sentence cannot be found to be
the unreliable result of a breakdown in the adversarial process. Stricklang, 466 U.S. at
687. The Strickland standard, which requires that a petitioner must satisfy both
perfonnance and prejudice prongs to demonstrate ineffectiveness, was adopted by the
Georgia Supreme Court in Smith v. Francis, 253 Ga. 782,783,325 S.E.2d 362 (1985);
see also Jones v. State, 279 Ga. 854 (2005); Washington v. State, 279 Ga. 722 (2005);
Hayes v. State. 263 Ga. 15 (1993). Therefore, the Strickland standard governs this
Court's review of Petitioner's ineffective assistance claims.
a.

Deficient Performance Prong.

In examining the deficient perfonnance prong oftbe Strickland standard, the
United States Supreme Court instructed, "a court must indulge a strong presumption
that counsel's conduct falls within the wide range of reasonable professional
assistance; that is, the defendant must overcome the presumption that, under the

circumstances, the challenged action 'might be considered sound trial strategy. ,"
Strickland. 466 U.S. at 689 (internal citations omitted)(emphasis added); see also
Wiggins v. State, 280 Ga. 627 (2006); Sims v. State, 278 Ga, 587 (2004); Brady v. State,
270 Ga. 574 (1999). The Court in Strickland also stressed that "counsel is strongly
presumed to have rendered adequate assistance and made all significant decisions in the

13

* App. 118 *

exercise of reasonable professional judgment." Strickland, 466 U.S. at 690; accord Smith

v, Francis, 253 Ga. at 783; see also Zant v. Moon. 264 Ga. 93,97 (1994).
With regard to this presumption in favor of finding cOWlSei to be effective, the
Supreme Court held in Burger v. Kemp that a reviewing court should "address not what
is prudent or appropriate, but only what is constitutionally compelled." 483 U.S. 776,

794 (1987); ~ also Zant v. Moon, 264 Ga. at 97-98, In applying the Strickland
standards, the Georgia Supreme Court recognized that "[t]he test for reasonable attorney
performance 'has nothing to do with what the best lawyers would have done. Nor is the
test even what most good lawyers would have done. We ask only whether some

reasonable lawyer at the trial could have acted, in the circumstances, as defense
counsel acted at trial.'" Jefferson v. Zant, 263 Ga. 316, 318, 431 S.E.2d 110
(1993)(quoting White v. Singletary, 972 F.2d 1218, 1220-1221 (lith Cir.
1992))(emphasis added). See also Rogers v. Zant, 13 F.3d 384,386 (11th Cir.
1994)(holding, "Even ifmany reasonable la"'Yers would not have done as defense
counsel did at trial, no relief can be granted on ineffectiveness grounds unless it is shown
that no reasonable lawyer, in the circumstances, would have done so. This burden, which
is petitioners to bear, is and is supposed to be a heavy one,").

In addition to the strong presumption in favor of effective assistance of counsel,
the United States Supreme Court also has advised that courts reviewing ineffectiveness

claims should "eliminate the distorting effects of bindsight, to reconstruct the
...
.'.'

circumstances of counsel's challenged conduct. and to evaluate the conduct from
counsel's perspective at tbe time." Strickland. 466 U.S. at 689 (emphasis added). In

14

* App. 119 *

Lockhart v. FretweH,_ the United States Supreme Court adopted the rule of contemporary
assessment of counsel's performance by holding the following:
Ineffective assistance of counsel c1aimswill be raised only in those cases
where a defendant has been found guilty of the offense charged, and from
the perspective of hindsight there is a natural tendency to speculate as to
whether a different trial strategy might have been more successful. We
adopted the rule of contemporary assessment of counsel's conduct because
a more rigid requirement "could dampen the ardor and impair the
independence of defense counsel, discourage the acceptance of assigned
cases, and undennine the trust between attorney and client."
506 U.S. 364, 372 (1993)(citing Strickland, 466 U.S. at 690).

b.

Prejudice prong.

In Strickland, the Supreme Court held that there is prejudice stemming from
ineffective assistance of counsel if there is a reasonable probability that, absent the
deficiencies, the result of the proceeding would have been different. Strickland, 466 U.S.
at 694. The Supreme Court in Lockhart further defmed the "prejudice" component of
Strickland, holding that "an analysis focusing solely on mere outcome determination,
without attention to whether the result of the proceeding was fundamentally unfair or
unreliable, is defective. To set aside a conviction or sentence solely because the outcome
would have been different but for counsel's error may grant the defendant a windfall to
which the law does not entitle him." Lockhart, 506 at 369·370.
In Smith v. Francis, 253 Ga. at 183, the Supreme Court of Georgia interpreted the
prejudice prong to require that a petitioner prove that the outcome of the proceedings
would have been different. "In order to establish that trial counsel's perfonnance was so
defective as to require a new trial, [the Petitioner] must show that counsel's performance
was deficient and that the deficient performance so prejudiced [the Petitioner] that there
is a reasonable likelihood that, absent counsel's errors, the outcome of the trial would

15

* App. 120 *

have been different." Roberts v. State, 263 Ga. 807.807-808 (1994). "Regarding death
penalties, the question is whether there is a reasonable probability that, absent the errors,
the sentencer would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death." Smith v. Francis, 253 at 783-784.
In the instant case, this Court has applied the guiding principles set forth in
Strickland and its progeny, as adopted by the Georgia Supreme Court, i.e., according a
strong presumption of effectiveness to counsel's conduct; viewing counsel's
representation objectively from the perspective of counsel at the time oftriaI; refusing to
engage in hindsight analysis; presuming the reasonableness of judgment calls and trial
strategy; acknowledging that even the most qua1ified counsel would likely represent a
capital litigant differently; and recognizing that even the most experienced and effective
attorney might be unable to prevent the imposition of the death penalty in a particular
case. This Court finds that Petitioner failed to establish that counsel's perfonnance "fell
below an objective standard of reasonableness." Strickland, 466 U.S. at 688. This Court
also finds that Petitioner failed to establish that, but for alleged errors Or omissions by
counseJ, there is a reasonable probability that the result of the proceeding would have
been different. rd. at 694. Accordingly, this Court hereby denies habeas corpus relief as
to the entirety of Petitioner's claims of ineffective assistance of counsel.

2.

Trial Counsel's Experience.

On October 10, 1996. Judge William Prior appointed Roy Robinson Kelly, III and

W. Dan Roberts to represent Petitioner during his capital murder trial. (R. 12; HT 208).
Both Mr. Kelly and Mr. Roberts had extensive experience in criminal defense and
specifically had experience in capital cases. (HI 207-209, 266-268). When they were

16

* App. 121 *

appointed to represent Petitioner, Mr. Kelly had been practicing criminal law for over
twenty years and Mr. Roberts had been practicing for approximately thirty years. (HT
207,266-267). Prior to representing Petitioner, Mr. Kelly had been appointed to five
death penalty cases and took two of them to trial. (HI 207-208). Mr. Kelly also had
served on the Georgia Indigent Defense Council. which provided assistance to capital
defendants. (HT 248). Mr. Roberts had handled three death penalty cases and had tried
numerous non.capital murder cases. (HT 267-268, 300-301). Additionally, Mr. Kelly
and Mr. Roberts had worked together as co-counsel on a death penalty trial two years

before Petitioner's case. (HT 208-209; 267-268).
Because of their considerable experience, as well as the training Mr. Roberts
received during death penalty litigation seminars, both Mr. Kelly and Mr. Roberts fully
understood the thorough investigation necessary to prepare for a capital trial and the
extensive preparation necessary for presenting an effective mitigation defense (HT 242243,300-302). Mr. Kelly stated that because he had handled five death penalty cases
prior to Petitioner's, he was well aware of what would be expected of him in preparing
mitigation case for the sentencing phase. (HT 242-243).
In reviewing the reasonableness of the decisions made by Mr. Kelly and Mr.
Roberts throughout their representation of Petitioner, this Court has given additional
deference to the decisions made by these attorneys because Mr. Kelly and Mr. Roberts
had considerable experience in criminal and capital cases prior to representing Petitioner.

See Chandler v. United States, 218 F.3d 1305, 1316 (11th Cir. 2000)(en banc)C"When
courts are examining the perfonnance of an experienced trial cOWlsel, the presumption
that his conduCt was reasonable is even stronger."); see also Provenzano v. Singletary,

17

* App. 122 *

148 FJd 1327, 1332 (lIth Cir. 1998)("Our strong reluctance to second guess strategic
decisions is even greater where those decisions were made by experienced criminal
defense counseL"); Spaziano v. Singletary, 36 F.3d 1028, 1040 (11 th Cir. 1994)("The
more experienced an attorney is, the more likely it is that his decision to rely on his own
experience and judgment in rejecting a defense without substantial investigation was
reasonable under the circumstances.").
3.

Trial Counsel's Investigation and Presentation of Life History
Mitigation.

In Claim I of his amended petition, Petitioner alleges that his attorneys were
ineffective in the pre-trial investigation conducted by his defense team and in the
presentation of mitigating evidence at trial. 6 This Court denies this claim and finds that
the evidence presented in this habeas proceeding does not support Petitioner's claim.
Rather, the record unquestionably demonstrates that Mr. Kelly and Mr. Roberts, along
with their experienced mitigation expert, pe~ormed a thorough and comprehensive
investigation in preparation for trial. The record also reflects that Petitioner's defense
attorneys put forth a reasonable, strategic mitigation theory at trial that emphasized
Petitioner's troubled family life and menta1 health issues. Because Petitioner failed to
prove that his attorneys were deficient in their performance and also failed to prove that
there is a reasonable probability that he suffered actual prejudice as the result of any of
these alleged errors, Petitioner has failed to meet his burden under Strickland. Therefore,

In his posthearing brief, Petitioner argued that the Court should could consider attorney
Kelly's October 2007 arrest on child pornography charges as circumstances surrounding
his representation of Petitioner when assessing this representation, including the
investigation of life history mitigating evidence. Petitioner has presented no evidence to
this Court establishing any connection between his ineffectiveness claims. In the absence
of such evidence, the Court declines to consider this arrest.
6

18

* App. 123 *

this Court denies Petitioner's claim of ineffective assistance of counsel as to the
investigation and presentation of life history mitigation.
a.

Investigation of Life History Mitigating Evidence.

The evidence before this Court contradicts Petitioner's claim that his attorneys
were ineffective in their investigation of mitigating evidence. Rather, the evidence
presented at the hearing demonstrated that trial counsel and their investigator. Hector
Guevara. planned and implemented a wide-ranging investigation of Petitioner's life and
his family history.
With reference to the investigation required of effective counsel. the United States
Supreme Cowt held in Strickland v. Washington that an attorney "has a duty to make
reasonable investigations or to make a reasonable decision that makes particular
investigations unnecessary." 466 U.S. 668 (1984). Strickland and its progeny have held
that the reasonableness of an investigation "may be determined or substantially
influenced by the defendant's own statements (sIc) or actions." Id. See also Mulligan v.
Kemp, 771 F.2d 1436. 1441 (11th Cir. 1985).
The Court in Strickland directed that an objective standard of reasonableness
should be applied to a review of trial counsel's performance. See Chandler, 218 F. 3d at
1312 (counsel's conduct is deficient when it fans "below an objective standard of
reasonableness."). This Court denies Petitioner's claim because Petitioner failed to
present evidence that the thorough investigation conducted by his defense team fell below
this objective standard of reasonableness. Because Petitioner cannot establish deficient
performance in his counsel's investigation and preparation, this Court denies Petitioner's
claim of ineffective assistance of counsel.

19

* App. 124 *

This Court finds that Petitioner's defense team thoroughly researched his
background to search for potential mitigation evidence. After petitioning the trial court
for funds to hire an investigator, 1 trial counsel hired Hector Guevara as a mitigation
specialist to assist them in the investigation and preparation of Petitioner's case. (HT
224,272-273), Mr. Guevara, who had considerable mitigation investigative experience,
was referred to Petitioner's defense team by the Indigent Defense Council. 8 (HT 224,
304, 4626-4635,4667-4670).

Mr. Guevara conducted a wideMranging investigation into Petitioner's life history.
The defense investigator met with Petitioner numerous times and extensively interviewed
him about his background. (HT 47804857). To further explore Petitioner's upbringing
and personal history, Mr. Guevara made three trips to New Jersey and a trip to North
Carolina to visit the places where Petitioner had grown up. (HT 246, 4215 M
4225). Trial
counsel testified that they sent Mr. Guevara on these out-of-state trips so that he could
seek out as many potential mitigation witnesses as possible and obtain a full and
complete picture ofPetitioner's life history. (HT 246).
Over the course of these trips, Mr. Guevara reseEU"ched numerous aspects of
Petitioner's life 3Ild interviewed over 75 individuals. including Petitioner's family,

7

Mr. Kelly and Mr. Roberts requested funds for an investigator/mitigation specialist to

assist in their preparation of the case and the trial court awarded the defense $20,000 for
this purpose, which was more money than Mr. Kelly had ever received for an investigator
in a death penalty case. (3/3/98 ex parte hearing, pp. 2-3; 7/21198 ex parte hearing, p. 6;
HT 252 M
253, 4476,4490,4534). The trial coun also provided the defense with funds to
hire a sodal worker/mitigation specialist. Trial counsel hired Ofelia Gordon, a social
worker, and she met with Petitioner. However, Mr. Guevara reported to trial counsel that
Ms. Gordon was not forthcoming and not effective at eliciting information from
Petitioner. (HT 4747M47S0). Trial counsel did not keep her on the case (HT 445).
B Mr. Kelly testified that the defense team reached out to Mike Mears for assistance with
Petitioner's case because they felt that the Indigent Defense Council was one of the best
resources in Georgia for assistance in defending a death penalty case. (HT 248).

20

* App. 125 *

friends, teachers, school administrators, coaches, doctors, nurses, mental health
professionals, social workers, local police officers, and recruiters for the National Guard
and the U.S. Anny Reserve. (HT 4215-4225, 4675-4678, 4737A746, 4756-4766). These
interviews were in-depth and comprehensive, with many lasting multiple hours. and Mr.
Guevara met repeatedly with several important witnesses, such as Petitioner's immediate
family members and Petitioner's ex-girlfriend. (HT 4215-4225,4861-4977). Mr.
Guevara interviewed all of the individuals suggested by Petitioner, as well as
interviewing many dozens more. (HT 4215-4225, 4675-4678, 4737-4746,4756-4766).
This Court also finds that the defense team requested and reviewed extensive
background records. (HT 4672-4674, 4775-4777). The defense acquired Petitioner's
medical and mental health records from Ancora State Hospital, Kennedy Memorial
Hospital, Transitional Residence Independent Services (T.R.I.S.), Underwood Memorial
Hospital, and Centra! State Hospital, including tests and evaluations from doctors and
mental health care persoIUlel who treated Petitioner at each of these facilities. (HT 4672,
6365). The defense also obtained records from two New Jersey police departments, New
Jersey police reports, the FBI and GBI reports on Petitioner's crimes, Georgia police
reports, Colorado police reports. crime scene reports, and Petitioner's Jasper County jail
records. (HT 4672). The defense also received school records from the five schools that
Petitioner attended, including his high school psychological evaluations Furthennore, the
defense acquired Petitioner's enlistment and discharge records from the U.S. Army
.,;

Reserves, his vital records from New Jersey, and various personal documents such as
correspondence, drawings, and poems. (HT 4672-4674).

21

* App. 126 *

Mr. Guevara met several times with the tria] attorneys to discuss the potential
mitigation evidence that he was gathering. (HT 229). Mr. Guevara provided trial
cOlUlsel with a fourteen page social history of Petitioner's life.

(HT 4636 4649). Mr.
w

Guevara also provided the defense team with a ten page "Analysis of Mitigation Factors"
in Petitioner's case, as well as several other documents concerning mitigation theories.
(RT 4626-4635,4667-4670,4712-4716). Mr. Guevara further provided the tria1

attorneys with time lines of Petitioner's life history and his mental treatment history. (HT
4652-4666). In addition to working with Mr. Guevara, reviewing his extensive reports,
and examining the large amounts of background records, the trial attorneys further took
part in the mitigation

investigation by interviewing Petitioner themselves and by speaking

with family members on the phone. (HT 230, 4175~4194).

This Court finds that the defense team's investigation for potential mitigation
evidence constituted a reasonable investigation under Strickland. 466 U.S. at 69L Given
the investigation that was conducted by Petitioner's defense team prior to trial, this Court
finds that Petitioner failed to prove deficiency under Strickland. The hindsight allegation
by current counsel for Petitioner that "more" could have been done is insufficient to
establish that defense counsel's investigation was not reasonable in this case. The
number of persons interviewed, the extensive nature of the interviews conducted, the far-

ranging search for potential mitigating witnesses, the consultation between counsel and
the investigator, culminating in the compilation of an extensive social history, belie any
assertion that trial counsel's investigation was not objectively reasonable under the
Strickland standards. As such, this Court denies Petitioner habeas corpus relief as to his
claim of ineffective assistance of counsel with regard to the pre~trial investigation.

22

* App. 127 *

Furthermore, this Court finds that trial counsel were not deficient for not
uncovering every potential witness that habeas counsel has now uncovered. See Tumin
v. Mobley, 269 Ga. 635, 640-641 (I998)("The failure of trial counsel to uncover every
possible favorable witness does not render their performance deficient. We recognize that
post-conviction counsel will almost always be able to identifY a potential mitigation
witness that trial counsel did not interview or a record that trial counsel did not obtain. ").
As stated by the Georgia Supreme Court in Head v. Carr, 273 Ga. 613, 625 (2001).
"Perfection is not required; an ineffectiveness analysis is simply intended to ensure that
the adversarial process at trial worked adequately.... We understand that post-conviction
cOWlsei will almost always be able to identify some potential mitigating evidence not
presented to the jury and that this alone does not render trial counsel's performance
deficient."
This Court finds that the adversarial process at trial worked in this case and that
the investigation into Petitioner's life history that was conducted by Petitioner's defense
team was objectively reasonable. Because Petitioner has failed to prove deficient
performance with regard to his defense attorneys' investigation for life history mitigation
evidence. this CQurt need not address the prejudice prong. Because Petitioner did not
satisfy his burden under Strickland, this Court denies Petitioner habeas relief regarding
his claim of ineffective assistance of counsel as to the life history mitigation
investigation.

b.

Presentation of Life History Mitigating Evidence.

This Court finds that Petitioner failed to prove that his trial attorneys rendered
ineffective assistance of counsel with regard to their presentation of life history

23

* App. 128 *

mitigating evidence during the penalty phase of trial. The trial record established that six
of the seven witnesses called by the defense during the sentencing phase testified about
Petitioner's life history, including the childhood abuse and his negligent mother.
Furthennore, the evidence presented to this Court established that trial counsel

were not deficient in their selection and preparation of mitigation witnesses. Because
Petitioner cannot meet his burden of establishing ineffective assistance under Strickland,
this Court denies Petitioner habeas corpus relief as to this ciaim.
In finding that tria] counsel were not deficient in the presentation of life history
mitigation evidence, this Court relies upon Strickland and its progeny, which have held
that effective assistance of counsel does not require that defense attorneys present all
available evidence in mitigation, and that defense attorneys are not required to present
any mitigating evidence in every case. See Wiggins v. Smith, 539 U.S. 510, 533 (2003);
Chandler, 218 F .3d at 1319. "The mere fact that other witnesses might have been
available or that other testimony might have been elicited from those who testified is not
a sufficient ground to prove ineffectiveness of counsel." Waters v. Thomas, 46 F.3d
1506,1514 (11th Cir.

1995)~

banc)(emphasis added).

The Eleventh Circuit Court of Appeals has assessed the "common practice" of
second-guessing what evidence should have been presented during the sentencing phase
by stating that,
[W]e have observed that "it is common practice for petitioners attacking
their death sentences to submit affidavits from witnesses who say they
could have supplied additional mitigating circumstance evidence, had they
been called," but "the existence of such affidavits, artfully drafted though
they may be, usually proves little of significance." Waters, 46 F.3d at
1513-14. Such affidavits "usually prove[] at most the wholly
unremarkable fact that with the luxury of time and the opportunity to focus
resources on specific parts of a made record, post-conviction counsel will

24

* App. 129 *

inevitably identify shortcomings in the performance of prior COWlSCl." Id.
at 1514.
Williams v. Head, 185 F.3d 1223, 1236 (lIth Cir. 1999). See also, Turpin v. Lipham,
270 Ga. 208, 217 n. 4 (1998)(stating that it is "common practice for post-conviction
counsel to file affidavits by witnesses who say they would have supplied additional
mitigating evidence, had they been caned by trial cOWlsel. ... Usually this 'what may have
been' strategy does nothing more than confinn the truism ... that everything is clearer

with hindsight")(intemal citation omitted).
The affidavits submitted by Petitioner in support of his claim that trial counsel
were ineffective in their presentation of mitigating life history evidence are insufficient to
prove deficiency. This Court finds that trial counsel made a reasonable presentation of
Petitioner's life history in mitigation, especially when viewed from trial counsel's

perspective at the time of trial. Furthennore. this Court fmds that the trial attorneys were
reasonable in their selection and preparation of the mitigation witnesses, and that counsel
were reasonable in their chosen mitigation strategy and the testimony that they elicited
from these witnesses.
Petitioner's experienced defense attorneys performed reasonably in their selection
of which mitigation witnesses to call and in their preparation of these witnesses for triaL
By using the reports created by Mr. Guevara to decide which mitigation witnesses to can,

the attorneys selected witnesses who hopefully could elicit sympathy with the jury. (HT
236-237, 288-289). This Court finds that trial counsel also prepared their carefully
chosen mitigation witnesses for trial by meeting with them and briefing them on the
questions that they were going to be asked. (HT 254-255). Furthermore, the attorneys
were objectively reasonable in warning the mitigation witnesses to avoid certain

25

* App. 130 *

testimony that could "open the door" to the trial court allowing the suppressed video
confession back into evidence. (HT 254-255).
This Court finds that the trial attorneys had a clear mitigation strategy and elicited
testimony from the witnesses designed to support this strategy, specifically with regard to
Petitioner's troubled life and his redeeming qUalities. (HT 236). The evidence before
this Court showed thatthe trial attorneys elicited testimony from Petitioner's family, high

school coach, and mental health care providers about Petitioner's difficult life history.
This testimony included evidence about the physical, verbal, and sexual abuse that
Petitioner suffered as a child, his neglectful mother, and his dysfunctional family. The

trial attorneys also presented the testimony of Dr. Daniel Grant, the defense's mental
health expert, who told the jury that Petitioner had a long history of childhood sexual and
physical abuse, that Petitioner still had recurring thoughts and nightmares stemming from
this abuse, that he felt detached and estranged from people, that he feared rejection and
criticism, and that his traumatic past may cause him to have dissociative episodes. (IT
7:112, 122). In addition to the testimony about Petitioner's troubled life, the trial

attorneys also elicited mitigating testimony about Petitioner's redeemable qualities
through the defense witnesses.
From review of the trial record, this Court finds that Petitioner's defense attorneys
were not deficient in their presentation of life history mitigation. This Court further finds
that even if the Court were to conclude that such presentation. including the failure to
present the testimony of Dr. Lower and Courtney Greco Veach, was deficient, Petitioner
has failed to establish that he suffered any actual prejudice such that there is a reasonable

probability that the outcome of the trial would have been different.

26

* App. 131 *

Because Petitioner has failed to establish deficient perfonnance and prejudice,
Petitioner's claim as to ineffective assistance of counsel with regard to the presentation of

life history mitigation is denied.
4.

Investigation and Presentation of Mental Health Mitigation.

In Claim I of his amended petition, Petitioner alleges that his attorneys were
ineffective in their investigation and presentation of mental health evidence as mitigation
during the penalty phase of Petitioner's trial. This Court denies this claim. The evidence
before this Court demonstrated that trial cOWlsel reasonably, competently, and thoroughly
investigated Petitioner's mental health and possible mitigation evidence based on any
mental health issues. The evidence also showed that his attorneys presented mitigating
psychological evidence during the sentencing phase. Because Petitioner failed to prove
both deficient performance and prejudice stemming from these alleged errors, this Court

denies Petitioner habeas corpus relief as to his claim of ineffective assistance of counsel
with regard to counsel's investigation and presentation of mental health mitigation.
B.

Investigation of Petitioner's Mental Health.

This Court finds, based on the record before it, that trial counsel properly and
reasonably pursued an investigation of Petitioner's mental health for potential mitigating
evidence. The evidence showed that, in the course of the defense team's investigation,
trial counsel became aware that Petitioner had prior psychological issues. (HT 212, 234).

In order to further investigate these potential mental health issues, the defense acquired
.-~

Petitioner's medical and mental health records from the various facilities that had treated
him. (HT 4672; HT 5869-6037). In addition to obtaining records, Mr. Guevara also
interviewed numerous mental health professionals at these hospitals about Petitioner's

27

* App. 132 *

mental condition, the treatment he received, and any other potentiaUy mitigating
psychological infonnation. (HT 4859-4860, 4887-4922).
This Court finds that trial counsel were objectively reasonable in their
representation because, in addition to researching Petitioner's prior mental health issues,

Mr. Kelly and Mr. Roberts also retained an independent forensic psychologist and
neuropsychologist, Dr. Daniel Grant, to evaluate Petitioner and specifically "detennine if
there [were] any emotional development personality variables that may have bearing on
his behavior,"9 (fIT 233-234, 447-449; IT 7: 107), and to detennine if there was any
potential mitigating mental health infonnation. (HT 234). Because Dr. Grant was well
qualified and well recommended by knowledgeable death penalty practitioners, the trial
attorneys were reasonable in their conclusion that they could rely upon their expert. (HT
248-249).
This Court finds that the trial attorneys were reasonable in their preparation of Dr.
Grant. The evidence before this Court established that trial counsel provided Dr. Grant
with all the mental health records, hospital records, and school records that they had to
use in making his evaluation. (HT 250). Dr. Grant himself testified at trial that all the
psychiatric and mental health records were provided to him prior to trial. (TT 7: lIS).

Petitioner also claims that his counsel were ineffective for not raising his mental health
as an afflrmative defense. This Court finds that Petitioner failed to prove both deficient
performance and actual prejudice. The evidence before this Court proved that trial
counsel acted reasonably in investigating this possible defense, but found no evidence to
support it. This Court also finds that Petitioner failed to prove the prejudice prong,
because he did not prove that there were any psychological, medical and psychiatric
factors that would have qualified as a defense during the guilt/innocence phase of the
trial, and therefore did not prove that there is a reasonable probability that the pursuit of
this defense would have affected the outcome of his trial. Because Petitioner failed to
prove both deficiency and prejudice, this Court denies this claim.
9

28

* App. 133 *

Defense counsel testified that they would have provided Dr. Grant with more materials if
he had asked. for them. Furthermore, it is clear from the record that the defense team
readily provided additional information to Dr. Grant when it was needed. (HT 2651).
This Court does not find Dr. Grant's testimony that he was not provided with
sufficient records convincing. Additionally, as an experienced psychological expert in

death penalty cases, it was up to Dr. Grant to request additional records ifhe believed he
needed them to make his professional conclusions. The Georgia Supreme Court has held
that it is WlIeasonable to place the onus on trial counsel to know what additional
information an expert might need since a reasonable lawyer is not expected to have
mental health expertise. Head v. Carr, 273 Ga. at 631.
The evidence before this Court established that trial counsel were objectively
reasonable in their comprehensive investigation of background psychological records.
interviews with Petitioner's priormental health professionals, and the employment of a
recommended, experienced forensic psychologist and neuropsychologist as their expert
witness. This Court finds that Petitioner failed to prove that Mr. Kelly and Mr. Roberts
provided ineffective representation with regard to their investigation into Petitioner's
mental health. Because Petitioner failed to satisfy his burden under Strickland, this claim
is denied.

b.

Presentation of Petitioner~s Mental Health.

I>etitioner alleges in his amended petition that his defense attorneys did not
provide effective representation with regard to the presentation of mitigating evidence
concerning Petitioner's mental hea1th. This Court denies this claim. Based on the record
before this Court. it is evident that counsel were not deficient in their performance. This

29

* App. 134 *

Cowt fwther finds that Petitioner failed to prove that he suffered actual prejudice such
that there is a reasonable probability that the outcome of his trial would have been
different. Because Petitioner CiUUlot prove both prongs of Strickland. this claim is
denied.
This Court finds that Petitioner's mental health was a part of the defense team's
mitigation strategy (HT 279). In addition to Dr. Grant's testimony, the defense called
several mitigation witnesses who had personal knowledge about Petitioner's prior
psychological problems, including the following: Annett Nolan, a registered psychiatric
nurse who treated Petitioner while he was at Kennedy Memorial Hospital; Sister Marie
DiCamillo, who was Petitioner's special education teacher at Ancora State Psychiatric
Hospital; John Crain, who coached Petitioner and knew about his psychiatric
hospitalizations; and Angela Caraccillo. a therapist with a master's degree in clinical
'.

~:

psychology who counseled Petitioner. This Cow1 finds that trial counsel met with each
witness prior to their testimony, prepared them for the questions that they were likely to

be asked. and elicited mitigating evidence from them about Petitioner's prior mental
health background. (HT 254-255). This Court finds that it was objectively reasonable for

trial counsel to call these lay witnesses to provide the jury with personal background on
Petitioner's mental health problems and his prior hospitalizations.
This Court finds that trial counsel were also objectively reasonable for calling Dr.
Daniel Grant, the defense psychological expert, as their final witness in mitigation. (HT
250). Mr. Kelly testified before this Court that the defense team wanted Dr. Grant to
testify about Petitioner's difficult childhood. physical abuse, sexual abuse, and traumatic
experiences. (HT 249). Mr. Kelly said, Dr. Grant "was someone that could hopefuJly

30

* App. 135 *

show that this young man had some problems." (HI249), Mr. Kelly met with Dr. Grant
the night before Dr. Grant's testimony and they prepared for his direct examination. (HT
249), Mr. Kelly also elicited testimony from Dr. Grant about Petitioner's various

psychological problems, childhood traumas, hospitalizations, suicidal tendencies, and
issues with reality,
This Court finds that the mitigation witnesses, who were selected by Petitioner's
trial attorneys, presented testimony about Petitioner's psychological issues to the jury and
that this testimony was part of the defense team's reasonable mitigation theory
emphasizing Petitioner's prior and current mental health problems. This Court finds that
Petitioner failed to prove that trial counsel were deficient in their presentation of
mitigating mental health evidence, especially in light of Strickland's direction that
"counsel is strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment." Strickland,
466 U.S. at 690.
This Court does not fmd that counsel were ineffective for not calling different
witnesses or eliciting more or different testimony regarding his mental condition from the
witnesses who did testify. The Georgia Supreme Court held that "[p]erfection is not
required" and that "post-conviction counsel will almost always be able to identify some
potential mitigating evidence not presented to the jury and that this alone does not render
trial counsel's performance deficient." Head v. Carr, 273 Ga. at 625; ~ also Waters v.
Thomas, 46 F.3d at 1514. Rather, because trial counsel's actions were objectively
reasonable when viewed from their perspective at the time of trial, this Court finds that

31

* App. 136 *

Petitioner failed to establish deficient performance and therefore cannot satisfy his
burden of proving ineffective assistance of counsel in applicable Strickland standards.
While it is unnecessary to address the prejudice prong of the Strickland test since
Petitioner failed to prove deficiency, this Court further fmds that Petitioner also failed to
prove that the alleged deficient performance so prejudiced him that there is a "reasonable
likelihood that, absent counsel's errors, the outcome of the trial would have been
different," Roberts, 263 Ga. at 807-808. The evidence presented. before this Court was
not ftmdamentally different from the mitigating evidence that was presented to the jury at
trial. With regard to the evidence of Petitioner's mental health that was presented at the
habeas hearing but not presented at trial, this Court is not persuaded that there is a
reasonable probability that this additional evidence would have changed the outcome of
the trial. Because Petitioner failed to prove both prongs of Strickland with regard to the
presentation of mitigating mental health evidence, this claim is denied.
5.

Investigating and Rebutting the State's Case.

In Claim I of his amended petition, Petitioner alleges that his trial attorneys
provided ineffective assistance of counsel due to insufficient investigation and rebuttal of
the State's case. This Court denies this claim because Petitioner failed to prove that his
attorneys were deficient in their perfonnance. Rather, the evidence before this Court
established that Mr. Kelly and Mr. Roberts reasonably researched the prosecution's case,
ardently argued to suppress certain hannful pieces of evidence, and hired experts that
could potentially rebut the State's evidence. Because Petitioner failed to prove that trial
counsel were ineffective with regard to the investigation and rebuttal of the State's case,

32

* App. 137 *

this Court hereby denies Petitioner habeas corpus relief as to his claim of ineffective
assistance of counsel.
ft.

Investigation of the State's Case.

This Court finds that trial cOilllse] reasonably investigated the State's case. From
the record introduced at these proceedings, it was established that Mr. Kelly and Mr.
Roberts both testified that District Attorney Fred Bright provided the defense with
complete access to everything in the State's file, including the OBI reports, the FBI
reports, and infonnation gathered by the State's investigators. (HT 219,243,278, Res.
Exs. 12-14).

Trial coWlSeI testified that the State's evidence was consistent with what

Petitioner told them about what he and Woodward were respectively doing during their
''trip''. (HT 219).

In addition to reviewing the State's file, Mr. Kelly and Mr. Roberts also

investigated the persons listed on the State witness list. (HT 211). Trial counsel also
utilized the December 10, 1997 hearing on the defense's motion to suppress the two
confessions as an opportunity to investigate many of the State's most critical witnesses.
(HI 244-245; 12110/97 Hearing, pp. 3-160). Mr. Kelly and Mr. Roberts made their best
effort to contact those persons on the State's witness list who did not testify at the motion
to suppress hearing. (HT 244-245).
This Court finds that trial counsel thoroUghly reviewed the prosecution's file and
reasonably researched the potential testimony of the State's witnesses; therefore,
, .~

Petitioner failed to prove that his attorneys were deficient in their pre.;.trial investigation
of the State's case. An analysis of the prejudice prong is unnecessary because Petitioner
did not prove deficient performance. Therefore, as Petitioner failed to meet his burden

33

* App. 138 *

under Strickland, his claim of ineffective assistance of counsel based on counsel's
investigation of the State's case is denied.
b.

Preparation and Presentation of Rebuttal Evidence.

Petitioner alleges in his amended petition that his defense attorneys rendered
ineffective assistance of counsel for not adequately challenging the State's case against
him. This Court finds that trial counsel reasonably prepared a logical defense,
investigated experts who could assist in this defense, and effectively tried to rebut the
State's evidence during trial. Because Petitioner fai1ed to prove that trial cOWlsel'S
perfonnance was deficient with regard to their preparation and presentation of rebuttal
evidence to the State's case, this claim is denied.
i.

Argument for a Plea Agreement.

The evidence before this court showed that Mr. Kelly and Mr. Roberts repeatedly
approached District Attorney Fred Bright about pleading out Petitioner's case. (HT 227228,282-283). Mr. Kelly stated that he and Mr. Roberts tried their best to secure a plea,
but they could not obtain agreement from the State. Petitioner's trial counsel cannot be
found to be deficient for failing to secure a plea bargain when they actively sought one.
See Franks v. State, 278 Ga. 246,258-259 (2004). Because Petitioner failed to prove that
trial counsel were deficient, he failed to prove ineffective assistance as to their attempts
to plead out Petitioner's case and therefore, this claim is denied.
ii.

Argument to Suppress Harmful State's
Evidence.

This Court finds that Petitioner's defense attorneys were not deficient in
challenging the State's case, given their ardent litigation against the admissibility of the
most damaging prosecution evidence. The trial attorneys felt that a critical part of their

34

* App. 139 *

defense against the State's evidence was the suppression of Petitioner's two confessions,
(HT 213,222-224,275,305-306), and therefore they filed motions to suppress both
confessions. (HT 213, 223.224; 12/10/97 Hearing, pp. 1-160). The trial attorneys
successfully convinced Judge Prior to keep out the videotaped confession to the OBI;
however, the trial court held that the suppression order did not apply to possible use for
impeachment or rebuttal. (R. 412).
Trial counsel also objected to the admission of evidence concerning the murders
of Mr. and Mrs. Snider in Texas as non-statutory aggravators. (HT 238-239,295-296).
However, the trial court held that evidence concerning the Sniders' murders was
admissible (HT 238-239,295-296).
Petitioner failed to prove that trial counsel's perfonnance was deficient in their
attempts to suppress the State's evidence that was most hannful to Petitioner's case. This
Court fmds that Mr. Kelly and Mr. Roberts reasonably and zealously tried to keep out
evidence ofPetitione(s confessions and the Sniders' murders. As stated supra, "The test
for reasonable attorney performance <has nothing to do with what the best lawyers would
have done. Nor is the test even what most good lawyers would have done. We ask only
whether some reasonable lawyer at the trial could have acted, in the circumstances, as
defense counsel acted at trial ... we are not interested in grading lawyers' performances;
we are interested in whether the adversarial process at trial, in fact, worked adequately.'"
Jefferson v. Zant. 263 Ga. at 318 (quoting White v. Singletary, 972 F.2d 1218, 1220-1221
(llth Cir. 1992». As the attorneys were objectively reasonable in their attempts to
suppress hannful State evidence. Petitioner failed to prove the first prong of Strickland.

35

* App. 140 *

Therefore, this claim is denied because he cannot satisfy his burden of proving this claim
of ineffective assistance of counsel.
iii. Polygraph Expert

Petitioner claims that he received ineffective assistance of counsel because his
attorneys failed to present evidence by a polygraph expert. This claim is denied. The
evidence before this Court establishes that trial counsel made a reasonable, strategic
decision to forgo this testimony in the best interest of Petitioner's case.
Petitioner's attorneys moved to admit the results of their independent polygraph
examination. (HT 222). Judge Prior held that the defense could present testimony by
Mr. Blackstone, the polygraph expert; however, the judge informed both parties that if

Mr. Blackstone testified that the polygraph results indicated that Petitioner was not
deceptive when he said that he did not commit the murders, then the State could present
the videotape of the OBI confession as rebuttal evidence. (HT 222-223, 286-287).
Petitioner's experienced defense attorneys made a strategic decision not to present
the testimony of Mr. Blackstone, given that Mr. Blackstone's testimony would result in
the admission of the videotaped confession that the attorneys felt was devastating to their
case. (HT 223-224). Trial counsel recognized that the FBI confession was still going to
be admitted into evidence, however they hoped to be able to effectively cross-examine
the FBI agent about this statement. (HT 224).

The evidence before this Court demonstrates that trial counsel made a reasonable,
strategic decision based on the circumstances at the time of trial. The United States
Supreme Court held in Strickland that "a court must indulge a strong presumption that
counsel's conduct falls within the wide range of reasonable professional assistance; that

36

* App. 141 *

is, the defendant must overcome the presumption that, under the circumstances, the
challenged action 'might be considered sOlUld trial strategy.'" Strickland, 466 U.S. at 689
(citations omitted). The Court in Strickland further held that strategic decisions made by
defense attorneys are virtually unchaUengeable. 466 U.S. at 691. The Georgia Supreme
Court found that there is no deficiency when "trial strategy was at the root of trial
counsel's failure to do what appeBate counsel now claims should have been done."
Washington v. State, 276 Ga. 655, 659 (2003).
Applying the Strickland standard, this Court finds that trial counsel's strategic
decision to forgo testimony by Mr. Blackstone in order to avoid the introduction of the
videotaped confession was objectively reasonable. Petitioner failed to prove that his
defense counsel were deficient; therefore, an analysis of the prejudice prong for this
claim is unnecessary because Petitioner cannot meet his burden of proving deficient
performance under Strickland. As such, this claim is denied.

iv.

Defense Strategy: Relative Culpability and
Reasonable Doubt.

Petitioner claims that his trial attorneys rendered ineffective assistance of counsel
because they did not adequately argue that Petitioner's co-defendant was the actual
murderer. This Court finds that, based on the evidence presented at the habeas hearing,
trial counsel reasonably investigated and presented a defense theory of relative
culpability and reasonable doubt.

,

:;
"

Mr. Kelly and Mr. Roberts both testified that the defense theory focused on
relative CUlpability, and specifically the greater culpability of Petitioner's co-defendant,
Alicia Woodward. (HT 216-219). Mr. Kelly stated that they arrived at this theory based
on the information that they discovered during the investigation of the case. (HT 217-

37

* App. 142 *

218). Furthennore. the defense team investigated Ms. Woodward's background and her
role in the crime spree. (HT 247).

Trial counsel emphasized this theory of relative

culpability at trial by cross-examining the State's witnesses about Ms. Woodward's role
in the crimes and by emphasizing her apparent leadership role. (HT 216, 316).10
This Court finds that trial counsel were objectively reasonable in their
representation on this issue because, as further support for their theory of relative
culpability and reasonable doubt, the defense attorneys also hired a DNA expert. Mr.
Kelly stated that the defense wanted to emphasize the lack of DNA evidence linking
Petitioner to the crimes. (lIT 220-221). The defense team consulted Dr. Linda Adkinson
to assist the defense in their cross-examination of the State's witness. (HT 250-251).

Mr. Kelly stated that the defense tried to attack the State's case and the GBI's
investigation, which is why they brought out the State's failure to perform DNA testing
on the tree branch. (HT 251).

During the instant proceeding, Petitioner subpoenaed the non-public portions of the
co-defendant Alicia Woodward's Parole file. The Board of Pardons and Paroles moved
to quash the subpoena. Pursuant to the request of the Petitioner, the Court conducted an
in camera review of the file for exculpatory material including material that might serve
to support a diminished culpability in the murder for which Petitioner has been convicted
and sentenced to death. The Court also agreed to inspect Woodward's parole file for
mental health evidence in existence at the time of Petitioner's trial. The Court found no
exculpatory evidence, no evidence that would tend to reduce Petitioner's culpability, and
no mental health evidence that was both relevant to Petitioner's claims and in existence at
the time of Petitioner's trial. Accordingly, the Court grants the motion to quash the
subpoena. Contemporaneous with the instant order, the Court has entered an order that
the contents of the parole file be sealed for purposes of appeal.
10

The Court notes that Ms. Woodward did not testify against Petitioner and in fact entered
a guilty plea subsequent to Petitioner's trial and sentencing>

38

* App. 143 *

This Court finds that trial counsel were reasonable, especially given their strategic
concerns about overemphasizing Petitioner's inn~nce and possibly allowing the
admission of the videotaped confession as rebuttal.
This Court also fmds that Petitioner failed to prove that trial counsel were
ineffective for not hiring a forensic pathologist as an expert in Petitioner's case. Even if
the court were to find that such conduct constituted deficient perfonnance, which the
Court does not, this Court finds that Petitioner failed to establish a reasonable probability
that such testimony would have affected the outcome of Petitioner's trial, especially
given the possibility that the admission of such testimony would have opened the door to
the videotaped confession, which trial counsel adamantly did not want to come into
evidence. (HT 305-306). Therefore, because Petitioner did not prove both prongs of the
Strickland test, he failed to establish his claim of ineffective assistance of counsel. Given
the clear evidence before this Court that trial counsel reasonably investigated and
presented a defense theory of relative culpability and reasonable doubt, Petitioner's claim
Jacks merit and is hereby denied.
6.

Ineffective Assistance of Counsel on Direct Appeal.

In Claim I of his amended petition, Petitioner alleges that his trial attorneys
rendered ineffective assistance of counsel in their representation of Petitioner on his
direct appeal. The evidence before this Court demonstrates that trial counsel reasonably
appealed the issues that they felt were the strongest. Because Petitioner failed to meet his
burden under the Strickland standard, this claim is denied.
This Court finds that Petitioner failed to prove that his attorneys were deficient in
their representation on the appeal of his convictions and sentences. This Court finds that

39

* App. 144 *

trial counsel were objectively reasonable when they raised their two strongest, nonfrivolous claims on direct appeal to the Georgia Supreme Court. Mr. Kelly explained to
this Court that the defense team thought that their challenge to the admissibility of the
FBI confession was the best argument that they had on direct appeal and that he did not
believe in raising frivolous appeals. (HT 258-259). Mr. Kelly stated, "I felt like we were
trying to raise the valid issues [in Petitioner's direct appeal] and not just throw[ing]
something out there that we knew was not a valid issue." (HT 259). Mr. Kelly also
stated that he believed that the Georgia Supreme Court would give more credibility to the
issues they were presenting if they only raised their strongest, non-frivolous claims.
This Court finds that counsel's reasoning in raising their two strongest, nonfrivolous claims on appeal was objectively reasonable. See Jones v. Barnes, 463 U.S.
745,751·752 (1983). The Supreme Court in Barnes held,
Experienced advocates since time beyond memory have emphasized the
importance of winnowing out weaker arguments on appeal and focusing
on one central issue if possible, or at most on a few key issues.... Most
cases present only one, two, or three significant questions.... Usually, ...
if you cannot win on a few major points, the others are not likely to help .
... The effect of adding weak arguments will be to dilute the force of the
stronger ones. ... There can hardly be any question about the importance
of having the appellate advocate examine the record with a view to
selecting the most promising issues for review.
463 U.S. at 751-752.
The Georgia Supreme Court also has held that an appellate counsel's decision as
to which claims to raise on appeal will not be considered deficient if the decision was a

"reasonable tactical move which any competent attorney in the same situation would
have made." Shorter v. Waters, 275 Ga. 581, 585 (2002).
As Petitioner failed to prove that Mr. Kelly and Mr. Roberts were deficient in
their representation on appeal, he cannot establish ineffective assistance of counsel. An
40

* App. 145 *

analysis of the prejudice prong is unnecessary. Because Petitioner failed to satisfy his
burden under Strickland, this claim is hereby denied.
As to any other claims of ineffective assistance of counsel not specifically
addressed in this Order, this Court finds that Petitioner failed to meet his burden under
Strickland of proving deficient perfonnance and actual prejudice. 11 Therefore, all claims
of ineffective assistance contained in Petitioner's amended petition are hereby denied.
V.

SENTENCING PHASE .RJRY INSTRUCTIONS.

In Claim X of his amended petition, Petitioner alleges that he was denied due
process oflaw by the instructions given to the jury during the sentencing phase of his

trial. Petitioner further maintains that the sentencing phase jury instructions, both
individually and collectively, were ambiguous, insufficient, vague, and confusing,
contrary to law and the jury's decision based upon the instructions is unreliable. This

claim is properly before this Court because jury charges during the sentencing phase
cannot be procedurally defaulted. See Stvnchcombe v. Floyd, 252 Ga. 113, 115 (1984);
Head v~ Ferrell, 274 Ga. 399,401-402 (2001). This Court finds that Petitioner's

constitutional rights were not violated by the penalty phase jury instructions at his trial.
The jury instructions in this case regarding mitigating circwnstances, aggravating

circwnstances. and unanimity, which Petitioner challenges in his amended petition, have
all been held to be constitutional by the Georgia Supreme Court. See, ~ King v. State,
,
,

,

During the guilt-hmocence phase of Petitioner's trial, the parties allowed an
investigator in his case, the chief deputy sheriff of Morgan County, to accompany the
jwy to view the crime scene and to tell the jury where the body was found. The judge,
the court reporter, and the attorneys did not attend the jury viewing. This Court agrees
with the Supreme Court of Georgia that "this procedure is troubling and should not be
used in the future". Esposito v. State, 273 Ga. at 187. However, on the facts of this case,
this Court finds no prejudice from the procedure or trial counsel's failure to object.
II

41

* App. 146 *

273 Ga. 258,276 (2000); Nance v. State, 280 Ga. 125, 126 (2005); Walker v. State, 281
Ga. 157. 165 (2006). See also McClain v. State. 267 Ga. 378, 386 (1 996)(holding that a

jury need not be instructed as to specific standards for considering mitigating

circwnstances so long as the jury is allowed and instructed to consider the evidence in
mitigation and is instructed that it has a discretion, notwithstanding proof of aggravating
drcwnstances, to impQse a life sentence); Ford v. State, 257 Ga. 461 (l987)(the Georgia
statutory capital sentencing scheme does not require a weighing or balancing of
mitigating and aggravating circumstances); Jenkins v. State, 269 Ga. 282, 296
(1998)(holding that there is no error in refusing to charge the jury that its failure to reach
a unanimous verdict as to sentence would result in imposition of a life sentence).
Therefore, as the sentencing phase jury instructions were constitutional, this claim is
hereby denied.
VI.

ALL OTHER CLAIMS RAISED IN AMENDED PETITION.

For any claim raised by Petitioner in his amended petition and not specifically
addressed in this Order, this Court fmds that Petitioner failed to carry his burden of
establishing legal or factual support for these claims. Based on the evidence presented to
this Court during these habeas proceedings, Petitioner is not entitled to the granting of
relief as to any of his claims.· Therefore, this Court hereby denies Petitioner's petition for

writ of habeas corpus.

42

* App. 147 *

VTI.

CONCLUSION.

After considering all of Petitioner's allegations made in the habeas corpus petition
and at the habeas corpus hearing. this Court concludes that Petitioner has failed to carry

his burden of proof in demonstrating any denial of his constitutional rights as set forth
above.

WHEREFORE, it is hereby ORDERED that the petition for a writ of habeas
corpus is denied and that Petitioner be remanded to the custody of Respondent for the
service and execution of his lawful sentence.
The Clerk is directed to mail a copy of this Order to counsel for the parties.

SO ORDERED, this

fl~ I~~.~
Honorable MalVin W. Sorrels
Sitting by Designation in Butts COWlty
Superior Court

43

* App. 148 *

. ..,'" .
"

~""

",.

* App. 149 *

Positive
As of: February 10, 2021 6:26 PM Z

Esposito v. State
Supreme Court of Georgia
October 30, 2000, Decided
S00P0654.

Reporter
273 Ga. 183 *; 538 S.E.2d 55 **; 2000 Ga. LEXIS 821 ***; 2000 Fulton County D. Rep. 4026

Case Summary

JOHN ANTHONY ESPOSITO v. THE STATE.

Subsequent History: [***1]
Reconsideration Denied
November 30, 2000. Certiorari Denied June 25, 2001,
Reported at: 2001 U.S. LEXIS 4809.
Reconsideration denied by, 11/30/2000
Writ of certiorari denied Esposito v. Georgia, 533 U.S. 935,
121 S. Ct. 2564, 150 L. Ed. 2d 728, 2001 U.S. LEXIS 4809
(2001)
Habeas corpus proceeding at, Motion granted by Esposito v.
Humphrey, 2012 U.S. Dist. LEXIS 69713 (M.D. Ga., May 18,
2012)

Prior History: Baldwin County Superior. Trial Judge: Hon.
William A. Prior, Jr. Date of Judgment Appealed: 09-16-99.
Notice of Appeal Date: 10-14-99. Lower Ct # : 96CC349.

Disposition: Judgment affirmed.

Core Terms

Procedural Posture
Defendant challenged the judgment of Baldwin County
Superior Court (Georgia) convicting him of malice murder,
armed robbery, and motor vehicle hijacking and sentencing
him to death for malice murder, life imprisonment for armed
robbery, and 20 years' imprisonment for motor vehicle
hijacking.

Overview
A jury convicted defendant of murder and related crimes and
sentenced him to death, because of statutory aggravating
circumstances. The murder was committed during the
commission of an armed robbery and kidnapping with bodily
injury and was outrageously or wantonly vile, horrible, or
inhuman, in that it involved depravity of mind. The appellate
court found the evidence was sufficient to find that defendant
was guilty and that statutory aggravating circumstances
existed. A lapse of 11 1/2 hours between defendant's
receiving his Miranda warnings and making his confession
did not make the confession inadmissible. Although the court
stated that it would consider whether electrocution was cruel
and unusual punishment if sufficient evidence was presented,
defendant did not make a sufficient proffer of evidence. The
sentence was not imposed under the influence of passion,
prejudice, or any other arbitrary factor.

electrocution, jury's view, sentence, trial court, warnings,
murder, park ranger, confession, attend, scene
Outcome
The judgment was affirmed, as the evidence was sufficient to

* App. 150 *

find beyond a reasonable doubt that defendant was guilty of
the crimes and that statutory aggravating circumstances
existed. The sentence of death was neither excessive nor
disproportionate to the penalties imposed in similar cases.

Civil Procedure > Judicial Officers > Court
Reporters > General Overview
HN3[

] Judicial Officers, Judges

A trial judge should attend any planned jury view. A court
reporter should also attend any jury view so that any
important statements or events may be thoroughly reviewed
on appeal. The attorneys should also attend, unless their
presence is affirmatively waived.

LexisNexis® Headnotes

Evidence > Relevance > Preservation of Relevant
Evidence > Exclusion & Preservation by Prosecutors
Criminal Law & Procedure > ... > Standards of
Review > Clearly Erroneous Review > Confessions &
Interrogation
Criminal Law &
Procedure > ... > Interrogation > Miranda Rights > Notice
& Warning
Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > General Overview
HN1[ ] Clearly Erroneous Review, Confessions &
Interrogation
The lapse of 11 1/2 hours between a defendant's receiving his
Miranda warnings and making his confession does not render
the confession inadmissible.

While a defendant's presence at a jury view that involves
merely the transportation of the jury to a crime scene is not
absolutely required, trial courts should note that a defendant's
presence is mandatory, if not waived by the defendant
himself, whenever testimony or other evidence is presented to
the jury.

Evidence > Relevance > Preservation of Relevant
Evidence > Exclusion & Preservation by Prosecutors
HN5[ ] Preservation of Relevant Evidence, Exclusion &
Preservation by Prosecutors
Special dangers exist whenever a witness at trial, particularly
a law enforcement officer, attends a jury view, and a trial
court should avoid those dangers by excluding such persons.

Criminal Law & Procedure > Sentencing > Capital
Punishment > General Overview
HN2[

HN4[ ] Preservation of Relevant Evidence, Exclusion &
Preservation by Prosecutors

] Sentencing, Capital Punishment

Ga. Code Ann. § 17-10-38 provides for execution by lethal
injection. 1999 Ga. Laws 734 preserves execution by
electrocution for persons sentenced to death for crimes
committed before May 1, 2000.

Civil Procedure > Judicial Officers > Judges > General
Overview
Evidence > Relevance > Preservation of Relevant
Evidence > Exclusion & Preservation by Prosecutors
Governments > Courts > Court Personnel

Counsel: Roy R. Kelly III, W. Dan Roberts, for appellant.
Fredric D. Bright, District Attorney, Thurbert E. Baker,
Attorney General, Susan V. Boleyn, Senior Assistant
Attorney General, Karen A. Johnson, Assistant Attorney
General, for appellee.

Judges: Fletcher, Presiding Justice. All the Justices concur,
except Benham, C. J., and Sears, J., who concur in part and
dissent in part; Hunstein and Hines, JJ., who concur and also
concur specially; and Carley and Thompson, JJ., who concur

* App. 151 *

specially.

Opinion by: Fletcher

Opinion
[*183] [**57] Fletcher, Presiding Justice.
A jury convicted John Anthony Esposito of murdering Lola
Davis and [***2] related crimes and fixed his sentence at
death, after finding beyond a reasonable doubt the following
statutory aggravating circumstances: that the murder was
committed during the commission of an armed robbery and a
kidnapping with bodily injury and that the murder was
outrageously or wantonly vile, horrible, or inhuman in that it
involved depravity of mind. 1 For the reasons set forth below,
we affirm his convictions and sentences.
[***3] 1. The evidence adduced at trial, including testimony
recounting Esposito's confession to federal authorities,
showed that on September 19, 1996, Esposito's coconspirator, Alicia Woodward, persuaded Lola Davis to give
her a ride from a parking lot in Lumberton, North Carolina.
Woodward directed Davis to a nearby location where
Esposito entered Davis' automobile. Esposito and Woodward

1 The

crimes occurred on September 19, 1996. Esposito was indicted
by a Morgan County grand jury on December 2, 1996, for malice
murder, felony murder, armed robbery, and hijacking a motor
vehicle. The state filed notice of its intent to seek the death penalty
for the murder on January 31, 1997. The trial court granted an
unopposed motion to change venue and moved the trial to the
Superior Court of Baldwin County. A further motion to change
venue, made at the end of voir dire in Baldwin County, was denied.
The trial began on September 23, 1998, and the jury found Esposito
guilty on all counts on September 30, 1998. The jury fixed the
sentence for the malice murder at death on October 2, 1998. The trial
court vacated the felony murder conviction by operation of law, see
Malcolm v. State, 263 Ga. 369, 371-72 (4) (434 S.E.2d 479) (1993);
see also O.C.G.A. § 16-1-7, and sentenced Esposito to death for the
malice murder, life imprisonment for the armed robbery, and twenty
years imprisonment for the motor vehicle hijacking. Esposito filed a
motion for a new trial on October 29, 1998, and a hearing on that
motion was held on June 30, 1999. The trial court denied the motion
for a new trial on September 16, 1999. Esposito filed a notice of
appeal on October 11, 1999, the appeal was docketed in this Court
on January 6, 2000, and oral arguments were heard on April 17,
2000.

then forced the elderly Davis, without the use of any weapons,
to drive to a nearby parking lot and to move to the passenger
seat of her automobile. Esposito removed one thousand
dollars and Davis' checkbook from her purse, and Woodward
drove Davis' automobile to a local bank where she cashed a
check for three hundred dollars that she and Esposito had
forced Davis to write. Woodward and Esposito then drove
Davis to a remote location in Morgan County, Georgia, where
Esposito led Davis into a hayfield, forced her to kneel, and
beat her to death with tree limbs and other debris. Esposito
and Woodward then drove in Davis' automobile to Alabama
where they disposed of Davis' automobile and purse. Davis'
automobile was shown at trial to contain fingerprints, palm
prints, and footprints matching Esposito's and [***4]
Woodward's. Saliva on a cigarette butt found in the
automobile was shown to contain DNA consistent with
Esposito's DNA.
[*184] Evidence presented during the sentencing phase
showed that, after murdering Davis, Esposito and Woodward
traveled to Oklahoma, abducted an elderly couple, illegally
obtained money using the couple's bank card, and then drove
the couple to Texas where Esposito beat them to death with a
tire iron. An FBI agent also testified during the sentencing
phase that Esposito had described his and Woodward's plan to
abduct and murder yet another elderly woman for money.
We find that the evidence adduced at trial, viewed in the light
most favorable to the verdict, was sufficient to authorize a
rational trier of fact to find beyond a reasonable doubt that
Esposito was guilty of the crimes of which he was convicted
and that statutory aggravating circumstances existed. 2
2. Esposito [***5] contends that the trial court erred by
denying his motion to suppress a confession he made to two
FBI agents during an interview conducted on the night of his
arrest. We find no error.
Testimony heard by the trial court showed that Esposito and
Woodward were observed unlawfully possessing a BB gun in
Colorado's Mesa Verde National Park by a park ranger.
Esposito was uncooperative when instructed to lay down the
gun, and the park ranger [**58] called for assistance. Park
rangers determined that the automobile Esposito and
Woodward were driving had been reported missing under
suspicious circumstances and that there was a warrant for
their arrest. At approximately 3:00 p.m., a park ranger
informed Esposito that he was under arrest and gave the

2 Jackson

v. Virginia, 443 U.S. 307 (99 S. Ct. 2781, 61 L. Ed. 2d
560) (1979); O.C.G.A. § 17-10-30 (b) (2) and (7).

* App. 152 *

warnings required by Miranda v. Arizona. 3 As each portion
of his Miranda warnings was read, Esposito stated "yeah" and
nodded affirmatively. Esposito was then asked if he
understood his warnings, but, before he answered, the park
ranger stated that he had no questions for Esposito. Persons
who observed Esposito testified that he did not appear to be
under the influence of drugs or alcohol.
[***6] Later that evening, two FBI agents arrived at the jail
where Esposito and Woodward were being held, interviewed
Woodward first, and then interviewed Esposito from 11:35
p.m. until 12:22 a.m. According to testimony by one of the
FBI agents, Esposito was asked before being questioned if he
remembered and understood the warnings he had received
earlier that day, particularly the warning that he was not
required to speak with authorities. Esposito responded that he
was willing to make a statement.
HN1[ ] The lapse of eleven and one half hours between
Esposito's receiving his Miranda warnings and making his
confession did not render [*185] the confession
inadmissible. 4 [***7] Esposito's reliance on Riley v. State 5
is misplaced, as we have explicitly held that Riley is not
applicable to adults. 6 Upon our review of the record, we
conclude that the trial court's findings of fact were not clearly
erroneous, and, upon our de novo application of those
findings of fact to the law, we conclude that the trial court's
legal conclusion regarding the confession's admissibility was
correct. 7
3. Esposito argues that execution by electrocution is cruel and
unusual punishment. This issue was preserved for appeal by
the trial court's ruling which allowed Esposito to adopt
motions filed in the case of his co-conspirator, Alicia
Woodward, which included a motion to bar the use of
electrocution.
(a) The continued use of electrocution as Georgia's sole
method of executing persons sentenced to death for crimes

3

384 U.S. 436 (86 S. Ct. 1602, 16 L. Ed. 2d 694) (1966).

4 Haynes

v. State, 269 Ga. 181, 184 (4) (496 S.E.2d 721) (1998);
Osbornev. State, 263 Ga. 214, 217 (4) (430 S.E.2d 576) (1993);
Stapleton v. State, 235 Ga. 513, 517(1) (220 S.E.2d 269) (1975).
5 237

v. State, 270 Ga. 654, 656 (3) (513 S.E.2d 733) (1999).

7 DeYoung

8 HN2[

] See O.C.G.A. § 17-10-38 (providing for execution by
lethal injection); 1999 Ga. Laws 734 (preserving execution by
electrocution for persons sentenced to death for crimes committed
before May 1, 2000).
9 See,

e.g., Wilson v. State, 271 Ga. 811, 824-28 (525 S.E.2d 339)
(1999) (Sears, J., dissenting); DeYoung v. State, 268 Ga. 780, 791-92
(493 S.E.2d 157) (1997) (Fletcher, P. J., concurring); McNair v.
Haley, 97 F. Supp. 2d 1270 (M.D. Ala. 2000) (ordering an
evidentiary hearing on whether Alabama's use of electrocution is
cruel and unusual punishment); Jones v. Butterworth, 701 So. 2d 76,
81-89 (Fla. 1997) (Kogan, C. J., dissenting; Shaw, J., dissenting;
Anstead, J., dissenting); Provenzano. v. Moore, 744 So. 2d 413, 42251 (Fla. 1999) (Shaw, J., dissenting; Anstead, J., dissenting;
Pariente, J., dissenting).
10 Jones,

701 So. 2d 76, 80-81 (Fla. 1997) (Harding, J., concurring
specially) (warning of "a possible constitutional 'train wreck'");
Provenzano, 744 So. 2d at 416-19 (Harding, C. J., concurring
specially) ("It is my view that the [Florida] Legislature can foreclose
many of these claims by simply amending Florida's death penalty
statute to provide that death sentences should be carried out by lethal
injection unless the defendant requests execution by electrocution.").
11 See

Jones, 701 So. 2d at 81 (Harding, J., concurring specially).

12 See,

Ga. 124 (226 S.E.2d 922) (1976).

6 McDade

committed before May 1, 2000, presents a troubling moral
and legal issue. 8 [***9] Many state legislatures have
abandoned electrocution altogether or have allowed persons
previously sentenced to death by electrocution to elect
execution by lethal injection as an alternative. Grave concerns
about the humaneness of electrocution have been
acknowledged by members [***8] of this Court and of other
courts. 9 Other jurists, while less concerned with the form of
punishment itself, have recognized the potential for disruption
in the criminal justice system created by the retention of
electrocution as the sole method available for executing
certain prisoners when that method of execution has been so
regularly brought under serious constitutional scrutiny.
10
[***10] Such concerns have led some [*186] to
suggest [**59] a legislative resolution of this ever-looming
concern by adoption of statutes authorizing condemned
prisoners to elect execution by lethal injection as an
alternative to other methods. 11 Unfortunately, legislative
resolution of such issues has sometimes come only after the
judiciary has first begun to intervene. 12 At present, only

v. State, 268 Ga. 780, 789 (8) (493 S.E.2d 157) (1997);
Bright v. State, 265 Ga. 265, 279-80, 455 S.E.2d 37 (5) (b) (1995);
O.C.G.A. § 24-3-50.

e.g., Bryan v. Moore, 528 U.S. 1133 (120 S. Ct. 1003, 145 L.
Ed. 2d 927) (2000) (dismissing writ of certiorari upon Florida's
adoption of a law providing that the "death sentence will be carried
out by lethal injection, unless petitioner affirmatively elects death by
electrocution"); Gomez v. Fierro, 519 U.S. 918 (117 S. Ct. 285, 136
L. Ed. 2d 204) (1996) (vacating and remanding in light of
California's adoption of a law allowing condemned prisoners to elect

* App. 153 *

Georgia, Alabama, and Nebraska retain electrocution as a
required method of execution for any condemned prisoners. 13
With Alabama's use of electrocution presently under review
in federal evidentiary hearings, the continued place of
electrocution in American society has once again been placed
in doubt. 14
As said in 1885 by the governor of New York in calling for a
modern, humane replacement for hanging, it might now be
said of electrocution:
"It may well be questioned whether [***11] the science of
the present day cannot provide a means for taking the life of
such as are condemned to die in a less barbarous manner. I
commend this suggestion to the consideration of the
legislature." 15
Because such fundamental constitutional rights are at stake,
this Court, upon a sufficient evidentiary showing, would not
be unwilling to confront these difficult questions if necessary,
despite our belief that the legislative and executive branches
would be better positioned to assume continued leadership in
this field. 16
[***12] (b) Nevertheless, we conclude that in Esposito's
case there has not been a sufficient proffer of evidence to
compel a present finding that Georgia's practice of execution
by electrocution is cruel and unusual punishment under the
state or federal constitutions.
[*187] 4. During the guilt-innocence phase of Esposito's
trial, the parties planned a jury view of the murder scene, but
agreed that the trial judge, the court reporter, and the attorneys
would not attend. However, the chief deputy sheriff of

lethal injection as an alternative to lethal gas).
13 Wilson,

271 Ga. at 827-28, 828 n.25 (Sears, J., dissenting);
Provenzano, 744 So. 2d at 420 n.4 (Quince, J., concurring specially);
Fla. Stat. Ann. § 922.10 (as amended by 2000 Fla. Laws ch. 2).
14 See

McNair v. Haley, 97 F. Supp. 2d 1270.

15 In

re Kemmler, 136 U.S. 436, 444 (10 S. Ct. 930, 34 L. Ed. 519)
(1890).

Morgan County, an investigator in Esposito's case who had
already served as a witness for the state, was permitted to
accompany the jury to the scene and to tell the jury where the
body was found. The defendant did not object to this
procedure.
Although not raised as an enumeration of error, this procedure
is troubling and should not be used in the future. As we have
stated before, HN3[ ] a trial judge should attend any
planned jury view. 17 Taking a jury from the controlled
environment of a courtroom to a place that has some
relevance to the trial always involves the risk that something
unexpected might arise requiring the trial judge's intervention.
A court reporter should also attend any jury view [***13] so
that any important statements or events may be thoroughly
reviewed on appeal. The attorneys should also [**60] attend,
unless their presence is affirmatively waived.
HN4[ ] While a defendant's presence at a jury view that
involves merely the transportation of the jury to a crime scene
is not absolutely required, 18 trial courts should note that a
defendant's presence is mandatory, if not waived by the
defendant himself, whenever testimony or other evidence is
presented to the jury. 19 HN5[ ] Special dangers exist
whenever a witness at trial, particularly a law enforcement
officer, attends a jury view, and a trial court should avoid
those dangers by excluding such persons.
[***14] Finally, because jury views have proved to be fertile
ground for irregularity and, at times, reversible error, the
parties to criminal trials and trial courts should carefully
weigh the real benefits of a jury view before planning one.
Frequently, as in Esposito's case, the jury has already viewed
photographs of the crime scene, and nothing is to be added to
the jury's understanding of the issues to be tried by an inperson visit to the scene. In such cases, a trial court would be
authorized to deny a request for a jury view.
5. We find that the sentence of death in Esposito's case was
not imposed under the influence of passion, prejudice, or any
other arbitrary factor. 20
6. Considering both the crime and the defendant, we find that
Esposito's sentence of death was neither excessive nor
disproportionate [*188] to the penalties imposed in similar

16 See

DeYoung, 268 Ga. at 792 (Fletcher, P. J., concurring) ("I urge
the General Assembly to revisit the issue in light of modern
knowledge and changing attitudes as reflected in other
jurisdictions."); see also Provenzano, 744 So. 2d at 447 n.56
(Pariente, J., dissenting) ("[The Florida] Legislature, while providing
for lethal injection if electrocution is declared unconstitutional, has
elected to retain electrocution as its sole method of execution. This
leaves the Court with no choice but to fulfill our obligation to
examine the constitutional question.").

17 Wilson,

271 Ga. at 817 (6).

18 Jordan

v. State, 247 Ga. 328, 343-46 (9) (276 S.E.2d 224) (1981).

19 Holsey

v. State, 271 Ga. 856, 860-61 (5) (524 S.E.2d 473) (1999).

20 O.C.G.A.

* App. 154 *

§ 17-10-35 (c) (1).

cases. 21 The similar cases listed in the Appendix support the
imposition of the death penalty in Esposito's case, as each
involved an intentional [***15] killing committed during the
commission of an armed robbery, motor vehicle hijacking, or
kidnapping with bodily injury or involved a finding that the
killing was outrageously or wantonly vile, horrible, or
inhuman in that it involved depravity of mind.

State, 272 Ga. 691, 703 (16) (532 S.E.2d 78) (2000); Holsey
v. State, 271 Ga. 856, 863 (12) (524 S.E.2d 473) (1999);
DeYoung v. State, 268 Ga. 780, 786 (6) (493 S.E.2d 157)
(1997). Because of the complete absence of any proffer, and
in light of our very [***17] recent rulings on this issue, we
do not have either jurisdictional or precedential authority to
discuss this issue in this case.

Judgment affirmed. All the Justices concur, except Benham,
C. J., and Sears, J., who concur in part and dissent in part;
Hunstein and Hines, JJ., who concur and also concur
specially; and Carley and Thompson, JJ., who concur
specially.

2. Division 4 acknowledges that Esposito did not object to the
[*189] procedure used for the jury view. Thus, Esposito
acquiesced in that procedure. Holsey v. State, 271 Ga. 856,
861 (5) (524 S.E.2d 473) (1999). See also Wilson v. State, 271
Ga. 811, 817 (6) (525 S.E.2d 339) (1999). Therefore, the jury
view procedure is not before us, and there is no issue on
which we should express an opinion.

Concur by: Sears (In Part); CARLEY

I am authorized to state that Justice Thompson joins in this
opinion, and that Justice Hunstein joins in Division 2 and
Justice Hines joins in Division 1.

Concur

Appendix.
Carley; Sears (In Part)
Carley, Justice, concurring specially.
I fully concur in Divisions 1, 2, 5, and 6 and in the judgment.
However, because I cannot [**61] agree with Divisions 3 and
4, I write separately.
1. Although Division 3 (b) recognizes that Esposito failed to
make a sufficient proffer of evidence in support of the
proposition that electrocution is cruel and unusual
punishment, Division 3 (a) extensively [***16] discusses the
issue.
"A statute is presumed to be valid and constitutional until the
contrary appears…. (Cits.)" [Cit.] A presumption arises when
a defendant is sentenced within the statutory limits set by the
legislature that such sentence does not violate the Eighth
Amendment's guarantee against cruel and unusual
punishment. Such presumption remains until a defendant sets
forth a factual predicate showing that such legislatively
authorized punishment was so overly severe or excessive in
proportion to the offense as to shock the conscience. [Cit.]

Burgos v. State, 233 Ga. App. 897, 902 (3), fn. 2 (505 S.E.2d
543) (1998). This Court has repeatedly and recently upheld
the constitutionality of the statutory provision for
electrocution as a method of execution. Gissendaner v. State,
272 Ga. 704, 716 (15) (532 S.E.2d 677) (2000); Morrow v.

21 O.C.G.A.

Wilson v. State, 271 Ga. 811 (525 S.E.2d 339) (1999); Lee v.
State, 270 Ga. 798 (514 S.E.2d 1) (1999); Pruitt v. State, 270
Ga. 745 (514 S.E.2d 639) (1999); Whatley v. State, 270 Ga.
296 (509 S.E.2d 45) (1998); Perkins v. State, 269 Ga. 791
(505 S.E.2d 16) (1998); Pye v. State, 269 Ga. 779 (505 S.E.2d
4) (1998); DeYoung v. State, 268 Ga. 780 (493 S.E.2d 157)
(1997); Bishop v. State, 268 Ga. 286 (486 S.E.2d 887) (1997);
Waldrip v. State, 267 Ga. 739 (482 S.E.2d 299) (1997); Jones
v. State, 267 Ga. 592 (481 S.E.2d 821) (1997); Carr v. State,
267 Ga. 547 (480 S.E.2d 583) (1997); Wellons v. State, 266
Ga. 77 (463 S.E.2d 868) (1995); Crowe v. State, 265 Ga. 582
(458 S.E.2d 799) (1995); Hittson v. State, 264 Ga. 682 (449
S.E.2d 586) (1994); Todd v. State, 261 Ga. 766 (410 S.E.2d
725) (1991); Taylor v. State, 261 Ga. 287 (404 S.E.2d 255)
(1991); Ferrell v. State, 261 Ga. 115 (401 S.E.2d 741) (1991);
Williams v. State, 258 Ga. 281 (368 S.E.2d 742) (1988).
Dissent by: Sears (In Part)

Dissent
Sears, Justice, concurring in part and dissenting in part.
I concur in the majority's affirmance of appellant's
adjudication of guilt. However, due to the concerns I

§ 17-10-35 (c) (3).

* App. 155 *

expressed in my partial dissent to Wilson v. State, 22 I dissent
to Division 3 (b) of the majority opinion, and to the
affirmance of the death penalty only to the extent that it
requires death by electrocution.
I am authorized to state that Chief Justice Benham joins me in
this partial [***18] concurrence and partial dissent. 271 Ga.
811, 525 S.E.2d 339 (1999).

End of Document

22 271

Ga. 811 (525 S.E.2d 339) (1999).

* App. 156 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 1 of 61

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 15-11384-P
JOHN ESPOSITO,
Petitioner-Appellant,
-vWARDEN,
Georgia Diagnostic Prison,
Respondent-Appellee.
__________________________________________________________
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA, MACON DIVISION
__________________________________________________________
APPLICATION TO EXPAND CERTIFICATE OF APPEALABILITY
________________________________

BRIAN S. KAMMER (GA 406322)
MARCIA A. WIDDER (GA 643407)
Georgia Resource Center
303 Elizabeth Street, NE
Atlanta, Georgia 30307
404-222-9202
COUNSEL FOR MR. ESPOSITO

* App. 157 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 2 of 61

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
JOHN ESPOSITO,
Petitioner-Appellant,

)
)
)
)
)
)
)
)

vs.
WARDEN,
Georgia Diagnostic Prison,
Respondent-Appellee.

Case No. 15-11384-P

CERTIFICATE OF INTERESTED PERSONS
Counsel hereby certifies that the following have an interest in the outcome of
this case:
1.

Roy W. Kelly III, Trial Counsel for Appellant

2.

W. Dan Roberts, Trial Counsel for Appellant

3.

John Esposito, Appellant

4.

Alicia Woodward, Co-defendant

5.

Hon. William A. Prior, Jr., Trial Judge

6.

Fredric D. Bright, Prosecutor

7.

Hon. Marvin Sorrells, State Habeas Judge

8.

Brian Kammer, State and Federal Habeas Counsel for Appellant

9.

Marcia Widder, Federal Habeas Counsel for Appellant

* App. 158 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 3 of 61

10.

Tom Dunn, State Habeas Counsel for Appellant

11.

Kimberley Sharkey, State Habeas Counsel for Appellant

12.

Lindsay Bennett, State Habeas Counsel for Appellant

13.

Richard Tangum, Assistant Attorney General, Counsel for Appellee
(Federal habeas)

14.

Sabrina Graham, Senior Assistant Attorney General, Counsel for
Appellee (Federal habeas)

15.

Emily Roselli, Counsel for Appellee (State habeas)

16.

Theresa Schiefer, Counsel for Appellee (State habeas)

17.

C. Ashley Royal, District Court Judge

18.

Lola Davis, Deceased

19.

Larry Snider, Deceased

20.

Marguerite Snider, Deceased

________________________
Brian S. Kammer
Attorney for Mr. Esposito

* App. 159 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 4 of 61

TABLE OF CONTENTS
CERTIFICATE OF INTERESTED PERSONS ........................................................ i
TABLE OF CONTENTS ......................................................................................... iii
TABLE OF AUTHORITIES .....................................................................................v
I.

Procedural History and Statement of Facts .................................................1

II.

Standards for Issuance of a COA. ...............................................................6

III.

Grounds for Expanding the COA. ...............................................................8

A.

Sentencing Phase IAC – Claim One Of The Federal Petition.................9
1. Reasonable jurists could disagree with the district court’s
conclusion that AEDPA deference applies to the IAC claim,
given the state habeas court’s unreasonable application of
governing Supreme Court law. ..............................................................10
2. Reasonable jurists could disagree that the state court reasonably
found that counsel were effective in making a 4-page sentencing
phase summation that failed to counter the prosecutor’s
predictably strong closing argument, did not discuss the
mitigation evidence presented, and provided no compelling
reason for jurors to impose a sentence less than death. .........................16
3. Reasonable jurists could disagree with the district court’s
determination that counsel reasonably failed to object to a host
of inadmissible evidence and improper examination and
argument by the prosecutor at sentencing. ............................................20
a. Counsel were ineffective in failing to object to the
prosecutor’s improper questioning of defense witnesses. .................21
b. Counsel were ineffective in failing to object to the
prosecutor’s improper penalty phase closing argument. ...................34

B.

Misconduct By The Prosecution Team Deprived Mr. Esposito
Of His Constitutional Rights To Due Process And A Fair
Sentencing Proceeding – Claim Two Of The Federal Petition. ............39
* App. 160 *

Case: 15-11384

C.

Date Filed: 05/04/2015

Page: 5 of 61

A COA Should Issue To Address The District Court’s Failure
To Conduct Hearings On State Post-Conviction Counsel’s
Ineffective Failure To Present And Exhaust Colorable IAC
Claims and To Address Whether Trial Counsel’s Extensive
Possession Of Illegal Child Pornography And Hardcore, But
Legal Adult Pornography Undermine The Credibility Of
Counsel’s Testimony In State Court And Raise Questions
About The Reasonableness Of Counsel’s Failure To Develop
And Present Mitigating Evidence Of Petitioner’s History Of
Childhood Sexual Abuse. ......................................................................40
1. The district court erred in refusing to conduct a hearing to
address
state
post-conviction
counsel’s
ineffective
representation under Martinez and Trevino. ..........................................40
2. The district court erred in denying an evidentiary hearing to
address newly discovered evidence bearing on both the
credibility of trial counsel and the quality of counsel’s
investigation and presentation of evidence that Mr. Esposito
was sexually abused as a child...............................................................42
a. Although the defense was aware that Mr. Esposito suffered
extensive sexual abuse as a child, they failed to develop and
present evidence of the abuse. ...........................................................42
b. Unavailable at the time of the state habeas proceedings was
significant evidence regarding lead counsel’s own prurient
interest in young children that explains counsel’s failure to
recognize and develop mitigating evidence of Mr. Esposito’s
history of sexual abuse as a child ......................................................45
c. A COA should issue to address whether the district court
erred in denying a hearing on the effect of counsel’s prurient
interests on both the investigation and presentation of
mitigating evidence, and the reliability of counsel’s
testimony at the habeas earing. ..........................................................47

CONCLUSION ........................................................................................................50
NOTICE OF ELECTRONIC FILING AND CERTIFICATE OF SERVICE ........51

* App. 161 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 6 of 61

TABLE OF AUTHORITIES
Federal Cases
Barefoot v. Estelle, 463 U.S. 880 (1983) ...............................................................7, 9
Berger v. United States, 295 U.S. 78 (1935) .................................................... 26, 27
Booker v. Wainwright, 703 F.2d 1251 (11th Cir. 1983) ...........................................26
Booth v. Maryland, 482 U.S. 496 (1987).................................................................37
Boyd v. Brown, 404 F.3d 1159 (9th Cir. 2005) .........................................................10
Burgess v. Terry, 478 F.3d. Appx. 597 (11th Cir. 2012) ..........................................10
Cargle v. Mullin, 317 F.3d 1196 (10th Cir. 2003) ....................................................10
Cullen v. Pinholster, 131 S. Ct. 1388 (2011) .................................................... 48, 49
Eddings v. Oklahoma, 455 U.S. 104 (1982) ...........................................................23
Esposito v. Georgia, 533 U.S. 935 (2001) .................................................................2
Farina v. Sec’y Fla. Dep’t of Corr.,

F.3d

, 2013 U.S. App. LEXIS 19972 (11th

Cir. 9/30/13)................................................................................................... 36, 39
Goodman v. Bertrand, 467 F.3d 1022 (7th Cir. 2006) ...................................... 10, 16
Hardwick v. Singletary, 126 F.3d 1312 (11th Cir. 1997) ...........................................7
Harris v. Spears, 606 F.2d 639 (5th Cir. 1979) .......................................................26
Henry v. Moore, 197 F.3d 1361 (11th Cir. 1999) .......................................................7
Herring v. New York, 422 U.S. 853 (1975) ...................................................... 18, 19
Hittson v. GDCP Warden, 759 F.3d 1210 (11th Cir. 2014) .............................. 11, 41

* App. 162 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 7 of 61

Hittson v. GDCP Warden, Sup. Ct. Case No. 14-8589 ...........................................11
Hunter v. United States, 101 F.3d 1565 (11th Cir. 1996) (en banc) ...................7, 18
Jones v. GDCP Warden, 753 F.3d 1171 (11th Cir. 2014) ........................................11
Kimmelman v. Morrison, 477 U.S. 365 (1986) .......................................................24
Landers v. Warden, No. 13-11898, 2015 U.S. App. LEXIS 1005 (11th Cir. Jan. 23,
2015) .....................................................................................................................49
Lawhorn v. Allen, 519 F.3d 1272 (11th Cir. 2008)..................................................19
Lindstadt v. Keane, 239 F.3d 191 (2d Cir. 2001) ....................................................10
Lockett v. Ohio, 438 U.S. 586 (1978) ............................................................... 23, 37
Lockhart v. Fretwell, 506 U.S. 364 (1993) ........................................... 11, 12, 13, 14
Lucas v. Warden, Ga. Diagnostic and Classification Prison, 771 F.3d 785 (11th Cir.
2014) .....................................................................................................................26
Madison v. Comm’r, 761 F.3d 1240 (11th Cir. 2014) ..............................................49
Magill v. Dugger, 824 F.2d 879 (11th Cir. 1987)............................................. 10, 32
Martinez v. Ryan, 132 S. Ct. 1309 (2012) ....................................................... passim
McGahee v. Ala. Dep’t of Corr., 560 F.3d 1252 (11th Cir. 2009) ...........................12
Miller-El v. Cockrell, 537 U.S. 322 (2003) ...............................................................8
Payne v. Tennessee, 501 U.S. 808 (1991) ...............................................................36
Richards v. Quarterman, 566 F.3d 553 (5th Cir. 2009) ...........................................10
Romine v. Head, 253 F.3d 1349 (11th Cir. 2001) .....................................................36

* App. 163 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 8 of 61

Rompilla v. Beard, 545 U.S. 374 (2005) .......................................................... 26, 32
Skipper v. South Carolina, 476 U.S. 1 (1986) .........................................................23
Slack v. McDaniel, 529 U.S. 473 (2000) ...................................................................7
Spears v. Mullin, 343 F.3d 1215 (10th Cir. 2003) ....................................................16
Steward v. Beto, 454 F.2d 268 (5th Cir. 1971) ...........................................................7
Strickland v. Washington, 466 U.S. 668 (1984) .............................................. passim
Tennard v. Dretke, 542 U.S. 274 (2004) .................................................................23
Trevino v. Thaler, 133 S. Ct. 1911 (2013) ....................................................... passim
Tucker v. Zant, 724 F.2d 882 (11th Cir. 1984) ........................................................38
United States v. Cronic, 466 U.S. 648 (1984) .........................................................22
United States v. Young, 470 U.S. 1 (1985) ..............................................................27
Wallace v. Kemp, 581 F. Supp 1471 (M.D. Ga. 1984) ............................................37
Wiggins v. Smith, 539 U.S. 510 (2003) ............................................................. 32, 43
Williams v. Taylor, 529 U.S. 362 (2000) ......................................................... passim
Williams v. Twomey, 510 F.2d 634 (7th Cir. 1975) ..................................................22
Williams v. Washington, 59 F.3d 673 (7th Cir. 1995) ..............................................10
Wilson v. Sirmons, 536 F.3d 1064 (10th Cir. 2008) .................................................35
Wilson v. Warden, 11th Cir. Case No. 14-10681-P ..................................................11
State Cases
Braithwaite v. State, 275 Ga. 884 (2002) ................................................................38

* App. 164 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 9 of 61

Cantu v. State, 939 S.W.2d 627 (Tex. Crim.App. 1997) .........................................28
Carruthers v. State, 272 Ga. 306 (Ga. 2000) ...........................................................36
Devier v. State, 253 Ga. 604 (1984) ........................................................................30
Esposito v. State, 273 Ga. 183 (2000)..................................................................2, 33
Holland v. State, 587 So.2d 848 (Miss. 1991) .........................................................31
Livingston v. State, 264 Ga. 402 (1994) ........................................................... 28, 32
Lucas v. State, 274 Ga. 640 (2001) ..........................................................................28
McClain v. State, 267 Ga. 378 (1996) .....................................................................38
People v. Hope, 702 N.E.2d 1282 (Ill. 1998) ..........................................................28
People v. Johnson, 803 N.E.2d 403 (Ill. 2004)........................................................35
Ross v. State, 254 Ga. 22 (1985) ..............................................................................30
Schofield v. Holsey, 281 Ga. 809 (2007) .................................................................10
Sermons v. State, 262 Ga. 286 (2010)......................................................................36
State v. Cauthern, 967 S.W.2d 726 (Tenn. 1998)....................................................35
State v. Kelly, 2010 Ga. LEXIS 689 (2010).............................................................46
State v. Kelly, 302 Ga. App. 850 (2010) ..................................................................46
State v. Nesbit, 978 S.W.2d 872 (Tenn. 1998).........................................................28
State v. Whitfield, 837 S.W.2d 503 (Mo. 1992) .......................................................37
Turner v. State, 268 Ga. 213 (1997) ........................................................................28
Williams v. Warden, 487 S.E.2d 194, 200 (Va. 1997) .............................................14

* App. 165 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 10 of 61

Statutes
28 U.S.C. § 2254 .............................................................................................. passim
28 U.S.C. §2253 ............................................................................................ 1, 6, 7, 9
O.C.G.A. § 17-7-131................................................................................................22
Rules
Eleventh Circuit Rule 22-1 ....................................................................................1, 6
Federal Rule of Appellate Procedure 22(b) ...........................................................1, 6

* App. 166 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 11 of 61

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
JOHN ESPOSITO,
Petitioner-Appellant,
vs.
WARDEN,
Georgia Diagnostic Prison,
Respondent-Appellee.

)
)
)
)
)
)
)
)

Case No. 15-11384-P

APPLICATION TO EXPAND CERTIFICATE OF APPEALABILITY
COMES NOW, Appellant/Petitioner, John Esposito, by and through undersigned counsel, pursuant to 28 U.S.C. §2253, Rule 22(b) of the Federal Rules of
Appellate Procedure, and Eleventh Circuit Rule 22-1, and respectfully requests that
this Court expand the Certificate of Appealability (“COA”) granted by the district
court. For cause, Mr. Esposito shows the following:
I.

Procedural History and Statement of Facts
On September 30, 1998, Mr. Esposito was convicted in the Superior Court of

Baldwin County, Georgia,1 of one count of malice murder, one count of felony
murder, one count of armed robbery and one count of motor vehicle hijacking. The

1

This followed a change of venue from Morgan County, Georgia.

* App. 167 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 12 of 61

state proceeded to the penalty phase on the malice murder count,2 and, on October
2, 1998, the jury returned a sentence of death on that count. The court additionally
sentenced Mr. Esposito to life imprisonment on the armed robbery count and twenty
years imprisonment on the motor vehicle hijacking count.
On October 20, 2000, the Georgia Supreme Court affirmed the convictions
and sentences. Esposito v. State, 273 Ga. 183 (2000). Respondent’s Exhibit (“RX”)
26.3

The court denied Mr. Esposito’s timely motion for reconsideration on

November 30, 2000. RX 28.
After receiving an extension of time, Mr. Esposito timely filed a Petition for
Writ of Certiorari in the United States Supreme Court on April 27, 2001, which was
denied on June 25, 2001. See Esposito v. Georgia, 533 U.S. 935 (2001), rehearing
denied, 533 U.S. 970 (2001). RX 29, 31, 32.
On May 3, 2002, Mr. Esposito filed an application for writ of habeas corpus
in the Superior Court of Butts County, Georgia (“the habeas court”), RX 33, which
granted him indigent status. On November 6, 2006, he filed an amended petition
raising thirteen claims and numerous sub-claims. RX 84.

2

The felony murder count was vacated by operation of law.

Respondent’s Exhibits are numbered according to their designation in
Respondent’s Notice of Filing. See Doc. 13.
3

* App. 168 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 13 of 61

The habeas court held an evidentiary hearing on the petition on September 46, 2007, at which Mr. Esposito presented live testimony from eight witnesses:
●

Mr. Esposito’s former girlfriend, Courtney Greco Veach, whom
trial counsel had flown to Georgia from New Jersey for the
purpose of testifying at penalty, but who was left languishing
overnight at the airport when the defense team failed to pick her
up to transport her to the trial in Milledgeville and was thus never
called as a witness;

●

Dr. Jonathan L. Arden, M.D., a forensic pathologist;

●

Kenneth Blackstone, a polygraph expert retained by the defense
but not called as a witness at trial;

●

Mr. Esposito’s trial attorneys, Roy Robinson Kelly, III, and Dan
Roberts;

●

David Lisak, Ph.D., a clinical psychologist;

●

Ofelia Gordon, M.S.W., a licensed clinical social worker, who
had been retained by the defense team but was abandoned as an
expert and not used at trial;

●

Daniel Grant, Ph.D., a forensic psychologist who had been
retained by the defense team and who testified in the penalty
phase of Mr. Esposito’s trial.

See RX 90-92. Mr. Esposito also submitted affidavit testimony from numerous
witnesses familiar with the physical, mental and sexual abuse he suffered from early
childhood and throughout his youth, and his history of psychiatric hospitalizations,
and extensive records corroborating their testimony. In all, he submitted over 255
exhibits to support his habeas claims. RX 93-128. Respondent introduced 70

* App. 169 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 14 of 61

exhibits, but did not present live testimony by any witnesses. RX 129-48. After the
hearing, the parties submitted lengthy post-hearing briefs. RX 155, 157.
On April 29, 2011, the habeas court denied the petition for writ of habeas
corpus in its entirety. RX 162. The habeas court denied two claims on the merits:
Claim I (alleging ineffective assistance of counsel at trial and on direct appeal) and
Claim X (challenging penalty phase jury instructions). RX 162:12-42. It otherwise
ruled that Mr. Esposito’s claims were res judicata or procedurally defaulted. The
Georgia Supreme Court denied Mr. Esposito’s application for a certificate of
probable cause to review this ruling on March 19, 2012.
Mr. Esposito timely filed his federal petition for writ of habeas corpus (“the
petition”) on May 8, 2012, in the United States District Court for the Middle District
of Georgia. Doc. 1. Upon motion by Mr. Esposito (Doc. 2-3), the court appointed
undersigned counsel, Brian Kammer, and Kirsten Salchow,4 and declared Mr.
Esposito indigent for purposes of this action, Doc. 9. On May 21, 2012, Respondent
filed an answer-response to the petition. Doc. 10. On August 3, 2012, the court
issued a scheduling order, Doc. 31, pursuant to which Mr. Esposito filed motions for

The court subsequently allowed undersigned counsel, Marcia Widder, to
substitute for Ms. Salchow. Doc 43, 47, 48, 50, 51.
4

* App. 170 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 15 of 61

leave to conduct discovery, Doc. 31, and for an evidentiary hearing, Doc. 38, which
the district court denied, Docs. 37, 42.
Mr. Esposito timely filed his brief addressing both procedural issues and the
merits on November 4, 2013, Doc. 54, and was allowed to file a corrected brief, Doc.
56, on November 6, 2013. Respondent filed a responsive brief, Doc. 57, on
December 19, 2013, and Mr. Esposito filed a Reply Brief, Doc. 58, on January 21,
2014.
Shortly after the close of briefing and prior to the district court’s ruling on the
habeas petition, Mr. Esposito filed under seal a renewed motion for evidentiary
hearing based on newly discovered evidence concerning lead trial counsel’s
prosecution for possession of child pornography.5 Doc. 62. The district court denied
the motion on August 29, 2014. Doc. 65.
On December 10, 2014, the district court issued an order denying the petition
for writ of habeas corpus, but granting a COA on the following issues: “Whether
trial counsel were ineffective in failing to investigate and present evidence to support

The renewed motion for evidentiary hearing was based on evidence obtained
entirely from public records. See Doc. 60 and accompanying CD. Due to the nature
of the charges against Mr. Kelly, Mr. Esposito sought leave to litigate the motion
under seal, see Docs. 59, 61, as a matter of courtesy. Because there is no ethical
requirement to litigate this issue under seal, and because to do so here would be
considerably more complicated, Mr. Esposito will not seek to have those aspects of
the case addressing the district court’s denial of his motion for a hearing, Doc. 65,
conducted under seal in this Court.
5

* App. 171 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 16 of 61

their defense theories that Esposito was less culpable tha[n] Woodward and that his
personal history of abuse and mental illness was mitigating.” Doc. 67, at 88.

It

denied Mr. Esposito’s Rule 59(e) motion on March 3, 2015. Docs. 69, 70.
Mr. Esposito now asks this Court to expand the COA to include the district
court’s rulings on the remaining challenges to trial counsel’s ineffective
representation, his challenge to the prosecutor’s misconduct, the district court’s
failure to hold a hearing to determine whether any procedurally defaulted claims of
ineffective representation of counsel at trial and on appeal should be excused due to
state post-conviction counsel’s ineffective representation, and the district court’s
denial of Mr. Esposito’s request for a hearing to address how counsel’s prurient and
illegal interests impacted counsel’s performance and undermine the credibility of
counsel’s testimony in the state habeas proceedings.
II.

Standards for Issuance of a COA.
Under 28 U.S.C. §2253, a federal habeas corpus petitioner may not appeal the

denial of habeas relief without the issuance of a COA. Rather, in a federal habeas
corpus proceeding arising out of a state court conviction, “an appeal by the applicant
for the writ may not proceed unless a district or a circuit judge issues a certificate of
appealability.” F.R.A.P. 22(b). This Court’s rules allow a petitioner to request a
COA from the court of appeals if the district court denies a COA. 11th Cir. Rule 221(c)(2).

This Court has written that “under the plain language of the rule

* App. 172 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 17 of 61

[Fed.R.Civ.P. 22(b)], an applicant for the writ gets two bites at the appeal certificate
apple: one before the district judge, and if that one is unsuccessful, he gets a second
one before a circuit judge.” Hunter v. United States, 101 F.3d 1565, 1575 (11th Cir.
1996) (en banc).
COAs should issue for each issue regarding which the petitioner makes a
“substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
They are likewise appropriate where constitutional claims have been dismissed on
procedural grounds. Slack v. McDaniel, 529 U.S. 473 (2000); Henry v. Moore, 197
F.3d 1361 (11th Cir. 1999).
The standard for granting COA under AEDPA is “materially identical” to that
under pre-AEDPA law. Hardwick v. Singletary, 126 F.3d 1312, 1313 (11th Cir.
1997). Prior to AEDPA, the petitioner was required to make “‘a substantial showing
of the denial of [a] federal right.”’ Barefoot v. Estelle, 463 U.S. 880, 893 (1983)
(quoting Steward v. Beto, 454 F.2d 268, 270 n.2 (5th Cir. 1971)).

The Barefoot

standard does not require the petitioner show he should prevail on the merits.
Barefoot, 463 U.S. at 893 n.4. Rather, it has long been understood as a formulation
of the nonfrivolity standard. Under that standard, a petitioner was entitled to
issuance of a certificate of probable cause – and therefore Mr. Esposito is entitled
under AEDPA to the issuance of COA – where “reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a

* App. 173 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 18 of 61

different manner or that the issues presented were ‘adequate to deserve
encouragement to proceed further,’” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003),
or when a claim is not “squarely foreclosed by statute, rule or authoritative court
decision.” Barefoot, 463 U.S., at 893 n.4 (emphasis added). “In a capital case, the
nature of the penalty is a proper consideration in determining whether to issue a
certificate of probable cause . . .” Id. at 893.
III.

Grounds for Expanding the COA.
The district court granted a COA on two subparts of Mr. Esposito’s claim that

he received ineffective assistance of counsel (“IAC”) at the sentencing phase of trial:
“Whether trial counsel were ineffective in failing to investigate and present evidence
to support their defense theories that Esposito was less culpable tha[n] Woodward
and that his personal history of abuse and mental illness was mitigating.” Doc. 67,
at 88. Mr. Esposito asks that this Court expand the COA to include the following
additional meritorious issues:
1. Whether the district court erred in ruling that Mr. Esposito was not entitled
to sentencing relief due to trial counsel’s ineffective representation in (a) making an
inadequate penalty phase summation, (b) failing to object to the admissibility of
prejudicial evidence or to the prosecutor’s improper examination and argument, and
(c) failing to object to an extrajudicial crime scene visit by jurors;

* App. 174 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 19 of 61

2. Whether the district court erred in ruling that Mr. Esposito was not entitled
to relief due to the prosecutor’s improper conduct and argument in the sentencing
phase;
3. Whether the district court erred in denying an evidentiary hearing to
address (a) whether procedurally defaulted claims of ineffective representation of
counsel should be excused under Martinez v. Ryan, 132 S. Ct. 1309 (2012), and
Trevino v. Thaler, 133 S. Ct. 1911 (2013); and (b) whether trial counsel’s illegal
prurient interests in young children, as reflected by his extensive collection of illegal
hardcore child pornography (as well as his extensive collection of hardcore legal
pornography), negatively impacted his investigation and presentation of Mr.
Esposito’s history of child sexual abuse and whether these proclivities undermine
counsel’s credibility in the state habeas proceedings.
For each claim Mr. Esposito has made a substantial showing of denial of a
constitutional right and he is thus entitled to a COA on each of the grounds discussed
below. See 28 U.S.C. § 2253(c) (2); Barefoot, 463 U.S. at 893.
A.

Sentencing Phase IAC – Claim One Of The Federal Petition.

The district court granted COA on two aspects of ineffective representation of
counsel (“IAC”) raised in the petition, but denied COA on several other challenged
acts and omissions of counsel. Because reasonable jurists could disagree with the
district court’s denial of relief as to the remaining aspects of Mr. Esposito’s IAC

* App. 175 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 20 of 61

claim, and because prejudice under Strickland v. Washington, 466 U.S. 668 (1984),6
should be assessed on the basis of the cumulative effect of counsel’s deficiencies,7 a
COA should issue to address the remaining IAC claims impacting sentencing, as
discussed below.
1.

Reasonable jurists could disagree with the district
court’s conclusion that AEDPA deference applies to
the IAC claim, given the state habeas court’s

Under Strickland, a defendant must show that counsel performed deficiently
under prevailing professional norms and that counsel’s deficient performance
prejudiced the defense. 466 U.S. at 687. Strickland prejudice is established by
showing that, “there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694.
6

As this Court recently observed, Strickland prejudice may be found “by the
alleged deficiencies in counsel’s performance, considered cumulatively.” Burgess
v. Terry, 478 F.3d. Appx. 597, 601 (11th Cir. 2012) (citing Strickland, 466 U.S. at
694-97); see also Magill v. Dugger, 824 F.2d 879, 889 (11th Cir. 1987) (“The
combination of Pierce’s errors during the guilt phase, Stancil’s errors during the
penalty phase, and the trial court’s instruction to the jury to ignore certain
nonstatutory mitigation evidence . . . undermine our confidence in the reliability of
Magills’s sentencing proceeding). Numerous other circuit courts have held that
prejudice under Strickland should be assessed on the basis of the combined effects
of counsel’s deficiencies. See, e.g., Richards v. Quarterman, 566 F.3d 553, 564 (5th
Cir. 2009); Goodman v. Bertrand, 467 F.3d 1022, 1030 (7th Cir. 2006); Boyd v.
Brown, 404 F.3d 1159, 1176 (9th Cir. 2005); Cargle v. Mullin, 317 F.3d 1196, 1212
(10th Cir. 2003); Lindstadt v. Keane, 239 F.3d 191, 199 (2d Cir. 2001); Williams v.
Washington, 59 F.3d 673, 682 (7th Cir. 1995). The Georgia Supreme Court requires
such review as well. See Schofield v. Holsey, 281 Ga. 809, 811 n.1 (2007) (“The
Supreme Court of the United States has held that it is the prejudice arising from
‘counsel’s errors’ that is constitutionally relevant, not that each individual error by
counsel should be considered in a vacuum. . . . [T]he combined effects of trial
counsel’s errors should be considered together as one issue . . . .”).
7

* App. 176 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 21 of 61

unreasonable application of governing Supreme Court
law.
As an initial matter, a COA should issue to allow this Court’s review of all
Mr. Esposito’s sentencing phase IAC claims because reasonable jurists could
disagree with the district court’s determination that the state court’s denial of relief
was entitled to deference under 28 U.S.C. § 2254(d).8
The state habeas court made a significant legal error in its consideration of
prejudice with respect to Mr. Esposito’s sentencing phase IAC claim. It concluded
that the Supreme Court’s decision in Lockhart v. Fretwell, 506 U.S. 364 (1993),
modified Strickland’s prejudice prong. RX 162:15. Reasonable jurists could
conclude that this determination was an unreasonable application of clearly

Mr. Esposito acknowledges that under this Court’s decisions in Hittson v.
GDCP Warden, 759 F.3d 1210 (11th Cir. 2014), and Jones v. GDCP Warden, 753
F.3d 1171 (11th Cir. 2014), the state habeas court’s reasoning is not relevant because
the Court will instead defer to the Georgia Supreme Court’s summary denial of a
certificate of a certificate of probable cause. The district court so held, but addressed
the district court’s reasoning in the alternative. See Doc. 67, at 13-23, 43-44. As the
Court is aware, it is currently considering the continued validity of the Jones/Hittson
approach. See Order dated March 19, 2015, in Wilson v. Warden, 11th Cir. Case No.
14-10681-P. In addition, the Supreme Court appears to be interested in this issue,
as it has asked for the record in Hittson v. GDCP Warden, Sup. Ct. Case No. 148589. See Letter dated April 23, 2015, from Supreme Court to this Court, filed in
Hittson v. GDCP Warden, 11th Cir. Case No. 12-16103-P.
8

* App. 177 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 22 of 61

established federal law and that, accordingly, deference was not due the state court’s
decision.9
The Supreme Court held in Williams v. Taylor, 529 U.S. 362 (2000), that the
state court “erred in holding that our decision in Lockhart . . . modified or in some
way supplanted the rule set down in Strickland.” Id. at 391. Because the Virginia
Supreme Court had erroneously applied Lockhart in its prejudice analysis, its
determination that petitioner had failed to establish Strickland prejudice was an
unreasonable application of governing law and its decision was not entitled to
deference under 28 U.S.C. 2254(d)(1). Id. at 397. The state habeas court made the
same mistake here, observing:
The Supreme Court in Lockhart further defined the “prejudice”
component of Strickland, holding that “an analysis focusing solely on
mere outcome determination, without attention to whether the result of
the proceeding was fundamentally unfair or unreliable, is defective. To
set aside a conviction or sentence solely because the outcome would
have been different but for counsel's error may grant the defendant a
windfall to which the law does not entitle him.” Lockhart, 506 at 369,
370.
RX 162:15.

“Where [a federal court] determine[s] that a state court decision is an
unreasonable application of federal law under 28 U.S.C. § 2254(d), [the court is]
unconstrained by § 2254’s deference and must undertake a de novo review of the
record.” McGahee v. Ala. Dep’t of Corr., 560 F.3d 1252, 1266 (11th Cir. 2009)
(citing Williams, 529 U.S., at 406).
9

* App. 178 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 23 of 61

The district court, however, posited that the state habeas court’s discussion of
Fretwell was essentially surplasage that could be ignored. It concluded that “the
state habeas court referenced Lockhart in its general discussion, but it conducted a
straightforward Strickland analysis when it addressed each of Esposito’s ineffective
assistance allegations,” and “[u]nlike the Virginia Supreme Court, it did not find trial
counsel’s ‘ineffectiveness probably affected the outcome of the proceeding, and then
conduct a separate inquiry into fundamental fairness.” Doc. 67, at 18. The district
court, however, was wrong on both counts.10
First, the district court’s conclusion that the state habeas court’s express
reliance on Lockhart was immaterial because, unlike the Virginia Supreme Court,
the state habeas court in fact applied a straight-up Strickland prejudice analysis
ignores what happened in Williams. Indeed, the Williams’ dissent made this precise
argument,11 and both the majority and concurring opinions rejected it. See Williams,

The district court also observed that the Lockhart reference was immaterial
because the state habeas court “clearly stated that its prejudice analysis was governed
by Strickland and its progeny.” Doc. 67, at 16. This observation is curious, as
Lockhart was an application of Strickland, see Lockhart, 506 U.S., at 366, and thus
is one of Strickland’s “progeny.”
10

See Williams, 529 U.S., at 417-18 (Rehnquist, Ch.J., dissenting) (arguing
that “after the initial allusion to Lockhart, the Virginia Supreme Court’s analysis
explicitly proceeds under Strickland alone” and accordingly the Virginia Supreme
Court did not rely on Fretwell in finding no prejudice and “instead appropriately
relied on Strickland”).
11

* App. 179 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 24 of 61

529 U.S., at 414 (noting the dissenting opinion’s observation that the Virginia
Supreme Court “also inquire[d] whether Williams had demonstrated a reasonable
probability that, but for his trial counsel’s unprofessional errors, the result of his
sentencing would have been different,” but concluding that “[i]t is impossible to
determine, however, the extent to which the Virginia Supreme Court’s error with
respect to its reading of Lockhart affected its ultimate finding that Williams suffered
no prejudice”) (O’Connor, J., concurring in part).12
Second, the district court’s observation that Williams does not apply because,
unlike here, the Virginia Supreme Court engaged in a two-step analysis, first
“find[ing] trial counsel’s ‘ineffectiveness probably affected the outcome of the
proceeding, and then conduct[ing] a separate inquiry into fundamental fairness,”
Doc. 67, at 18, has no actual support in reality. See Williams v. Warden, 487 S.E.2d
194, 200 (Va. 1997) (prejudice analysis finding, under Strickland, “there is no
reasonable probability that the omitted evidence would have changed the conclusion
that the aggravating circumstances outweighed the mitigating circumstances and,
hence, the sentence imposed.”) (quoting Strickland, 466 U.S. at 700).

Part II of Justice O’Connor’s opinion delivered the Court’s opinion
regarding the meaning of 28 U.S.C. 2254(d). See 529 U.S., at 402-13.
12

* App. 180 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 25 of 61

As in Williams, it is “impossible to determine” the extent to which the state
habeas court’s error with respect to its reading of Lockhart affected its ultimate
conclusion that Mr. Esposito was not prejudiced by his attorneys’ deficient
performance.13 Accordingly, reasonable jurists could disagree with the district court
that the state habeas court’s reliance on Fretwell had no bearing on the
reasonableness of the state court’s decision.14 See, e.g., West v. Bell, 550 F.3d 542,

The district court’s reasoning also reflects a fundamental misunderstanding of the Williams decision. The Williams Court did not criticize the Virginia
Supreme Court for requiring a showing that the trial was “fundamentally unfair or
unreliable.” That language comes from Strickland and remains a touchstone of
Strickland’s prejudice analysis. See Strickland, 466 U.S., at 686 (“[T]he ultimate
focus of the [prejudice] inquiry must be on the fundamental fairness of the
proceeding whose result is being challenged. In every case the court should be
concerned with whether . . . the result of the particular proceeding is unreliable
because of a breakdown in the adversarial process that our system counts on to
produce just results.”). See also Williams, 529 U.S., at 393 n. 17 (“[T]he ‘prejudice’
component of the Strickland test . . . focuses on the question whether counsel’s
deficient performance renders the result of the trial unreliable or the proceeding
fundamentally unfair.”) (quoting Strickland, 466 U.S., at 686). The Virginia
Supreme Court’s comments about fundamental fairness and reliability were thus not
themselves an “unreasonable” departure from Strickland; rather, it was the court’s
conclusion that the likely effect on the outcome was not the actual focus of the
prejudice inquiry.
13

The state habeas court’s prejudice analysis also suffers from another error
made by the Virginia Supreme Court in Williams: Its prejudice analysis “failed to
evaluate the totality of the available mitigating evidence – both that adduced at trial,
and the evidence adduced in the habeas proceeding – in reweighing it against the
evidence in aggravation.” Williams, 529 U.S., at 397-98. Rather, the state habeas
court conducted a prejudice analysis with respect to only a few subparts of Mr.
Esposito’s ineffective-assistance-of-counsel claim and did not contemplate the
aggregate evidence that was precluded as a result of counsel’s deficient performance,
14

* App. 181 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 26 of 61

553 (6th Cir. 2008); Goodman v. Bertrand, 467 F.3d 1022, 1028 (7th Cir. 2006);
Spears v. Mullin, 343 F.3d 1215, 1248 (10th Cir. 2003) (citing Williams, 529 U.S. at
391-95)).15
2.

Reasonable jurists could disagree that the state court
reasonably found that counsel were effective in making
a 4-page sentencing phase summation that failed to
counter the prosecutor’s predictably strong closing
argument, did not discuss the mitigation evidence
presented, and provided no compelling reason for
jurors to impose a sentence less than death.

The district court acknowledged that trial counsel’s penalty phase closing
argument “can certainly be criticized” as it was “brief” and “undoubtedly could have
placed more emphasis on ‘Esposito’s upbringing and psychiatric history,”

much less aggregate the totality of that evidence with the trial evidence when
determining the impact on the jury’s sentencing determination. See, e.g., RX 162,
at 26 (finding no prejudice from failure to present the testimony of Dr. Lower and
Courtney Greco Veach); id. at 32 (finding no prejudice from counsel’s presentation
of mental health evidence); id. at 41 (finding no prejudice from jury’s extrajudicial
crime scene visit).
This was not the only significant and unreasonable application of governing
Supreme Court law. The state habeas court also approved trial counsel’s
justification for failing to present evidence that Mr. Esposito was less culpable than
his co-defendant, such as forensic evidence undermining the reliability of his
confession, and evidence of the co-defendant’s domineering personality – that they
feared opening the door to a videotaped confession the trial court had suppressed.
Counsel’s decision was based on their apparent ignorance of clearly established
Supreme Court law and the state habeas court’s conclusion that counsel performed
reasonably in this regard was an unreasonable application of law. See Doc. 56, at
36-41; Doc. 58, at 27-33.
15

* App. 182 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 27 of 61

(inasmuch as counsel’s entire discussion of Mr. Esposito’s background mitigation
consisted of the observation that “this young man has a lots [sic] of problems”). Doc.
67, at 74-75. Nonetheless, the court concluded, defense counsel
did explain to the jury that Esposito’s “problems” were mitigating and
he did plead with them to spare Esposito’s life. Given AEDPA
deference, this Court cannot find the state habeas court’s decision that
counsel performed reasonably and Esposito was not prejudiced
involved an unreasonable application of Strickland or was based on any
unreasonable determinations of fact. . . . The Georgia Supreme Court
could reasonably have determined that Esposito failed to show that, but
for Kelly’s closing argument, the result of his sentencing proceedings
would have been different.” Given the important role of counsel at
closing and the record evidence indicating that trial counsel abandoned
their plan to present a more robust closing argument, likely because
their ill-prepared sentencing phase defense had crumbled, reasonable
jurists could disagree with the district court’s conclusions.
Doc. 67, at 75-76.
Mr. Kelly’s notes reflect he planned to present a penalty summation focused
on the mitigating evidence the defense had presented. See RX147, at 16693.16
Instead, counsel simply abandoned this plan.

Counsel’s notes outline a closing argument focused on Mr. Esposito’s childhood
privations and abuse, and his substantial mental health issues:
16

VI John’s childhood
A. Follower
B. facts proved that

* App. 183 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 28 of 61

Mr. Esposito had the right to be effectively represented during closing
arguments. Hunter v. Moore, 304 F.3d 1066, 1069-70 (11th Cir. 2002). He was
denied that right through his attorneys’ failure to “make a proper argument on the
evidence and the applicable law in his favor.’” Herring v. New York, 422 U.S. 853,
858 (1975) (citation omitted).
The entire defense closing argument comprises just over four pages of
transcript, RX 20, at 174-78, one-sixth’s of the length of the State’s, RX 20, at 14974. More importantly, the prosecutor gave an impassioned summation discussing
the evidence and enumerating several specific reasons why the jury should sentence
Mr. Esposito to death. The defense, in comparison, made minimal reference to the
mitigating circumstances, made only a lukewarm plea to spare Mr. Esposito’s life,
and played into the prosecutor’s argument that Mr. Esposito was a con man who was
trying to con the jury, by suggesting that even counsel had no idea who their client

Abandoned by mother
Abused [by] stepfather – Althea Holt
C. Nothing works for me – psychiatric nurse Annette Nolan
D. Serious problems
RX 147, at 16693.

* App. 184 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 29 of 61

was. See RX 20:175 (“Maybe you have felt like I have sometimes during this case.
Will the real John Esposito please stand up?”).
Defense counsel’s closing argument did not address the chosen defense (lesser
culpability, mental health and redeeming qualities) and gave jurors no cogent reason
to impose a sentence less than death. “Deficient performance is demonstrated by an
attorney’s failure to use the closing argument to focus the jury’s attention on his
client’s character or any mitigating factors of the offender’s circumstances . . . .”
Lawhorn v. Allen, 519 F.3d 1272, 1295 (11th Cir. 2008). See also Herring, 422
U.S. at 862 (closing argument “serves to sharpen and clarify the issues for resolution
by the trier of fact,” is only time counsel “can . . . argue the inferences to be drawn
from all the testimony, and point out the weakness of their adversaries’ positions”;
it is “the last clear chance to persuade the trier of fact”).17 Mr. Esposito’s attorneys
failed to take advantage of this opportunity and left the jury without any reasoned
basis to resist the prosecutor’s focused argument for execution. The state habeas
court’s blithe acceptance of trial counsel’s abjectly dismal performance was patently

See also Williams, 529 U.S. at 399 (different result reasonably probable had
“competent counsel ... presented and explained the significance of all the available
[mitigating] evidence.”).
17

* App. 185 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 30 of 61

unreasonable and contrary to the law and facts, and reasonable jurists could disagree
with the district court’s conclusion to the contrary.18
3.

Reasonable jurists could disagree with the district
court’s determination that counsel reasonably failed to
object to a host of inadmissible evidence and improper
examination and argument by the prosecutor at
sentencing.

Defense counsel did little to ensure that Mr. Esposito’s rights to a fair trial and
reliable sentence were honored at trial. They did not object to clearly improper
evidence elicited or introduced by the prosecution, and simply ignored the
prosecutor’s grossly improper cross-examination and closing arguments. The state
habeas court concluded counsel performed adequately because they had challenged
the admissibility of Mr. Esposito’s custodial statements and evidence of the Sniders’
murders. See RX 162, at 35. The court’s rationale that competent counsel may
ignore the admission of blatantly improper evidence or prosecutorial overreaching
simply because they make an effort to challenge a few other items of evidence defies
understanding. Counsel’s failure to ensure that the jury heard only competent and

Indeed, the district court cannot reasonably have it both ways, concluding
that counsel’s lackluster mitigation presentation was constitutionally adequate, but
that counsel had no obligation to assemble the evidence they presented into a cogent
argument for a sentence less than death.
18

* App. 186 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 31 of 61

proper evidence and argument alone warrants relief, and reasonable jurists could
disagree with the district court’s contrary finding.
a.

Counsel were ineffective in failing to object to the
prosecutor’s improper questioning of defense
witnesses.

What little mitigating evidence the jury heard likely received little
consideration because defense counsel failed to prevent the prosecution from
defining it as irrelevant through its cross-examination of Mr. Esposito’s mental
health expert and in closing argument.19 Moreover, through improper questioning,
the prosecutor was permitted to introduce unsubstantiated and inadmissible evidence
in aggravation.
The prosecutor’s actions were not proper advocacy. Rather, they directly
violated fundamental Eighth and Fourteenth Amendment law and should have been
the subject of defense objections. Instead, the defense attorneys stood mutely by,

Indeed, the Report of the Trial Judge reflects that even the judge was
persuaded by the prosecutor that the defense had not presented any mitigating mental
health evidence. See RX 1:447 (the only mitigating circumstances in evidence were
the defendant’s lack of significant prior criminal activity and youth). Moreover, the
trial court also observed that “Dr. Daniel H. Grant testified at trial that the defendant
suffered from anti-social personality disorder,” RX 1, at 445, although Dr. Grant
made no such diagnosis and testified that Mr. Esposito had borderline personality
disorder, NOS (not otherwise specified), with features of post-traumatic stress
disorder. RX 20, at 124-25. See also RX 92, at 493.
19

* App. 187 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 32 of 61

allowing their client’s most basic right to a reliable and rational sentence to be
obliterated.20
(1)

Improper cross-examination of Dr. Grant.

During the cross-examination of Dr. Grant, the prosecutor pulled out a statute
book and asked, repeatedly, whether Mr. Esposito’s psychiatric problems fit within
the legal definition of mental illness set forth in O.C.G.A. § 17-7-131. RX 20, at
121, 123-24, 129-30, 136-37. The prosecutor’s badgering of Dr. Grant on this point
was improper, particularly as this line of questioning had nothing to do with the
mitigating value of the evidence. O.C.G.A. § 17-7-131 is the statute that governs
“proceedings upon plea of insanity or mental incompetency at trial of crime.” It
includes a definition of the term “mentally ill” for purposes of the guilt-phase
determination of whether a criminal defendant is “guilty but mentally ill at the time
of the crime.” See § 17-7-131(a) (2), (b)(1)(D). The statute does not define relevant
mitigating evidence in the sentencing phase of a capital crime and, in fact, is
completely at odds with that definition under both United States Supreme Court
jurisprudence and Georgia law.

“’While a criminal trial is not a game in which the participants are expected
to enter the ring with a near match in skills, neither is it a sacrifice of unarmed
prisoners to gladiators.’” United States v. Cronic, 466 U.S. 648, 657 (1984)(quoting
U.S. ex rel. Williams v. Twomey, 510 F.2d 634, 640 (7th Cir. 1975)).
20

* App. 188 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 33 of 61

“[T]he ‘Eighth Amendment requires that the jury be able to consider and give
effect to’ a capital defendant’s mitigating evidence.” Tennard v. Dretke, 542 U.S.
274, 285 (2004) (citations omitted). While “[t]he sentencer ... may determine the
weight to be given relevant mitigating evidence[, it] may not give it no weight by
excluding such evidence from [its] consideration.” Eddings v. Oklahoma, 455 U.S.
104, 115 (1982).

In determining relevance, “the question is simply whether the

evidence is of such a character that it ‘might serve’ as a basis for a sentence less than
death.” Tennard, 542 U.S. at 287 (quoting Skipper v. South Carolina, 476 U.S. 1, 5
(1986)). See, e.g., Lockett v. Ohio, 438 U.S. 586, 604 (1978) (sentence may “not be
precluded from considering, as a mitigating factor, any aspect of a defendant’s
character or record or any of the circumstances of the offense that the defendant
proffers as a basis for a sentence less than death.”) (emphasis original).21
The prosecutor’s improper examination of Dr. Grant prevented the jury from
giving meaningful effect to Mr. Esposito’s mitigating evidence and resulted in a
death sentence that was not a “reasoned moral response” to the evidence. Trial
counsel’s failure to object this improper cross-examination was deficient and

Georgia, moreover, “provides a defendant with more protection than that
provided under Lockett, and a trial court ‘should exercise . . . broad discretion in
allowing any evidence reasonably tending toward mitigation.’” Barnes v. State, 269
Ga. 345, 359 (1998).
21

* App. 189 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 34 of 61

prejudicial, and suggests a startling ignorance of the law.22 The state court’s finding
to the contrary was contrary to and/or an unreasonable application of Strickland.
See, e.g., Kimmelman v. Morrison, 477 U.S. 365, 385 (1986) (counsel’s
unreasonable failure to know and give effect to the law constituted deficient
performance).
(2)

Improper examination of other witnesses,
which included improper testifying by the
prosecutor and improper bolstering of the
testimony

The prosecutor engaged in improper cross examination of other defense
penalty phase witnesses, in which he questioned them about prejudicial matters that
were extraneous to the witness’s direct examination and wholly irrelevant to the
case. Additionally, the prosecutor questioned defense witnesses so as to testify
himself about matters that were not substantiated by the evidence and whose purpose
was to inflame the jury. Trial counsel uttered nary a peep in objection.
For example, while cross-examining John Crain, who had taught Mr. Esposito
in middle school, the prosecutor insinuated that Mr. Esposito was an outcast who

The district court’s unsupported suggestion that perhaps counsel did not
object because they “did not want to emphasize Grant’s ‘personality disorder, nos’
diagnosis,” Doc. 67, at 54, hardly justifies counsel’s conduct, as their failure to
object to this improper cross allowed it to go on for pages of the transcript. See RX
20:121, 123-24, 129-30, 136-37.
22

* App. 190 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 35 of 61

did not fit in with the mixed race classroom because he was a racist, a suggestion
that was unsupported, irrelevant and highly prejudicial, RX 19:358-59; and that his
father had ties to the Italian Mob, an issue that had no bearing on the case, RX
19:368-74. The prosecutor twisted Mr. Crain’s words to make it appear he was
saying that witnesses who could have provided testimony favorable to the State were
scared to testify for fear of reprisal from the mob, whereas Crain was actually
testifying that witnesses who had information that would be helpful to Mr. Esposito
were nonetheless afraid to testify for fear that their efforts would backfire. See RX
19:370-74. None of this evidence was relevant to the proceedings, but it was clearly
very harmful. Counsel’s failure to object permitted this extended testimony to
continue and implicitly validated it as an appropriate topic of inquiry.
The prosecutor also, in the guise of cross-examining witnesses, essentially
testified about unsubstantiated, prejudicial matters. For example, he questioned Mr.
Crain about a motion for a temporary restraining order filed by Mr. Esposito’s
mother (a document Crain had never seen) in which she purportedly alleged that Mr.
Esposito had “been into devil worship since age 12,” RX. 19:381, inadmissible
hearsay allegations the prosecutor did not substantiate. The prosecutor engaged in
similar tactics when examining Althea Holt, see RX 20:9-10. See also RX 20:31,
34 (improper questioning of Annette Nolan suggesting without substantiation that
Mr. Esposito “did not allow Lola Davis to pray before he beat her to death,” and that

* App. 191 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 36 of 61

he “didn’t give Mr. Snider or Mrs. Snider the opportunity to pray before he beat
them”). Yet no objection was uttered by trial counsel, in clear contravention of
counsel’s duty to push back against obviously aggravating and inadmissible
evidence. See, e.g., Rompilla v. Beard, 545 U.S. 374, 386 n.5 (2005) (noting
counsel’s duty to rebut aggravating evidence encompasses but also goes beyond
efforts to exclude it).
More than 75 years ago, the Supreme Court condemned the tactics employed
by Mr. Esposito’s prosecutor in this case. See Berger v. United States, 295 U.S. 78,
84 (1935) (prosecutor “overstepped the bounds of . . . propriety and fairness” by,
among other things, “suggesting by his questions that statements had been made to
him personally out of court in respect of which no proof was offered”). See also
Lucas v. Warden, Ga. Diagnostic and Classification Prison, 771 F.3d 785, 804 (11th
Cir. 2014) (“A prosecutor may not ‘misstat[e] the facts in his cross-examination of
witnesses’ or ‘assum[e] prejudicial facts not in evidence.’”) (quoting Berger, 295
U.S. at 84); Harris v. Spears, 606 F.2d 639, 642 (5th Cir. 1979) (prosecutor failed
“to provide appropriate evidentiary foundation for the cross-examination” of
defendant, in which he confronted defendant with statements supposedly made by a
witness, but then failed to call the witness); Booker v. Wainwright, 703 F.2d 1251,
1259 n.16 (11th Cir. 1983) (explaining that the confrontation clause error addressed
in Harris “occurred . . . when the [witness] was not called”). The state habeas court

* App. 192 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 37 of 61

contravened and/or unreasonably applied Strickland in finding counsel’s
performance non-deficient in this respect and reasonable jurists could disagree with
the district court’s approval of that conclusion.23
(3)

Improper victim impact evidence in the
penalty phase of trial.

Prior to trial, defense counsel filed two motions seeking to prevent the
prosecution from introducing excessive victim impact evidence. See RX 1:109-113;
RX 1:272-94. At a hearing on the motions, the prosecutor stated it was not his policy
to present victim impact evidence and that he would not be doing so, but would
notify the defense if his position changed. RX 5:4. See also RX 1, at 25 (prosecutor
reiterating that he had no intention of presenting victim impact evidence).

Defense counsel also failed to object to the prosecutor’s improper
questioning of the state’s own witnesses, whereby the prosecutor, through irrelevant
commentary, vouched for the credibility of his witnesses and, by having his
witnesses repeat especially prejudicial testimony for emphasis, inflamed the jury’s
passions. See, e.g., RX 19:159, 159-60, 163, 137 (bolstering credibility of Texas
Ranger’s testimony by virtue of his status); RX 18:223, 231-33, 235 (emphasizing
particularly aggravating evidence by improperly asking witness to repeat their
testimony). These tactics were improper and in violation of the prosecutor’s
professional and ethical duties. Prosecutors are forbidden from commenting on the
credibility of a witness or personally vouching for a witness’s credibility. United
States v. Young, 470 U.S. 1, 17-19 (1985); Berger, 295 U.S. at 86-88 (finding the
prosecutor’s statement that he personally knew a witness was lying amounted to
egregious prosecutorial misconduct).
23

* App. 193 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 38 of 61

Contrary to his representations on November 17, 1997, and with no notice to
the defense, the prosecutor proceeded to deploy substantial, highly inflammatory
victim impact evidence in both the guilt24 and the penalty phases of trial.25 Yet
defense counsel, who had clearly sought to prevent the admission of such evidence,
stood mutely by – and then shockingly acquiesced in the notion that no victim impact
evidence had been presented, so no jury charge regarding its consideration should
be given, see RX 20:143. As a result, the jury heard inadmissible victim impact
evidence during the guilt phase and improper victim impact evidence during the
penalty phase, and did not receive the mandatory instruction regarding the proper
consideration of such evidence. See Turner v. State, 268 Ga. 213, 215 (1997) (in

See RX 16:65-68, 115-17. Georgia law is clear that “evidence regarding
‘the victim’s personal characteristics and the emotional impact of the crime on the
victim, the victim’s family, or the community” in a death penalty trial . . . is
admissibly only ‘subsequent to an adjudication of guilt.’” Lucas v. State, 274 Ga.
640, 643 (2001).
24

The prosecutor introduced extensive victim impact evidence regarding the
victims of the unadjudicated murder introduced as non-statutory aggravation. See,
e.g., RX 19:6-7, 10-11, 25-32-34, much of which addressed the victims’
involvement in their church, a topic that was later exploited by the prosecutor in
closing argument, see RX 20:162-63, 166, 168-72. This evidence unnoticed, in
violation of state law requiring notice and a hearing on its admissibility. See
Livingston v. State, 264 Ga. 402, 405 (1994). Moreover, as numerous courts have
held, extraneous victim impact evidence is not admissible in the penalty phase of a
capital trial. See, e.g. See, e.g., People v. Hope, 702 N.E.2d 1282, 1288 (Ill. 1998);
Cantu v. State, 939 S.W.2d 627, 637 (Tex. Crim.App. 1997); State v. Nesbit, 978
S.W.2d 872, 891 (Tenn. 1998).
25

* App. 194 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 39 of 61

light of importance of jury’s capital sentencing decision, “in future cases in which
victim impact evidence is given in the sentencing phase of a death penalty . . . case,
the trial court should instruct the jury regarding the purpose of victim impact
evidence”). Counsel’s failure to object to this patently inadmissible evidence and to
the prosecutor’s blatant misconduct is inexplicable. Their performance in this regard
was deficient and prejudicial. The state habeas court’s finding to the contrary
unreasonably applied, and/or was manifestly contrary to clearly established federal
law.
Despite the patent and prejudicial nature of counsel’s deficient performance
in failing to object to the penalty phase victim impact testimony, state postconviction counsel did not address this specific claim in Mr. Esposito’s CPC
application to the Supreme Court of Georgia, and the district court ruled the claim
was unexhausted. It did not address, however, Mr. Esposito’s request that, pursuant
to Martinez v. Ryan, 132 S. Ct. 1309 (2012), and Trevino v. Thaler, 133 S. Ct. 1911
(2013), in the event the court concluded any of the claims were not properly
presented or exhausted, “Mr. Esposito be given an opportunity to demonstrate that
his state post-conviction attorneys performed deficiently in failing to raise those
specific claims in state court.” Doc. 58, at 21. A COA to address this question and
the underlying merits of this claim should issue.

* App. 195 *

Case: 15-11384

(4)

Date Filed: 05/04/2015

Page: 40 of 61

Defense counsel were ineffective in failing to
object to a crime scene videotape of an
extraneous offense, which the prosecution
introduced at sentencing solely for its
prejudicial effect.

The habeas court lauded defense counsel for “reasonably and zealously
tr[ying] to keep out evidence of Petitioner’s confessions and the Sniders’ murders,”
RX 162:35, and concluded that such efforts precluded a finding of ineffectiveness
for failing to seek the exclusion of any other evidence, irrespective of its
inadmissibility. The court’s praise of counsel’s efforts to keep out the Sniders’
murders is curious, as it is black letter law in Georgia that unadjudicated other crimes
are admissible in the penalty phase of a capital case. See, e.g., Ross v. State, 254 Ga.
22, 31 (1985); Devier v. State, 253 Ga. 604 (1984). The defense argued solely that
the evidence should not be admitted because “they are cases that our clients have not
been convicted of or even tried for.” RX 18, at 167.

As the court observed in

rejecting that argument, “the State has a right to present this evidence. I note your
objection and overrule it.” RX 18, at 168.26

It is certainly puzzling that the habeas court chose to characterize defense
counsel’s effort to keep out evidence of the Sniders’ murders as “reasonab[e]” and
“zealous[],” RX 162:35, inasmuch as counsel filed no motion in limine to exclude
the evidence and the sum total of their argument against its admission consisted of
5.5 lines of transcript text that cited to no case law and provided no cognizable basis
for its exclusion. See RX 18:167. The state court’s characterization of counsel’s
performance is clearly unreasonable in light of the facts.
26

* App. 196 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 41 of 61

Counsel could, however, have made a compelling argument that the evidence
of the Sniders’ murder should be limited – particularly as Mr. Esposito had confessed
to the murders in an unrecorded statement to the FBI that had been ruled admissible
and that was in fact presented in the sentencing phase. See RX 18, at 220-45. Instead,
defense counsel erected no barriers to the prosecutor’s extended presentation of
evidence, much of it needlessly inflammatory, which formed substantial portion of
the state’s penalty phase case-in-chief. In particular, defense counsel should have
objected to a grisly 10-minute videotape of the Texas crime scene depicting a group
of law enforcement officers covering the victims, moving their bodies, and placing
them on gurneys. See RX 18:80-82; State Tr. Ex. 193. This video did not elucidate
any contested issue and was not relevant to any issues before the jury. According to
trial counsel, it was particularly inflammatory:
There was video, when they found the bodies of those other two
individuals they had video films of finding them in the woods and
pictures of the body. I mean, it was a very gruesome scene. And, yes,
sir, that was, to say the least, devastating.
RX 90:238. Despite this recognition, counsel made no effort to prevent the jury
from viewing the video. See RX 19:182.
Defense counsel accordingly should have moved to exclude the crime scene
videotape. See, e.g., Holland v. State, 587 So.2d 848, 864 (Miss. 1991) (holding that
videotape of road leading to burial site, area surrounding site and exhumation of
victim's body, which revealed no more than photographs in evidence “was of no

* App. 197 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 42 of 61

probative value to the State’s case” and should not have been admitted). By failing
to seek its exclusion, counsel created an unacceptable risk that Mr. Esposito was
sentenced to death on the basis of arbitrary factors, such as passion and prejudice.
Livingston, 264 Ga. at 404-05.
The habeas court’s conclusion that defense counsel did enough because they
made a tepid and legally unsupportable argument to exclude evidence of the Snider
murders, while they failed to make any effort to prevent the admission of excessive,
irrelevant and unduly prejudicial evidence of that offense, despite the legitimate
legal basis for doing so. See, e.g., Rompilla, 545 U.S. at 385-86 and n.5 (counsel
have a duty to rebut and try to keep out prejudicial aggravating evidence); Wiggins
v. Smith, 539 U.S. 510, 524 (2003) (same).
(5)

Counsel were ineffective in failing to object
to the jury’s extrajudicial crime scene visit.

Counsel were also ineffective in the guilt phase in allowing the jury to visit
the scene where Ms. Davis was killed outside the presence of counsel and the court,
and accompanied by a sheriff’s deputy who was also a witness. See Doc. 38, at 510 (motion for evidentiary hearing); Doc. 56, at 133-40 (corrected merits brief)
(which are adopted as if set forth in full herein). Although the jury’s trip occurred
during the culpability phase, its prejudicial effect continued into the sentencing
phase. See, e.g., Magill v. Dugger, 724 F.2d 879, 888 (11th Cir. 1987) (finding that

* App. 198 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 43 of 61

deficiencies at both guilt and punishment phases affected the outcome of the penalty
phase and observing that “[a]lthough the guilt and penalty phases are considered
‘separate’ proceedings, we cannot ignore the effect ov events occurring during the
former upon the jury’s decision in the latter”).
The crime scene visit was so “troubling” the Georgia Supreme Court
addressed it sua sponte on direct appeal, although counsel had not challenged it (or
pretty much anything else) in their brief on appeal. The court observed that a trial
judge should always accompany a jury view as “[t]aking a jury from the controlled
environment of a courtroom to a place that has some relevance to the trial always
involves the risk that something unexpected might arise requiring the trial judge’s
intervention,” and noting the “[s]pecial dangers exist whenever a witness at trial,
particularly a law enforcement officer, attends a jury view.” Esposito, 273 Ga. at
187.
The district court denied a hearing to address whether the state habeas court
properly refused to consider juror affidavits regarding the crime scene visit, Doc. 42,
at 4-8, and concluded that counsel were not ineffective in permitting the extrajudicial
crime scene visit, Doc. 67, at 64-68.27 Because reasonable jurists could disagree
with the district court’s adjudication of these issues, a COA should issue.

The court observed that the Supreme Court of Georgia had before it the
juror affidavits when considering Mr. Esposito’s CPC application, and presumably
27

* App. 199 *

Case: 15-11384

b.

Date Filed: 05/04/2015

Page: 44 of 61

Counsel were ineffective in failing to object to the
prosecutor’s improper penalty phase closing
argument.

The prosecutor made numerous improper arguments in his penalty phase
closing argument, but defense counsel failed to object to any. In remaining silent in
the face of the prosecutor’s misconduct, counsel once again provided deplorably
ineffective representation.
(1)

Improper religious arguments.

As noted in the preceding section, the prosecutor capitalized on defense
counsel’s failure to object to the improper introduction of extraneous victim impact
evidence to argue that the death penalty should be imposed because of the Sniders’
devout religious faith. See RX 20, at 162-63 (observing that the Sniders never
missed church on Sunday unless they were sick, but that they would never go to
church again). In addition to this, the prosecutor engaged in grandiose Biblical
quotations in exhorting the jury to impose a death sentence. See RX 20, at 166
(“How long – the good book say, ‘How long shall the wicked by allowed to triumph
and exalt.’ He’s wicked.”); RX 20, at 168 (“‘How these men of evil boast.’ He is a
man of evil.”); RX 20, at 169 (“I’m not going to sugar coat it. And he boasted. He

considered them when finding that Mr. Esposito had not shown the claim to have
arguable merit. Doc. 67, at 67-68.

* App. 200 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 45 of 61

boasted. These are his words, not Fred Bright’s words. These are his words, the
boasting. * * * And what did this man of evil boast?”); RX 20, at 170 (“And what
else did this man of evil – how these men of evil boast – on those five licks . .. .
Arise and judge the earth.”).28 29 The prosecutor concluded with a poignant query
&

about Ms. Davis’s widowed husband approach to death and his heavenly meeting
with his murdered wife:
I don’t know how many days Mr. Foster Miles Davis has left on this
earth. It’s probably few. Probably his days are numbered. He’s been
hanging on for two years. But justice would be when Mr. F.M. Davis
goes to the Pearly Gates in heaven and sees his beloved wife of fifty
years, Mrs. Lola, and he can say, “honey, there was justice on this
earth.” On behalf of the State of Georgia, on the front page of that
document at the bottom, it says, “we,’ the jury fix the punishment at,”
and we ask that you check off the word “death.” Thank you.
RX 20, at 174.

The prosecutor’s words appear to have at least a couple of sources in the
Bible. Psalm 94 includes the verses:
28

O Lord, how long shall the wicked,
how long shall the wicked exult?
They pour out their arrogant words,
All the evildoers boast.
Psalm 82 includes the lines: “Arise, O God, judge the earth; for you shall inherit all
the nations.”
The prosecutor’s reference to Mr. Esposito as “evil” was also improper
and should also have been the subject of defense objection. See, e.g., Wilson v.
Sirmons, 536 F.3d 1064, 1118 (10th Cir. 2008); People v. Johnson, 803 N.E.2d 403,
421 (Ill. 2004); State v. Cauthern, 967 S.W.2d 726, 737 (Tenn. 1998).
29

* App. 201 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 46 of 61

The Georgia Supreme Court and numerous others have recognized that
“biblical references inject the often irrelevant and inflammatory issue of religion into
the sentencing process and improperly appeal to the religious beliefs of jurors in
their decision on whether a person should live or die.” Carruthers v. State, 272 Ga.
306, 309 (Ga. 2000). See, e.g., Farina v. Sec’y Fla. Dep’t of Corr.,

F.3d , 2013

U.S. App. LEXIS 19972 (11th Cir. 9/30/13) (finding that appellate counsel were
ineffective in failing to challenge prosecutor’s religious-based closing argument);
Romine v. Head, 253 F.3d 1349 (11th Cir. 2001) (granting sentencing relief due to
prosecutor’s improper religious argument in favor of death sentence). Moreover, the
prosecutor’s final words – attributing to Ms. Davis’s husband the belief that justice
could be served only by the death penalty – was not simply manufactured, but was
made in outright disregard of clearly established federal and state law prohibiting
victim impact evidence and argument regarding the victim’s opinions about
sentence. See, e.g., Payne v. Tennessee, 501 U.S. 808, 823-27, 830 n.2 (1991)
(declining to overrule precedent establishing that “a victim’s family member’s
characterizations and opinions about the crime” and the “defendant” and the proper
penalty “violates the Eighth Amendment”); Sermons v. State, 262 Ga. 286 (2010)
(“Payne left undisturbed Booth’s holding that the state could not use information or
testimony concerning ‘a victim’s family members’ characterizations and opinions
about the crime, the defendant and the appropriate sentence”) (citing Booth v.

* App. 202 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 47 of 61

Maryland, 482 U.S. 496 (1987)). The state habeas court’s approval of counsel’s
performance under these circumstances was manifestly unreasonable and/or
contrary to clearly established federal law.
(2)

Additional improper arguments.

Defense counsel failed to object to additional improper argument.

The

prosecutor argued, for instance, that, if Mr. Esposito was not sentenced to death, he
would kill again, because he took pleasure from killing, though the state had no
evidence to support this inflammatory argument.

See, e.g., RX 20:155, 167.

Similarly, the State called Mr. Esposito “a serial killer,” though no expert witness
assessed, much less testified, to that. RX 20, at 167.30
The prosecutor also broke the “Golden Rule” by asking jurors to speculate
about the last moments of the victims. See, e.g., RX 20, at 169-70 (“Can you imagine

See State v. Whitfield, 837 S.W.2d 503, 513 (Mo. 1992) (“The terms ‘mass
murderer’ and ‘serial killer’ are pejorative names associated with a small ghoulish
class of homicidal sociopaths who repeatedly and cruelly murder for no apparent
motive than to satisfy a perverse desire to kill or cause pain. No evidence suggests
that the defendant’s prior homicides were of this character. The use of these words
is name calling designed to inflame passions of jurors.).
Scaring the jury into
believing that Mr. Esposito would kill again if not sentenced to death was entirely
improper. “The only relevant issue in a capital sentencing proceeding is the
particular circumstances of the defendant and his offense.” Wallace v. Kemp, 581
F. Supp 1471, 1482 (M.D. Ga. 1984) (citing Lockett, 438 U.S. at 604 n.12). “The
fears and passions of the jury cannot be excited by speculation as to what might
happen if the death penalty is withheld.” Id.
30

* App. 203 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 48 of 61

86 year old Marguerite Snider, married for sixty-two and a half years to her beloved
husband Larry to be sitting out in that Texas field watching that man beat the brains
out of her husband right in front of her. She didn’t even put up a fight. We’ve been
married sixty-two years. He’s 90. Why fight him. Take me, too. I may as well go
with him. I may as well go.”) (emphasis added).31
The prosecutor improperly argued he was an expert in murder cases and, in
his expert opinion, this is one of the few deserving the death penalty, RX 20:161-62,
an argument whose effect was “to assure the jurors that someone with greater
experience has already made the decision that the law imposes on them. The
[argument] invites the jury to rely on the [State]’s conclusion that the defendant is
deserving of death rather than to make its own evaluation of the enormity of the
defendant’s crime.” Tucker v. Zant, 724 F.2d 882, 889 (11th Cir. 1984).
There is no reasonable justification for defense counsel’s failure to object to
the prosecutor’s improper arguments.

“Viewed as a whole, the prosecutor’s

sentencing argument had the obvious effect of inciting the jurors’ passions and
diverting their attention to impermissible considerations.” Tucker, 724 F.2d. at 890.

“A ‘golden rule’ argument is one that, regardless of the nomenclature used,
asks the jurors to place themselves in a victim’s position. We have repeatedly held
that a golden rule argument is improper . . . .” Braithwaite v. State, 275 Ga. 884,
885 (2002) (citing McClain v. State, 267 Ga. 378 (1996)).
31

* App. 204 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 49 of 61

The state habeas court’s failure to find error contravened or was an unreasonable
application of clearly established federal law.
The district court suggested Mr. Esposito failed to exhaust his challenge to
counsel’s failure to object to some of these arguments, Doc. 67, at 71-72, but ruled
that, regardless, he had not shown the arguments were improper or prejudicial, and
accordingly counsel could not be faulted for failing to object to them. Doc. 67, at
72-73. Because reasonable jurists could disagree with the district court’s
determination,32 a COA should issue.
Because reasonable jurists could disagree with the district court’s conclusion
that the state court reasonably found no fault in trial counsel’s performance, a COA
should issue.
B.

Misconduct By The Prosecution Team Deprived Mr.
Esposito Of His Constitutional Rights To Due Process And A
Fair Sentencing Proceeding – Claim Two Of The Federal
Petition.

Mr. Esposito separately challenged the prosecution’s misconduct discussed
above, none of which was the subject of a defense objection at trial. See Doc. 1, at
21-24; Doc. 56, at 98 n.67, 140 n.82. He incorporates the argument and legal

See, e.g., Farina v. Sec’y, Fla. Dept. of Corr., 536 Fed. Appx. 966 (11th
Cir. 2013) (finding appellate counsel ineffective for failing to challenge improper
religious argument, even though the error had not been properly preserved though
objection at trial).
32

* App. 205 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 50 of 61

analysis herein. The district court ruled that, because Mr. Esposito had not shown
counsel were defective in failing to object to the misconduct, he could not establish
cause and prejudice to overcome the procedural default. Doc. 67, at 85. Because
reasonable jurists could disagree with this conclusion for the reasons set forth above,
a COA should issue on this claim.
C.

A COA Should Issue To Address The District Court’s
Failure To Conduct Hearings On State Post-Conviction
Counsel’s Ineffective Failure To Present And Exhaust
Colorable IAC Claims and To Address Whether Trial
Counsel’s Extensive Possession Of Illegal Child Pornography
And Hardcore, But Legal Adult Pornography Undermine
The Credibility Of Counsel’s Testimony In State Court And
Raise Questions About The Reasonableness Of Counsel’s
Failure To Develop And Present Mitigating Evidence Of
Petitioner’s History Of Childhood Sexual Abuse.
1.

The district court erred in refusing to conduct a
hearing to address state post-conviction counsel’s
ineffective representation under Martinez and Trevino.

Mr. Esposito asked the district court to conduct a hearing to address state postconviction counsel’s ineffective representation in the event the court found that any
portions of the IAC claim were procedurally defaulted, in light of the Supreme
Court’s decisions in Martinez v. Ryan, 132 S. Ct. 1309 (2012) and Trevino v. Thaler,
133 S. Ct. 1911 (2013).33 See Doc. 58 at 18-21. The district court ignored this

In Martinez, the Supreme Court carved out an exception to its earlier ruling
in Coleman v. Thompson, 501 U.S. 722 (1991), that there is no right to adequate
33

* App. 206 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 51 of 61

request when concluding that certain aspects of Mr. Esposito’s challenges to
counsel’s failure to object to the admission of prejudicial evidence and counsel’s
failure to object to prosecutorial misconduct, although it noted and repudiated the
request for a hearing pursuant to Martinez and Trevino with respect to Mr. Esposito’s
claim that counsel were ineffective at the motion for new trial stage and on appeal.
See Doc. 67, at 77-79. As this Court’s previous grant of COA in a Georgia case
demonstrates,34 reasonable jurists could conclude that Trevino establishes that
Martinez applies in cases like Mr. Esposito’s and a COA should accordingly issue.

representation in state post-conviction proceedings by provides a mechanism for
federal habeas petitioners to raise claims that Sixth Amendment counsel provided
ineffective representation despite the failure to raise such claims in state postconviction proceedings. The Court held that, where state collateral proceedings
provide the first opportunity to raise a claim that Sixth Amendment counsel were
ineffective, “a procedural default will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in the initial review collateral
proceeding, there was no counsel or counsel in that proceeding was ineffective.” Id.
at 1320. In Trevino, the Court clarified that Martinez applies in jurisdictions outside
Arizona where, like here, a defendant’s opportunity to address ineffective assistance
of trial counsel only meaningfully arises in state post-conviction proceedings. In Mr.
Esposito’s case, he was represented by the same attorneys at trial and on appeal and,
pursuant to Georgia law, could not have challenged the adequacy of his
representation until state post-conviction proceedings where he was finally
represented by new counsel.
See, e.g., Hittson v. GDCP Warden, 759 F.3d 1210, 1262 (11th Cir. 2014)
(granting COA to address whether petitioner was entitled to raise new IAC claims
under Martinez and Trevino, but concluding “leav[ing] to another day” the question
whether those decisions apply to Georgia habeas cases because petitioner failed to
establish that counsel were ineffective or that the defaulted IAC claims were
substantial) (cert. petition pending).
34

* App. 207 *

Case: 15-11384

2.

Date Filed: 05/04/2015

Page: 52 of 61

The district court erred in denying an evidentiary
hearing to address newly discovered evidence bearing
on both the credibility of trial counsel and the quality
of counsel’s investigation and presentation of evidence
that Mr. Esposito was sexually abused as a child.
a.

Although the defense was aware that Mr.
Esposito suffered extensive sexual abuse as a
child, they failed to develop and present evidence
of the abuse.

The sexual abuse that Mr. Esposito suffered as a child should have been at the
forefront of Mr. Esposito’s mitigation case. Early on in the pretrial mitigation
investigation in Mr. Esposito’s case, the defense investigator, Hector Guevara,
uncovered evidence that Mr. Esposito was the victim of repeated acts of child sexual
abuse inflicted by his step-father, Wayne Deese, and others. 35 See RX 106:4781,
4783 (noting that during investigator’s first interview of Mr. Esposito, on March 9,
1998, Mr. Esposito “stated that ‘Wayne sexually and physically abused’ him ‘from
the beginning” and that he “readily talk[ed] about his step-father, Wayne (Deese),
and the molestation/abuse. He states that Wayne molested him from age 3 to age 9

Counsel, moreover, were aware of the sexual abuse even before they hired
Mr. Guevara or any other mitigation investigator. See, e.g., 12/6/97 notes by trial
counsel regarding Mr. Esposito’s admission to Ancora State Hospital (observing that
“John said he was sexually abused at home – By whom? * * * He said he was
sexually abused by mother and step-father”).
35

* App. 208 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 53 of 61

or 10” and that “Wayne’s sister also sexually molested him . . . .”). See also, e.g.,
RX 107:5011 (reporting that Mr. Esposito’s kindergarten teacher recalled incident
where Mr. Esposito once explained his tardiness by reporting that he had been
molested by a man in the woods and that his “ ‘excuse’ was not ‘normal’ (for a child
of that age to come up with)”) (emphasis in original); RX 107:5017 (reporting that
Mr. Esposito’s fourth grade teacher – see RX 94:857-58 – recalled the incident
where Mr. Esposito alleged he had been molested, and that Mr. Esposito had talked
about his mother and step-father’s sex life and reported that his step-father made
obscene phone calls).
Recognizing the importance that child sexual abuse would have at the penalty
phase,36 Mr. Guevara sought information about the sexual abuse from witnesses in
the course of investigating Mr. Esposito’s social history, 37 and Mr. Guevara’s
memoranda and correspondence with trial counsel are replete with references to

See, e.g., Wiggins v. Smith, 539 U.S. 510, 529 (2005) (recognizing child
sexual abuse to be “a major aspect of Wiggins’ background” that trial counsel failed
to investigate). In Wiggins, the Supreme Court found that trial counsel provided
ineffective assistance in failing to investigate their client’s abusive background,
which included “physical torment, sexual molestation, and repeated rape during his
subsequent years in foster care.”
36

37

See, e.g., RX 106, at 4890, 4896, 4915; RX 107, at 5065, 5067, 5078.

* App. 209 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 54 of 61

child sexual abuse as an important mitigating circumstance.38

See, e.g. RX

140:14333, 14334; RX:105:4627, 4628, 4630, 4634, 4638; RX 106:4667, 4670. See
generally Petitioner’s Renewed Motion for Evidentiary Hearing (Filed Under Seal)
(“Sealed Motion”), at 3-8 (Doc. 59-1) (incorporated by reference herein).
Although the mitigation investigator believed that the sexual abuse inflicted
on Mr. Esposito as a child was an important fact in mitigation and alerted trial
counsel to its significance and the need to develop it further, the record does not
demonstrate that trial counsel were similarly interested in pursuing this theme or
appreciated it as the mitigator that it was. Although a few penalty phase defense
witnesses mentioned in passing that Mr. Esposito had been sexually abused as a
child, see RX 20:17, 59, 112, this evidence was not directly elicited by defense
counsel in their questioning, it was not developed in any fashion and no effort was
made to corroborate it. In closing argument, defense counsel did not mention the
sexual abuse Mr. Esposito suffered as a child at all. See RX 20:174-78.

Mr. Guevara also drafted proposed questions for defense witnesses he
anticipated would testify at trial, and he clearly believed it important to elicit
testimony regarding Mr. Esposito’s sexual abuse. See, e.g., RX 106:4693 (proposed
examination of Courtney Greco), 4707 (proposed examination of Angela Caraccilo).
Ms. Greco did not testify because she was let to languish overnight at the Atlanta
airport, rather than being picked up and brought to the trial. RX 90: 87-88. Although
Ms. Caraccilo did testify at trial, Mr. Kelly did not follow his investigator’s
suggested questions and did not ask the witness anything about the sexual abuse Mr.
Esposito experienced throughout his childhood.
38

* App. 210 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 55 of 61

It is clear from the trial record that defense counsel did not consider the
extensive sexual abuse that Mr. Esposito suffered as a child to be a significant
circumstance in mitigation of the death penalty, even though Mr. Esposito’s history
of childhood sexual abuse was entirely consistent with the chosen defense that Mr.
Esposito was less culpable than the manipulative and violent woman with whom he
committed the crime, Alicia Woodward, see RX 90:216; RX 91:277; RX 162:37-38,
and, indeed, explained how it was that he could have ended up in a relationship with
her, see, e.g., RX 91:357-60, 393-97.
b.

Unavailable at the time of the state habeas
proceedings was significant evidence regarding
lead counsel’s own prurient interest in young
children that explains counsel’s failure to
recognize and develop mitigating evidence of
Mr. Esposito’s history of sexual abuse as a child

Close to two months after he testified and following the close of evidence in
the state habeas proceedings, Mr. Esposito’s lead attorney, Roy Robinson Kelly was
arrested and charged with viewing internet child pornography. Ted Dunagan, Judge
Rules for Attorney Robby Kelly, The Monticello News (August 6, 2009). In his posthearing brief, Mr. Esposito alerted the state habeas court to these charges. See RX
157:64 n.9 (noting that “[s]hortly after the evidentiary hearing in this case, in
November 2007, Mr. Kelly was arrested on multiple charges related to child
pornography” and alleging that, “[t]o the extent Mr. Kelly’s criminal activities

* App. 211 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 56 of 61

influenced his representation of Mr. Esposito and played a role in the insufficient
investigation, preparation, and presentation of [Mr. Esposito’s] long history of being
sexually abused by his mother and her lover,” the court could not countenance
counsel’s actions). On April 29, 2011, the state habeas court denied Mr. Esposito’s
habeas petition, noting Mr. Esposito had not presented any evidence establishing a
connection between his IAC claim and the charges against his lawyer. RX 167:18
n.6.
Information concerning the charges against Kelly were not public record until
long after the evidence had closed in Mr. Esposito’s post-conviction case, as the
prosecution remained pending for several years. On July 29, 2009, the trial court
granted Kelly’s motion to suppress the evidence seized from his office and his
computer; the Georgia Court of Appeals affirmed this ruling on March 16, 2010,39
and the Georgia Supreme Court denied the State’s petition for certiorari on
September 7, 2010.40 The case against Mr. Kelly remained pending until November
1, 2010, when the superior court granted a motion to nolle pros the case. On May
17, 2011, special agent Mary Holder requested that the GBI case file be closed.

39

State v. Kelly, 302 Ga. App. 850 (2010).

40

State v. Kelly, 2010 Ga. LEXIS 689 (2010).

* App. 212 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 57 of 61

Undersigned counsel has since obtained the public records of the criminal
investigation of Mr. Kelly. See Doc. 60 and accompanying CD, submitted as an
Appendix (hereinafter “App.”). These reflect that Mr. Kelly had an extensive
collection of internet child pornography downloaded to his office computer and, as
well, an extensive collection (approximate 500 videotapes) of legal but hardcore
adult pornography in his office. See Sealed Motion at 17-18. On the basis of the
evidence seized from Mr. Kelly’s office computer, a Jasper County grand jury
returned an indictment charging him with 20 counts of sexual exploitation of
children, in violation of O.C.G.A. § 16-12-100. See App. 349-60. The indictment
contains graphically detailed descriptions of the photographic images Mr. Kelly
allegedly possessed on his computer, all of which involved images of male and
female children being sexually molested, and almost all of which depict a penis in
or near a child’s mouth or genitals. See id. See also Sealed Motion at 19-20.
Although the charges were ultimately dismissed against Mr. Kelly, this is not
because he was acquitted or exonerated, but because the trial court suppressed the
evidence against him. See Sealed Motion at 20-22.
c.

A COA should issue to address whether the
district court erred in denying a hearing on the
effect of counsel’s prurient interests on both the
investigation and presentation of mitigating
evidence, and the reliability of counsel’s
testimony at the habeas hearing.

* App. 213 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 58 of 61

In the Sealed Motion, Mr. Esposito requested:
[A]n evidentiary hearing to address how lead counsel’s interest in
pornography in general, and illegal child pornography in particular,
may have influenced the defense’s failure to adequately develop and
meaningfully present mitigating evidence regarding the sexual abuse
Mr. Esposito suffered as a child, and to consider how this new evidence
undermines the reliability of the state court’s findings on Mr. Esposito’s
ineffective assistance of counsel claim.
Sealed Motion at 3; see also id. at 27.
The district court denied the renewed request for an evidentiary hearing on the
ground that “[a]ccording to the ‘unwavering language’ of the Supreme Court in
Cullen v. Pinholster, 131 S. Ct. 1388 (2011), this Court’s review of all claims
decided by the state court is limited to the record that was presented to the state postconviction court.” Doc. 65 (Sealed Order), at 6. Because the IAC claim was
adjudicated on the merits, the court ruled, “this Court’s § 2254(d) inquiry is limited
to the record that was before the state habeas court.” Id.
A COA should issue because reasonable jurists could disagree with the district
court’s conclusion that the state court’s adjudication of Mr. Esposito’s IAC claim
was neither an unreasonable application of governing Supreme Court law, nor an
unreasonable determination of the facts in light of the record. See supra; Doc. 67,
at 87-88 (district court order granting partial COA). “Before a habeas petitioner may
be entitled to a federal evidentiary hearing on a claim that has been adjudicated by
the state court, he must demonstrate a clearly established federal-law error or an

* App. 214 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 59 of 61

unreasonable determination of fact on the part of the state court, based solely on the
state court record.” Landers v. Warden, No. 13-11898, 2015 U.S. App. LEXIS 1005,
at *15-16 (11th Cir. Jan. 23, 2015). See also Madison v. Comm’r, 761 F.3d 1240,
1249-50 (11th Cir. 2014) (“Nothing in Pinholster, or any other principle of habeas
corpus, bars a District Court from conducting an evidentiary hearing where, as here
(1) the federal claim was adjudicated on the merits in state court; (2) there is a
determination based only on the state court record that the petition has cleared the §
2254(d) hurdle; and (3) the habeas petitioner tried, but was not given the opportunity
to develop the factual bases of the claim in state court within the meaning of 28
U.S.C. § 2254(e)(2).”). Given the potential significance of the new evidence to an
assessment of trial counsel’s performance and the reliability of the state court
findings, and the fact that this Court will already be addressing whether the state
court unreasonably rejected Mr. Esposito’s sentencing phase IAC claim in
determining, at minimum, whether counsel were ineffective in failing to develop and
present mitigating evidence, it is appropriate for COA to issue regarding whether
Mr. Esposito is entitled to a hearing to address this new evidence.

* App. 215 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 60 of 61

CONCLUSION
For the foregoing reasons, individually and cumulatively, Mr. Esposito
respectfully requests that this Court expand the Certificate of Appealability to
encompass the foregoing issues.
This 4th day of May, 2015.
Respectfully submitted,

___________________________
Brian S. Kammer (Ga. 406322)
Marcia A. Widder (Ga. 643407)
Georgia Resource Center
303 Elizabeth Street, NE
Atlanta, Georgia 30307
404-222-9202
Counsel for Mr. Esposito

* App. 216 *

Case: 15-11384

Date Filed: 05/04/2015

Page: 61 of 61

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
JOHN ESPOSITO,
Petitioner-Appellant,

)
)
)
)
)
)
)
)

vs.
WARDEN,
Georgia Diagnostic Prison,
Respondent-Appellee.

Case No. 15-11384-P

NOTICE OF ELECTRONIC FILING AND CERTIFICATE OF SERVICE
This is to certify that I have filed the foregoing corrected pleading by
uploading it using this Court’s ECF e-filing system, and I have served a copy by
electronic mail on counsel for Appellant directed to the following:
Sabrina Graham, Esq.
Senior Assistant Attorney General
Richard Tangum, Esq.
Assistant Attorney General
132 State Judicial Building
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300
sgraham@law.ga.gov
rtangum@law.ga.gov
This the 4th day of May, 2015.

___________________
Attorney

* App. 217 *

Case: 15-11384

Date Filed: 11/10/2015

* App. 218 *

Page: 1 of 3

Case: 15-11384

Date Filed: 11/10/2015

* App. 219 *

Page: 2 of 3

Case: 15-11384

Date Filed: 11/10/2015

* App. 220 *

Page: 3 of 3

No. 20IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
JOHN ESPOSITO,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
CERTIFICATE OF SERVICE
__________________________________________________________
Pursuant to Supreme Court Rule 29.5(a), I certify that a copy of the Appendix to Petition
for a Writ of Certiorari was sent via 1st Class Mail to the U.S. Supreme Court and a digital copy
was sent to counsel for the Respondent by electronic mail on February 12, 2021. The parties have
consented to electronic service. Respondent’s counsel’s name, address and telephone number are
set forth below:
Sabrina D. Graham, Esp.
Senior Assistant Attorney General
Georgia Office of the Attorney General
Capital Litigation Section
40 Capitol Square, SW
Atlanta, GA 30334
(404) 458-3239
Respectfully submitted,
/s/ Marcia A. Widder
Marcia A. Widder (Ga. 643407)
Georgia Resource Center
104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
(404) 222-9202

